<html>
<title> - A REVIEW OF NASA'S EXPLORATION PROGRAM IN TRANSITION: ISSUES FOR CONGRESS AND INDUSTRY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                 A REVIEW OF NASA'S EXPLORATION PROGRAM
                             IN TRANSITION:
                    ISSUES FOR CONGRESS AND INDUSTRY

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 30, 2011

                               __________

                            Serial No. 112-8

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-305                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          GABRIELLE GIFFORDS, Arizona
    Wisconsin                        MARCIA L. FUDGE, Ohio
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
DANA ROHRABACHER, California         TERRI A. SEWELL, Alabama
FRANK D. LUCAS, Oklahoma             DAVID WU, Oregon
W. TODD AKIN, Missouri               DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             FREDERICA S. WILSON, Florida
SANDY ADAMS, Florida                     
E. SCOTT RIGELL, Virginia                
MO BROOKS, Alabama                       
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas



                            C O N T E N T S

                            Date of Hearing

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    13
    Written Statement............................................    14

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    14
    Written Statement............................................    16

Statement by Representative Jerry F. Costello, Acting Ranking 
  Minority Member, Subcommittee on Space and Aeronautics, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    17
    Written Statement............................................    18

                               Witnesses:

Mr. Douglas Cooke, Associate Administrator, Exploration Systems 
  Mission Directorate, National Aeronautics and Space 
  Administration
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. Scott Pace, Director, Space Policy Institute, George 
  Washington University
    Oral Statement...............................................    34
    Written Statement............................................    36

Mr. James Maser, Chairman, Corporate Membership Committee, The 
  American Institute of Aeronautics and Astronautics
    Oral Statement...............................................    43
    Written Statement............................................    45

Discussion
  ...............................................................      

  ...............................................................      

              Appendix: Answers to Post-Hearing Questions

Mr. Douglas Cooke, Associate Administrator, Exploration Systems 
  Mission Directorate, National Aeronautics and Space 
  Administration.................................................    68

Dr. Scott Pace, Director, Space Policy Institute, George 
  Washington University..........................................    81

Mr. James Maser, Chairman, Corporate Membership Committee, The 
  American Institute of Aeronautics and Astronautics.............    85


   A REVIEW OF NASA'S EXPLORATION PROGRAM IN TRANSITION: ISSUES FOR 
                         CONGRESS AND INDUSTRY

                              ----------                              


                       WEDNESDAY, MARCH 30, 2011

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                     U.S. HOUSE OF REPRESENTATIVES

   A Review of NASA's Exploration Program in Transition: Issues for 
                         Congress and Industry

                       wednesday, march 30, 2011
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    The subcommittee will examine 1) the accomplishments of the 
Constellation program, 2) NASA's transition toward development of the 
Space Launch System (SLS) and Multi Purpose Crew Vehicle (MPCV), and 
compliance with the FY2011 continuing resolution and the NASA 
Authorization Act, 3) the status of the 90-day SLS/MPCV report to 
Congress, and 4) examine the key challenges and risks in implementing 
the proposed changes including outstanding questions and issues for 
Congress from delays or other disruptions to the workforce or aerospace 
industrial base.

Witnesses

    <bullet>  Mr. Douglas Cooke, Associate Administrator, Exploration 
Systems Mission Directorate, National Aeronautics and Space 
Administration

    <bullet>  Dr. Scott Pace, Director, Space Policy Institute, George 
Washington University

    <bullet>  Mr. James Maser, Chairman, Corporate Membership 
Committee, The American Institute of Aeronautics and Astronautics.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Issues

Exploration Capabilities in Transition; Issues for Congress and 
        Industry

    At issue is NASA's compliance with Congressional direction on 
extending and modifying the Constellation contracts, and the 
implications of NASA's actions for the continued, uninterrupted 
progress on the Multi Purpose Crew Vehicle (MPCV) and Space Launch 
System (SLS). Congressional intent, as reflected in authorization and 
appropriation language seek to utilize the existing workforce and 
assets in order to limit the damage to the nation's industrial base and 
workforce.
    As the budget comparison above indicates, the FY2012 budget request 
does not adhere to the funding guidance in last year's authorization 
bill (PL 111-267). The administration's FY2012 budget request for 
Exploration systems is $1.24 billion below the amount specified in the 
Act. Exploration systems is $2.5 billion below when comparing both 
FY2012 and FY2013. In FY2013, the administration does not identify the 
funding specified for the two main components; the MPCV and the SLS.
    In spite of the $2.5 billion reduction over two years in proposed 
funding for Exploration Capabilities, Administrator Bolden said, ``I am 
committed to try to make sure that the funding levels remain about the 
same, and one of the things is beginning in 2013 I have asked and I 
have been granted that we put human exploration in one budget line so 
that we can move the funds around as necessary in each successive year 
so that we marry those programs up when we need them, you know, that 
being the 2020 timeframe . . . ''
    Yet, section 302 of the NASA Authorization Act directs the agency 
to develop the heavy lift system in a way that permits early flight 
testing of the ``core'' stage elements with a goal of an operational 
capability to orbit by December 31, 2016.
    The U.S. space industrial base that has supported the Constellation 
- now MPCV and SLS effort - has waited while the agency settles on a 
plan for human spaceflight, and unless the uncertainty is eliminated in 
the near future, there could be serious disruptions to the aerospace 
workforce and industrial base as key suppliers begin to exit the 
market.

Report due to Congress

    The Authorization Act directed NASA to report back in 90 days on 
the design of the vehicle envisioned, and to provide the assumptions 
and cost analysis to justify the systems selected. On January 10th NASA 
provided a preliminary report containing no detailed cost or schedule 
assessments, yet concluding nevertheless that, ``to date our studies 
have shown that none of those options thus far appear to be affordable 
in our present fiscal conditions, based upon existing cost models, 
historical data, and traditional acquisition approaches.''
    According to NASA it will provide an independent (outside of the 
Agency) assessment of cost and schedule for the SLS and MPCV design 
options, and make those assessments public this Spring or Summer.
    According to the preliminary report, NASA is considering various 
acquisition strategies for the MPCV and SLS which could have 
significant impacts to the workforce and industrial base. Thus far, 
Congress has directed the agency to continue to extend (and modify if 
appropriate), the Constellation contracts to the maximum extent 
practicable (see background below).
    NASA's future acquisition decisions could have wide ranging 
repercussions. The preliminary report states, ``While NASA will work as 
expeditiously as possible to meet the 2016 goal, NASA does not believe 
this goal is achievable based on a combination of the current funding 
profile estimate, traditional approaches to acquisition, and currently 
considered vehicle architectures.''
    When asked by Senator Boozman at the March 15th, 2011 Senate 
Commerce, Science and Transportation Committee hearing on The 
Challenges Facing NASA whether NASA was basing its analysis on the 
funding in the Authorization Act, or the much lower administration 
proposal Associate Administrator Doug Cooke replied, ``we are looking 
at, in these studies, the president's requested budget.''
    A decision to re-compete significant elements of the MPCV or SLS 
could result in delays of as much as two years while the Agency issues 
Requests for Proposals (RFPs), evaluates the proposals, awards 
contracts, adjudicates protests, etc.

Background

    The Constellation program consisted of the Ares 1 crew launch 
vehicle and Orion crew exploration vehicle, the Ares 5 heavy-lift 
launch vehicle, and associated lunar systems. Constellation 
architecture had been established since 2004 as a replacement for the 
retiring Space Shuttle to deliver Americans and our International 
Partners to the International Space Station, and eventually to the Moon 
and other destinations beyond Earth orbit. Constellation was authorized 
in both the NASA Authorization Act of 2005 [P.L.109-155] and the NASA 
Authorization Act of 2008 [P.L.110-422] with a stepping-stone approach 
``to ensure that activities in its lunar exploration program shall be 
designed and implemented in a manner that gives strong consideration to 
how those activities might also help meet the requirements of future 
activities beyond the Moon'' and a range of future destinations ``to 
expand human and robotic presence into the solar system, including the 
exploration and utilization of the Moon, near Earth asteroids, 
Lagrangian points, and eventually Mars and its moons.''
    The administration has presented various - and often conflicting - 
statements and goals for the U.S. Exploration Program. In his April 15, 
2010 remarks at Kennedy Space Center, President Obama said: ``Early in 
the next decade, a set of crewed flights will test and prove the 
systems required for exploration beyond low-Earth orbit. And by 2025, 
we expect new spacecraft designed for long journeys to allow us to 
begin the first-ever crewed missions beyond the moon into deep space. 
We'll start by sending astronauts to an asteroid for the first time in 
history.'' But at the March 2, 2011 House Science, Space, and 
Technology Committee hearing on NASA FY2012 budget proposal, in 
response to a question from Rep. Dana Rohrabacher, Administrator Bolden 
said, ``The International Space Station is the anchor for all future 
exploration. That is our Moon right now.''
    Congress has supported NASA's exploration program and authorized 
$10.8 billion over three years (FY2011-FY2013). The Constellation 
system that the administration proposed canceling is developing an 
array of technologies and heavy lift capabilities applicable to the 
goals of exploration beyond low Earth orbit. Sections 203(a)(1) and 
301(a) of the 2010 NASA Authorization Act expressed the sense of the 
Congress that, ``the ISS, technology developments, the current Space 
Shuttle program, and follow-on transportation systems authorized by 
this Act form the foundation of initial capabilities for missions 
beyond low-Earth orbit to a variety of lunar and Lagrangian orbital 
locations,'' and ``The extension of the human presence from low-Earth 
orbit to other regions of space beyond low-Earth orbit will enable 
missions to the surface of the Moon and missions to deep space 
destinations such as near-Earth asteroids and Mars.''
    The NASA Authorization Act of 2010 directed the agency to develop a 
Space Launch System consisting of a heavy lift launcher (130 ton 
rocket, with 70-100 ton ``core'' capability that could be used to 
launch the crew capsule to the International Space Station by 2016) and 
multi-purpose crew vehicle (the Orion crew capsule). The system was 
envisioned to build upon the technologies and extensive capabilities of 
the Space Shuttle and Constellation systems, and to provide a backup 
capability to access the ISS by 2016 in case the Russian Soyuz, or 
commercial crew initiatives are unavailable. In order to limit 
termination liability costs and avoid disruptions to the workforce and 
industrial base, the 2010 Authorization Act directs NASA to, ``to the 
extent practicable, extend or modify existing vehicle development and 
associated contracts.''


FY2010 Appropriations Direction: Extend or Modify Constellation 
        Contracts

    In the Statement of Managers accompanying the FY 2010 Consolidated 
Appropriations Act, ``The conferees note that the Constellation program 
is the program for which funds have been authorized and appropriated 
over the last four years, and upon which the pending budget request is 
based. Accordingly, it is premature for the conferees to advocate or 
initiate significant changes to the current program absent a bona fide 
proposal from the Administration and subsequent assessment, 
consideration and enactment by Congress.'' The Statement of Managers 
also states that ``Funds are not provided herein to initiate any new 
program, project or activity, not otherwise contemplated within the 
budget request and approved by Congress, consistent with section 505 of 
this Act, unless otherwise approved by the Congress in a subsequent 
appropriations Act. Funds are also not provided herein to cancel, 
terminate or significantly modify contracts related to the spacecraft 
architecture of the current program, unless such changes or 
modifications have been considered in subsequent appropriations Acts.'' 
Similar language was included in the Act itself.
    The Constellation program has racked up a series of impressive 
accomplishments including: 1) the full-scale Pad Abort Test of the crew 
escape system; 2) the near completion of the J2X rocket engine 
currently slated for testing at the Stennis Space Center in May or 
June; 3) the developmental test firings of five segment solid rocket 
motors; 4) the Ares 1X test flight in October 2008. (Please see 
Appendix 1 for a comprehensive list of Constellation program's 
achievements to date.)
    The Constellation program's Orion spacecraft was intended to serve 
as a back-up for commercial cargo services envisioned by the Commercial 
Orbital Transportation Services (COTS) program to service the 
International Space Station. NASA's FY2009 budget request stated, ``It 
[Orion] will be capable of ferrying up to six astronauts (plus 
additional cargo) to and from the International Space Station if 
commercial transport services are unavailable.''

Delays in Commercial COTS Cargo Systems Led to Additional Shuttle 
        Flights

    Significant delays in the COTS commercial cargo development fuel 
concerns that NASA will be unable to provide the logistics support 
necessary to maintain and utilize the International Space Station, or 
to fulfill U.S. obligations to our international partners. (Please see 
the SpaceX and Orbital Sciences COTS milestone charts in Appendix 2.)
    Congress was aware as far back as 2008 that delays in the COTS 
cargo program would likely result in the need for additional Space 
Shuttle flights to assure that adequate spares would be aboard the ISS. 
Thus, section 611 of the NASA Authorization Act of 2008 [P.L.110-422] 
added two additional logistics flights, ``In addition to the Space 
Shuttle flights listed as part of the baseline flight manifest as of 
January 1, 2008, the Utilization flights ULF-4 and ULF-5 shall be 
considered part of the Space Shuttle baseline flight manifest and shall 
be flown prior to the retirement of the Space Shuttle, currently 
scheduled for 2010.''
    As Congress debated the NASA Authorization Act of 2010 [P.L.111-
267] in the Fall of last year, no COTS provider had yet accomplished an 
initial demonstration flight. (SpaceX launched the first of three COTS 
demonstration flights of a Falcon 9/Dragon on December 8, 2010, and the 
other two test flights are tentatively scheduled for late 2011 and 
early 2012.) As a result of these concerns, the NASA Authorization 
funded another Space Shuttle flight (STS-135 will be the last mission 
of the program), ``The Administrator shall fly the Launch-On-Need 
Shuttle mission currently designated in the Shuttle Flight Manifest 
dated February 28, 2010, to the ISS in fiscal year 2011, but no earlier 
than June 1, 2011, unless required earlier by an operations 
contingency.''
    At the March 15th, 2011 Senate Commerce, Science and Transportation 
Committee hearing on The Challenges Facing NASA, Associate 
Administrator Bill Gerstenmaier explained how critical the STS-135 
mission was given the concerns for commercial COTS schedule, ``We see 
that mission as extremely critical to us. What that mission provides 
for us is it gives us some margin that if the commercial providers are 
late and they don't fly in 2011 and 2012 as they plan, then we have got 
some time through 2012 that we will have enough supplies pre-positioned 
on Space Station that we can continue to do quality research, we 
continue to keep our crew size at six onboard station through that 
period of 2012 all the way until 2013. If we don't have that shuttle 
flight, then it's absolutely mandatory that the commercial cargo 
providers come on-line at the end of this year and early in 2012. I 
don't think that is a prudent strategy. We need some margin just as in 
the shuttle world, we thought we understood where we were going to go 
fly, then we had the tank problem that slowed us down a couple months. 
I would expect small problems to show up in the commercial providers as 
well. We need some margin to do that.''
Importance of MPCV and SLS as a Backup and as Assured Access to ISS
    The impending retirement of the Space Shuttle and continuing delays 
in commercial COTS systems, reinforced the need for the backup assured 
ISS access capability envisioned for the original Exploration Systems 
development, as well as to lay the groundwork for exploration beyond 
low Earth orbit. Section 2(9) of the NASA Authorization Act of 2010 
states, ``While commercial transportation systems have the promise to 
contribute valuable services, it is in the United States' national 
interest to maintain a government operated space transportation system 
for crew and cargo delivery to space.''
    Many of NASA's international agreements with the Space Station 
partners were put in place before the decision to retire the Space 
Shuttle. As a result, even after the Space Shuttle has retired, NASA is 
still responsible for cargo delivery and transportation of our 
Canadian, European and Japanese partners to and from the International 
Space Station.
    In Section 201(b) of the NASA Authorization Act of 2010, Congress, 
``reaffirms the policy stated in section 501(a) of the NASA 
Authorization Act of 2005 (42 U.S.C. 16761(a)), that the United States 
shall maintain an uninterrupted capability for human space flight and 
operations in low-Earth orbit, and beyond, as an essential instrument 
of national security and of the capacity to ensure continued United 
States participation and leadership in the exploration and utilization 
of space.''

Appendix 1

Key Achievements of NASA's Constellation Program

    The Constellation Program achieved notable maturity as a flight 
system, as evidenced by the successful completion of a Preliminary 
Design Review in March 2010. This review, following the successful 
Preliminary Design Reviews of the Ares-I launch vehicle and the Orion 
spacecraft, signaled the completion of a coherent Program technical 
approach that aligned content, budget and schedule for Phase I 
Capability, or LEO missions to the ISS. Key development flight and 
ground tests helped the Program to gauge programmatic risk by providing 
hard data in areas having the most uncertainty, providing confidence in 
the Agency's ability to execute the Constellation Phase I Capability 
development within cost & schedule commitments. Associated with this 
review, the Constellation Program also successfully completed the Phase 
I Safety Review, addressing all hazards that would lead to loss of life 
or loss of mission for the integrated system including the launch 
vehicle, spacecraft, and ground systems. Technical studies continued on 
the Constellation Program Phase II content, which would enable missions 
to the Moon & beyond, with technology maturation, trade studies, and 
programmatic planning scenarios all under concurrent development for 
the Altair Lunar Lander, the Ares V heavy lift launch vehicle, and 
Lunar surface habitats. The overall feasibility of the Constellation 
Program Phase II architecture was successfully demonstrated at the 
Lunar Capability Concept Review conducted in 2008. A listing of key 
achievements for the projects comprising the Constellation Phase I 
Capability is provided below.

Key Achievements of the Orion Project

    The Orion Preliminary Design Review (PDR) was successfully 
completed in August, 2009. Both the ISS and Lunar variants of the Orion 
spacecraft were examined during the review. The Orion Project also 
successfully completed the Phase 1 Safety Review of the spacecraft. The 
review addressed all catastrophic loss of crew and/or vehicle, and 
critical loss of mission hazards for both the ISS and Lunar Sortie 
missions. Orion safety analysis integrated the results of hazard 
analysis, probabilistic risk assessment, failure modes analysis, and 
engineering design assessments to provide an integrated design and 
safety assessment consistent with the latest NASA human rating 
requirements. As a result, the Orion design has been more fully 
optimized to minimize safety risk while carefully balancing other 
project cost, schedule, and technical constraints.
    Fabrication of the Orion crew module Ground Test Article, the first 
full scale Orion article designed and manufactured to NASA's rigorous 
human spaceflight specifications, continues. Construction of this 
article has validated many of the advanced production processes, 
equipment and tools necessary to manufacture Orion spaceflight 
hardware. The crew module pressure vessel and primary structure were 
manufactured at the Michoud Assembly Facility in Louisiana using 
friction stir welding, an advanced welding process that yields stronger 
bonds resulting in optimal structural integrity. The article was 
subsequently shipped to a Lockheed Martin facility in Colorado where 
final outfitting, including installation of the thermal protection 
system, secondary structure and spacecraft subsystem simulators is 
underway. Assembly will be complete by July, 2011 at which time 
environmental testing, including mechanical vibration and acoustic 
testing will be initiated. The article will subsequently be shipped to 
NASA's Langley Research Center for high fidelity water landing testing. 
Fabrication of similar Orion service module and launch abort system 
ground test articles is now also underway.
    The first developmental flight test of the Orion Launch Abort 
System (LAS) was conducted at the White Sands Missile Range, New Mexico 
on May 6, 2010. During this test, the Orion LAS accelerated the crew 
module from a standstill to over 500 miles per hour in less than 3 
seconds in a real flight environment exactly as would be required 
during a real launch contingency in order to save the lives of a human 
crew. The Orion LAS includes three newly designed solid rocket motors 
(an abort motor, a jettison motor and an attitude control motor) 
developed to optimize vehicle performance and improve the range of 
survivable abort conditions.
    A thermal protection system (TPS) advanced development project was 
undertaken to address the low maturity level of TPS materials suitable 
for the Orion heat shield. Since the end of the Apollo program, NASA's 
focus on reusable TPS materials such as those used in the Space Shuttle 
eroded NASA's in-house research and development capability and left the 
ablative TPS industry in a state of neglect. The Orion project pursued 
a competitive phased development strategy with succeeding rounds of 
development, testing, and down selections. These efforts re-invigorated 
the ablative TPS industry, re-established a NASA competency to respond 
to future material needs, and transferred mature heat shield material 
and design options to the unmanned and commercial space industry, 
including TPS materials and technology information being used by the 
Mars Science Laboratory spacecraft and SpaceX Dragon capsule.
    A new sensor technology has been developed that will allow easier 
and safer on-orbit rendezvous and docking. The Orion Vision Navigation 
System (VNS) is an advanced LiDAR based relative navigation sensor with 
performance specifications unmatched in today's relative navigation 
sensor market. A flight qualified version of the VNS is installed 
onboard the Space Shuttle Endeavour for the STS-134 mission. During the 
mission, the VNS will be operated in an experimental mode to 
characterize its performance and validate the technology for space 
operations. The VNS is a cross-cutting technology that has been 
developed in partnership with commercial vendors and is applicable for 
future spacecraft requiring rendezvous and dockings as well as other 
terrestrial commercial applications.
    A new, high speed digital data bus protocol leveraging commercial 
developed standards while providing assured delivery of time critical 
data packets demanded by spacecraft command and control applications 
has been successfully developed for Orion. The protocol, referred to as 
Time Triggered Gigabit Ethernet, is an innovative technology employed 
that manages flight critical data as well as mission critical data, 
such as high definition video, over a single network to minimize weight 
and power. The Orion data bus network has been integrated and tested at 
the Honeywell labs in Phoenix, AR. The SAE approval of the Orion bus 
protocols is nearing completion, allowing for multiple vendors to 
supply this critical technology to a variety of commercial and 
government applications.
    The Orion project successfully completed a Landing Systems advanced 
development project to trade, develop, test, and mature candidate 
systems to mitigate the loads imparted to the spacecraft and crew upon 
landing impact. Extensive analysis on the effectiveness of various 
technologies using sophisticated computer models and simulations was 
completed. The Project ensured the analysis was well-grounded by 
building and testing engineering development versions of the most 
promising alternatives, conducting a total of 117 drop tests. These 
efforts significantly advanced the state-of the art knowledge in this 
field and formed the basis for key Orion design decisions. These 
efforts have also provided the basis for the landing systems currently 
being considered by commercial human spaceflight efforts.
    The Orion project successfully completed a formal Integrated 
Baseline Review to assess the adequacy of the integrated project 
baseline (cost, schedule, risk, and technical) following the system 
PDR.

Key Achievements of the Ares Project

    The project completed its Preliminary Design Review in August 2008. 
Building on the successful Preliminary Design Reviews of the Upper 
Stage, Upper Stage Engine (J-2X), and First Stage, this review focused 
on integrated Ares-I launch vehicle design and performance. As a 
prerequisite for the Preliminary Design Review, the Ares Project 
successfully also completed the Phase 1 Safety Review. The review 
addressed all catastrophic (loss of crew/vehicle) and critical (loss of 
mission) hazards for the launch vehicle, integrating the results of 
hazard analysis, probabilistic risk assessment, failure modes analysis, 
and engineering design assessments to provide an integrated design and 
safety assessment consistent with the latest NASA human rating 
requirements.
    In September 2009 and September 2010, NASA and ATK conducted 
successful tests of five segment development motors in Promontory, 
Utah. These tests were designated DM-1 and DM-2. Beyond validating the 
basic performance characteristics of the stage, the tests have enhanced 
modeling and understanding of key attributes that have historically 
been very difficult to predict analytically such as erosive burning, 
thrust oscillations and thrust tail off. Casting for DM-3 has been 
completed and the test is scheduled for later this year. This test will 
characterize and validate performance materials and processes 
applicable to future heavy lift launch systems utilizing solid 
propulsion stages.
    In October 2009, the Ares I-X test flight took place at Kennedy 
Space Center in Florida. Data from more than 700 on-board sensors 
showed that the vehicle was effectively controlled and stable in 
flight. Thrust oscillation frequencies and magnitude data from the Ares 
I-X flight also were consistent with measurements from recent Shuttle 
flights that were instrumented, leading us to conclude that the 
oscillation vibration on the Ares I would be within the bounds that the 
Ares I was being designed to. In the end, this test flight provided 
tremendous insight into the aerodynamic, acoustic, structural, 
vibration, and thermal forces that Ares I would be expected to 
experience. A final report, Final Flight Evaluation Report for Ares I 
Use of Ares I-X Data (APO-1041), was completed in January 2011.
    The Ares Project successfully completed development and 
demonstration on September 30, 2010 of a core end-to-end avionics and 
software integration and test capability. This capability included the 
integration of upper stage software development unit flight computers, 
an initial version of the Upper Stage flight software, a single string 
of First Stage engineering avionics hardware, prototype First Stage 
rock and tilt thrust vector control (TVC) actuators, and a Kennedy 
Space Center-developed Ground System (GS) Launch Control System (LCS) 
interface emulator. The team demonstrated prelaunch checkout and 
commanding, a complete closed-loop Ares vehicle ascent, and descent of 
the recoverable First Stage. State-of-the-art systems modeling & 
simulation capabilities that include hardware integration have broad 
government and commercial launch systems applicability.
    In early 2011, the Upper Stage Element successfully completed 
functional testing and delivery of three lithium-ion (li-ion) battery 
development test units (DTUs). A total of eight additional battery DTUs 
will be delivered to the Marshall Space Flight Center in FY11 for 
further evaluation and testing. The flight unit batteries are designed 
to power launch vehicle avionics and various other flight hardware 
components. Li-ion batteries are rechargeable batteries currently used 
in portable electronic applications. They are growing in popularity for 
military, electric vehicle, and now aerospace applications. The Ares I 
Project is working towards qualification of li-ion technology for human 
space flight.
    The majority of the J-2X engine E10001 parts has been delivered to 
Stennis Space Center and engine assembly has begun with completion 
scheduled for May 2011. Static fire testing is currently slated to 
begin in the June/July 2011 time frame in Test Stand A2. J-2X 
Powerpack-2 Testing will begin in May 2011 in Test Stand A1. The J-2X 
offers a viable upper stage engine option in the development of 
government and commercial human and cargo launch systems.

Key Achievements of the Extra Vehicular Activity (EVA) Project

    The EVA Systems Design Review was successfully completed in May of 
2008. Successful completion of this review signaled completion of top-
level EVA requirements and the associated technical feasibility of the 
design concept to meet the requirements.
    In preparation for EVA Preliminary Design Review, the EVA Systems 
Project developed and delivered 5 prototype suits representing various 
design configurations and architectures to assess their respective 
merits in areas such as mobility, ease of donning and doffing, 
durability, reliability and safety.
    The EVA Systems Project completed a formal Integrated Baseline 
Review in January of 2010.

Key Achievements in Ground Systems, Mission Operations, and 
        Infrastructure

    A two-year renovation of Kennedy Space Center's Operations & 
Checkout (O&C) building has been completed, resulting in a pristine new 
spacecraft ``factory of the future.'' Built in 1964, the O&C building 
will continue its proud heritage of supporting every U.S. human 
spaceflight endeavor since the Gemini Program. Lockheed Martin and 
Space Florida partnered with NASA to create this state-of-the-art 
facility that will allow final assembly and checkout of the Orion 
spacecraft to be completed at the launch site.
    At Kennedy Space Center in Florida, the deconstruction of Launch 
Pad 39B was initiated in October 2010 with the removal of the Rotating 
and Fixed service structures. Completion of the deconstruction is 
scheduled for April 30, 2011. These structures at the pad are no longer 
needed for NASA's Space Shuttle Program, so the pad is being renovated 
for future use. The new design will feature a ``clean pad'' for rockets 
to come with their own launcher, making it more versatile for a number 
of vehicles. The new lightning protection system, consisting of three 
lightning towers and a wire catenary system will remain.
    In September 2010, four-year Launch Equipment Test Facility (LETF) 
renovation effort was completed at the Kennedy Space Center in Florida. 
The LETF includes a 600-ton test fixture used for tension and 
compression testing, a water flow test loop that tests valves, pumps 
and flow meters, two launch simulation towers and two 15,000-gallon 
cryogenic towers. The new Vehicle Motion Simulator, or VMS, simulates 
all the movements a vehicle will experience from rollout to launch.
    At NASA's Kennedy Space Center in Florida, NASA's new mobile 
launcher (ML) support structure was completed in August 2010 and was 
moved from a construction site, north of the Vehicle Assembly Building 
(VAB), to the Mobile Launcher east park site. The base of the launcher 
is lighter than space shuttle mobile launcher platforms so the crawler-
transporter can pick up the heavier load of the tower and a taller 
rocket. Once there, the ML can be outfitted with ground support 
equipment, such as umbilicals and access arms, for future rocket 
launches. It took about two years to construct the 355-foot-tall 
structure, which will support NASA's future human spaceflight program.
    Construction of an advanced Space Environmental Test Facility (SET) 
at Glenn Research Center's Plum Brook Station in Ohio was initiated in 
2007 and will be complete in the summer of 2011. Development of this 
facility will allow all Orion vehicle level qualification testing 
including mechanical vibration, acoustics, EMI and thermal vacuum 
testing to be accomplished in a single facility.
    A hydro impact water basin was constructed at NASA's Langley 
Research Center in Virginia. This facility is available to support 
water landing impact testing of Orion and commercial spacecraft.
    At NASA's Stennis Space Center in Mississippi, construction 
continues on a new engine test stand. The 300-foot-tall, steel-framed 
stand will be used to test the J-2X rocket engine. When completed in 
2013, the A-3 test stand will allow engineers to evaluate the operating 
parameters of the J-2X engine by simulating conditions at altitudes as 
high as 100,000 feet. Construction on the stand began in August 2007At 
NASA's Johnson Space Center in Texas, architectures for the Mission 
Control Center-21 (MCC-21) project are being developed. The MCC-21 
design features a modern architecture leveraging recent advances in 
technology to lower overall sustaining costs while increasing the 
flexibility and capability of the system. In concert with the MCC-21, 
the Training System (TS)-21 will provide a generalized simulation-based 
training capability for crew and flight controllers. This approach will 
support integration of a variety of future spacecraft rather than a 
single program or vehicle, develop simulation with integrated 
instructor tools that will provide common behavior across vehicle 
trainers; and create a simulation interface that supports a variety of 
vehicle-specific integration models. The Preliminary Design Reviews for 
MCC-21 and TS-21 will be held in the summer of 2011.
    Several world-class manufacturing capabilities for liquid stage 
structures foaming, machining, and welding have been fabricated and 
installed at Alabama's Marshall Space Flight Center. These 
capabilities, the Vertical Milling Machine (the world's largest 
horizontal multi-axis milling machine), the Robotic Weld Tool, the 
Vertical Weld Tool, and the Spray-On Foam Insulation Booth, are 
adaptable and useful for a myriad of spacecraft applications.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order.
    Good morning, everyone. Welcome to today's hearing entitled 
``A Review of NASA's Exploration Program in Transition: Issues 
for Congress and Industry.'' In front of you are packets 
containing the written testimony, biographies and truth in 
testimony disclosures for today's witness panel. I recognize 
myself for five minutes for an opening statement.
    I would like to welcome everyone to today's Subcommittee 
hearing to review the transition of NASA's exploration programs 
as directed in last year's authorization act. We have a 
distinguished panel of witnesses who will give us the status of 
the capabilities that have been developed by the Constellation 
program, as well as the current status of the transition 
activities that have taken place over the past year, and the 
effect those changes are having on the aerospace workforce and 
industrial base.
    I am happy that we are joined today by the Chairman of the 
Science, Space, and Technology Committee, Chairman Ralph Hall. 
I will keep my remarks brief so I can yield my remaining time 
to the Chairman for his opening statement.
    During the previous three reauthorization cycles, including 
last year's bill, Congress has been clear about its desire to 
develop a government-owned launch system capable of taking 
astronauts to low Earth orbit and beyond. This Administration, 
on the other hand, has advocated an approach where NASA would 
rely exclusively on commercial companies to provide 
transportation to low Earth orbit. And while a government-owned 
capability to extend deeper in space is a ``nice-to-have,'' the 
Administration seems to reason there is no rush to develop such 
a system, arguing that we aren't prepared nor can we afford to 
undertake a deep space mission in this decade. I disagree, and 
I think the law is clear: Congress expects NASA to develop a 
Space Launch System and Multi-Purpose Crew Vehicle in time to 
serve as a back-up to the commercial companies, who will likely 
encounter delays. And just as importantly, by building a 
follow-on system now, NASA will provide continuity for the 
skilled engineers and technicians who underpin our Nation's 
space capabilities. To not engage them would ensure a quick 
withering away of the skill base, and it would take years and 
billions of dollars to revive that capability. As Mr. Maser 
makes clear in his testimony, the Nation's aerospace workforce 
and industrial base is a perishable national asset that can 
disappear.
    Many of my constituents have been working on the 
Constellation program at the Stennis Space Center for a number 
of years. The J-2X upper stage rocket engine should be 
completed in May, and is scheduled for testing at Stennis in 
June or July. The J-2X is one of many advanced capabilities 
developed over the past few years that could be applied 
directly toward a heavy-lift Space Launch System.
    In the very tight fiscal environment we are in, NASA must 
make maximum use of every hard-won capability at its disposal. 
The decisions that NASA has made, and will make over the next 
few months, could have a profound effect on the future of the 
aerospace workforce and industrial base. These are important 
decisions affecting thousands of people and hundreds of 
millions of dollars of investment in national capabilities, and 
it is vital that NASA proceed with care but not delay.
    I look forward to the testimony of our witnesses.
    [The prepared statement of Mr. Palazzo follows:]

    Prepared Statement of the Subcommittee on Space and Aeronautics 
                       Chairman Steven M. Palazzo

    Good morning. I'd like to welcome everyone to today's subcommittee 
hearing to review the transition of NASA's Exploration programs as 
directed in last year's Authorization Act. We have a distinguished 
panel of witnesses who will give us the status of the capabilities that 
have been developed by the Constellation program, as well as the 
current status of the transition activities that have taken place over 
the past year, and the effect those changes are having on the aerospace 
workforce and industrial base.
    I am happy that we are joined today by the Chairman of the Science, 
Space, and Technology Committee, Ralph Hall. I will keep my remarks 
brief so I can yield my remaining time to Chairman Hall for his opening 
statement.
    During the previous three reauthorization cycles - including last 
year's bill - Congress has been clear about its desire to develop a 
government-owned launch system capable of taking astronauts to low 
Earth orbit and beyond. This Administration, on the other hand, has 
advocated an approach where NASA would rely exclusively on commercial 
companies to provide transportation to low Earth orbit. And while a 
government-owned capability to extend deeper in space is a `nice-to-
have', the Administration seems to reason there is no rush to develop 
such a system, arguing that we aren't prepared - nor can we afford - to 
undertake a deep space mission in this decade. I disagree, and I think 
the law is clear; Congress expects NASA to develop a Space Launch 
System and Multi Purpose Crew Vehicle in time to serve as a back-up to 
the commercial companies, who will likely encounter delays. And just as 
importantly, by building a follow-on system now, NASA will provide 
continuity for the skilled engineers and technicians who underpin our 
nation's space capabilities. To not engage them would ensure a quick 
withering-away of this skill base, and it would take years, and 
billions of dollars to revive that capability. As Mr. Maser makes clear 
in his testimony; the nation's aerospace workforce and industrial base 
is a Perishable National Asset that can disappear.
    Many of my constituents have been working on the Constellation 
program at the Stennis Space Center for a number of years. The J-2X 
upper stage rocket engine should be completed in May, and is scheduled 
for testing at Stennis in June or July. The J-2X is one of many 
advanced capabilities developed over the past few years that could be 
applied directly toward a heavy-lift Space Launch System. In the very 
tight fiscal environment we are in, NASA must make maximum use of every 
hard-won capability at its disposal. The decisions that NASA has made, 
and will make over the next few months could have profound effects on 
the future of the aerospace workforce and industrial base. These are 
important decisions affecting thousands of people and hundreds of 
millions of dollars of investment in national capabilities, and it is 
vital that NASA proceed with care, but not delay. I look forward to the 
testimony of our witnesses.
    I now yield my time to the Chairman of the Science, Space, and 
Technology Committee - Ralph Hall - for his opening statement.

    Chairman Palazzo. I now yield my time to the Chairman of 
the Science, Space, and Technology Committee, Ralph Hall, for 
his opening statement.
    Chairman Hall. I thank you, Chairman Palazzo, for holding 
this very important and timely hearing, and thanks to our 
witnesses for taking the time that they have taken to prepare, 
to travel here and to give us their time and to share their 
many years of very valuable experience and insight.
    I have seen such great Americans, who are friends of mine 
and friends of many of us here like General Tom Stafford, Buzz 
Aldrin, Neil Armstrong, Gene Cernan and many, many others who 
risked their lives, and some give their lives, to explore space 
and demonstrate the strength and resolve of our country. They 
are real heroes. When they left to go to some of their 
destinations, they weren't positive that they were going to 
come back. These men and women are really heroes.
    Last year, I listened to their very strong testimony and I 
agreed with them that the President's plan took us absolutely 
in the wrong direction and took our country in the wrong 
direction. His decision on human exploration of space as set 
out absolutely undermined five years of broad bipartisan and 
bicameral support, Republicans and Democrats working together, 
and was made without clear direction or analysis. The 
President's action has spawned thousands of lost jobs and cast 
fear and doubt throughout the industry.
    Last year, after careful consideration, and contrary to the 
President's objections, thank goodness, Congress laid out its 
plan and passed the NASA Authorization Act of 2010. The debate 
is over. This Act is the law. NASA has its direction. The 
Administration needs to acknowledge this and Act accordingly. 
They don't need to be going to Florida nor to Alabama nor to 
Texas threatening those people and telling them that they don't 
have to comply with acts of Congress. I just think Congress, 
both the majority of Democrats and Republicans in the House and 
Senate, are committed to ensuring that NASA follows the law. I 
expect them to. I think they will. I respect them.
    We have heard favorable comments from those same astronauts 
who risked it all for our space program. They told us of the 
importance of continuing to develop these exploration systems 
for ensuring we can get back to the Space Station, and 
preparing for missions beyond low Earth orbit.
    But as we have seen from the fiscal year 2012 budget 
request, the Administration is trying to ignore the thrust of 
this Act. We expect NASA to proceed with the uninterrupted 
development of the Space Launch System and Multi-Purpose Crew 
Vehicle that builds upon and takes maximum advantage of the 
significant work and capabilities that already exist. There is 
broad agreement on the importance of minimizing disruptions to 
an industrial base that is already reeling from the end of the 
space shuttle program.
    NASA should make the most expeditious choices possible to 
minimize the adverse impact on the aerospace workforce and 
industrial base. If further bidding is required, and I am not 
suggesting that it is, NASA should ensure it has truly 
qualified bidders that should be called upon to demonstrate 
their financial strength and technical capabilities to give 
some assurance that they can follow through and finish what 
they begin.
    In total, the NASA authorization provides $10.8 billion 
over three years to continue the exploration systems work. This 
is a significant commitment. NASA must not delay. Lengthy 
studies are no longer needed. Lengthy new starts will not be 
tolerated. We are well beyond that point. Congress has given 
clear direction and we expect NASA to comply.
    Before closing, I want to address a short statement to Mr. 
Cooke, and be clear this is not directed at you personally. 
This Committee did not receive your testimony until a little 
after 4 p.m. yesterday. We have had limited time to review your 
statements in any detail, which does a serious disservice to 
the hearing process. This isn't the first time that NASA's 
statements have arrived at the 11th hour. Even in the prior 
Congress under Democratic control, NASA's testimony was prone 
to be late. So when you return to headquarters, I hope you will 
tell your folks there that is unacceptable practice and that we 
don't expect it to be continued. I want to work with you, I am 
going to work with you. Please let us work with you. I will not 
condone this type of bureaucratic behavior, and I don't think 
you would be proud of it.
    If I have any time left, I yield it back.
    [The prepared statement of Mr. Hall follows:]

               Prepared Statement of Chairman Ralph Hall

    Thank you Chairman Palazzo for holding this important, and timely 
hearing. And thanks to our witnesses for taking the time to share their 
many years of valuable experience and insight.
    I have seen such great Americans, who are friends of mine - like 
General Tom Stafford, Buzz Aldrin, Neil Armstrong and Gene Cernan - 
risk their lives to explore space and demonstrate the strength and 
resolve of America. They are real heroes. They didn't know if they 
would return.
    Last year, I listened to their strong testimony and I agreed with 
them that the president's plan took our country in the wrong direction. 
His decision on human exploration of space undermined 5 years of broad 
bipartisan and bicameral support, and was made without clear direction 
or analysis.
    The president's action has spawned thousands of lost jobs and cast 
fear and doubt throughout the industry. Last year, after careful 
consideration, and contrary to the president's objections, Congress 
laid out its plan and passed the NASA Authorization Act of 2010.
    The debate is over. This Act is the law. NASA has its direction. 
The administration needs to acknowledge this, and Act accordingly.
    Congress - both the majority of Democrats and Republicans in the 
House and Senate - are committed to ensuring that NASA follows the law.
    We have heard favorable comments from those same astronauts who 
risked it all for our space program. They told us of the importance of 
continuing to develop these exploration systems, for ensuring we can 
get back to the Space Station, and preparing for missions beyond low 
Earth orbit.
    But as we have seen from the FY2012 budget request, the 
administration is trying to ignore the thrust of this Act. We expect 
NASA to proceed with the uninterrupted development of the Space Launch 
System (SLS) and Multi Purpose Crew Vehicle (MPCV) that builds upon - 
and takes maximum advantage of - the significant work and capabilities 
that already exist. There is broad agreement on the importance of 
minimizing disruptions to an industrial base that is already reeling 
from the end of the space shuttle program.
    NASA should make the most expeditious choices possible to minimize 
the adverse impact on the aerospace workforce and industrial base. If 
further bidding is required - and I'm not suggesting that it is - NASA 
should ensure it has truly qualified bidders that should be called upon 
to demonstrate their financial strength and technical capabilities to 
give some assurance that they can follow-through and finish what they 
begin.
    In total, the NASA authorization provides $10.8 billion over three 
years to continue the exploration systems work. That is a significant 
commitment. NASA must not delay. Lengthy studies are no longer needed. 
Lengthy new starts will not be tolerated. We are well beyond that 
point. Congress has given clear direction and we expect NASA to comply.
    Before closing, I want to address a short statement to Mr. Cook, 
and be clear this is not directed at you personally. This Committee did 
not receive your testimony until a little after 4:00pm yesterday. We 
have had very limited time to review your statement in any detail, 
which does a serious disservice to the hearing process. This isn't the 
first time that NASA's statements have arrived at the 11th hour. Even 
in the prior Congress under Democratic control, NASA's testimony was 
prone to late arrival. So when you return to headquarters, I need you 
to tell your folks that this is an unacceptable practice and that I do 
not expect it to be continued. I will not condone this type of 
bureaucratic behavior.
    Thank you, Mr. Chairman.

    Chairman Palazzo. Thank you, Chairman Hall.
    The Chair now recognizes Mr. Costello for an opening 
statement.
    Mr. Costello. Mr. Chairman, thank you, and Mr. Chairman, I 
thank you for calling this hearing today, and let me associate 
myself with the remarks made by Chairman Hall, and Mr. Cooke, 
as Chairman Hall stated, it is not directed at you. I think we 
all realize that you are dealing with OMB but it is 
unacceptable and it is a disservice to this Subcommittee and to 
the full Committee and to the Members of this Committee, so I 
hope you take that back both to your bosses and to the 
Administration.
    Mr. Chairman, I would like to start off by saying a few 
words about Congresswoman Giffords, a true champion of our 
Nation's space program. Ms. Giffords worked tirelessly during 
the 111th Congress to ensure NASA's human space exploration 
program remained the most innovative in the world. I am honored 
to serve as the acting Ranking Member today at this 
Subcommittee as we continue her work.
    Through the 111th and 112th Congresses, this Committee has 
held several hearings to discuss the future of NASA's 
exploration program as it faced budget challenges and 
considered serious changes to its mission. Despite these 
ongoing discussions, we still have not received concrete 
answers on how NASA plans to transition away from the 
Constellation program and achieve the goals outlined by 
Congress in the 2010 Authorization Act. It is my hope that we 
receive specific information on four key issues here today from 
our witnesses.
    First, I would like to know the status of the General 
Counsel's review of how existing Constellation contracts can be 
modified to carry out work on the crew capsule and heavy-lift 
launch vehicles as Congress intended in the Authorization Act.
    Secondly, NASA has a preliminary baseline approach to 
developing a heavy-lift vehicle after completing several 
studies to select the most efficient and cost-effective design. 
I would like to hear an exact timeline and date for when NASA 
will start work on the new vehicle.
    Third, during debate on the 2010 NASA Authorization Act, 
Congresswoman Giffords expressed serious concerns about NASA's 
ability to achieve the stringent exploration goals at the 
authorized funding levels. In view of her concerns, I would 
like to hear from each one of our witnesses if the heavy-lift 
vehicle and the Multi-Purpose Crew Vehicle have a real future 
at the current funding levels.
    Finally, this Committee needs a clear understanding of 
NASA's mission for human exploration and the two vehicles it 
will develop under the authorization. Without concrete goals 
and benchmarks, we have no way of measuring the program's 
success.
    I hope today's hearing will provide the opportunity for 
Members of the Subcommittee to understand how NASA will achieve 
the exploration mission and how Congress and the Administration 
can work together to reach these goals.
    Mr. Chairman, I thank you again for calling the hearing. I 
welcome the panel of witnesses and I look forward to hearing 
their testimony and specifically addressing the four issues 
that I have raised in my opening statement. Thank you, and I 
yield back.
    [The prepared statement of Mr. Costello follows:]

      Submitted Statement of Acting Ranking Member Jerry Costello

    Mr. Chairman, thank you for holding today's hearing to review the 
current status and the future of the National Aeronautics and Space 
Administration (NASA) exploration program.
    I would like to start by saying a few words about Congresswoman 
Giffords, my good friend and a true champion of our nation's space 
program. Ms. Giffords worked tirelessly during the 111th Congress to 
ensure NASA's human space exploration program remained the most 
innovative in the world. I am honored to serve as Acting Ranking Member 
today as this Subcommittee continues her work.
    Through the 111th and 112th Congresses, this Committee has held 
several hearings to discuss the future of NASA's exploration program as 
it faced budget challenges and considered serious changes to its 
mission. Despite these ongoing discussions, we still have not received 
concrete answers on how NASA plans to transition away from the 
Constellation Program and achieve the goals outlined by Congress in the 
2010 Authorization Act.
    Following your testimony, it is my hope to receive specific 
information about four key issues. First, I would like to know the 
status of the General Counsel's review of how existing Constellation 
contracts can be modified to carry out work on the crew capsule and 
heavy lift launch vehicles as Congress intended in the 2010 
Authorization Act.
    Second, NASA has determined a baseline approach to developing a 
heavy-lift vehicle after completing several studies to select the most 
efficient and cost-effective design. I would like to hear an exact 
timeline and date for when NASA will start work on the new vehicle.
    Third, during debate on the 2010 NASA Authorization Act, 
Congresswoman Giffords expressed serious concerns about NASA's ability 
to achieve the stringent exploration goals at the authorized funding 
levels. Ms. Giffords is a champion of the human space exploration and 
she recognizes the importance of moving this program forward in a 
responsible way. In view of her concerns, I would like to hear from our 
witnesses if the heavy-lift vehicle and the multi-purpose crew vehicle 
have a real future at the current funding levels.
    Finally, this Committee needs a clear understanding of NASA's 
mission for human exploration and the two new vehicles it will develop 
under the Authorization. Without concrete goals and benchmarks we have 
no means of measuring the program's success.
    I hope that today's hearing will provide the opportunity for 
Members of the Subcommittee to understand how NASA will achieve its 
exploration mission and how Congress and the Administration can work 
together to reach those goals.
    I welcome our panel of witnesses and look forward to their 
testimony. I yield back the balance of my time.

    Chairman Palazzo. Thank you, Mr. Costello.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witness panel. 
Our witnesses today are Mr. Doug Cooke, NASA's Associate 
Administrator for the Exploration Systems Mission Directorate. 
Mr. Cooke has experience with the space shuttle, Space Station, 
and exploration programs during his distinguished 37-year 
career at NASA. Dr. Scott Pace is the Director of the Space 
Policy Institute at George Washington University and a former 
Assistant Director for Space and Aeronautics in the White House 
Office of Science and Technology Policy. Mr. Jim Maser will 
testify today as the Chairman of the Corporate Membership 
Committee of the American Institute of Aeronautics and 
Astronautics. Mr. Maser is also the President of Pratt and 
Whitney Rocketdyne and is well prepared to give us an industry 
perspective on the state of the aerospace industrial base and 
the uncertainty surrounding NASA transition plans.
    I want to thank all of you for taking the time and effort 
to appear before us today. As our witnesses should know, spoken 
testimony is limited to five minutes each after which the 
Members of the Committee will have five minutes each to ask 
questions.
    I now recognize as our first witness, Mr. Doug Cooke, 
Associate Administrator of the Exploration Systems Mission 
Directorate at NASA. Mr. Cooke.

STATEMENT OF DOUGLAS COOKE, ADMINISTRATOR, EXPLORATION SYSTEMS 
   DIRECTORATE, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Cooke. Chairman Palazzo and Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today to talk about the future of human spaceflight and 
exploration and in particular to talk about the next generation 
of human spaceflight vehicles known as the Space Launch System, 
or SLS, and the Multi-Purpose Crew Vehicle, or MPCV. Before 
beginning, I would like to express my thoughts on a couple of 
matters.
    Last year, I appeared before this Subcommittee, which was 
chaired by Congresswoman Giffords. My wife, Renee, and I met 
with her beforehand and I was very impressed with her as a 
person and by her strong support for human spaceflight. I would 
just like to acknowledge her as a colleague of yours and a 
member of the NASA family and extend my very best wishes for 
her recovery.
    Second, I want to thank all the NASA and industry team who 
support exploration programs and activities. They continue to 
work tirelessly to further exploration beyond low Earth orbit 
even through challenging and uncertain times that we have 
experienced. I am constantly in awe of their dedication and 
drive. It is very obvious that exploration is a passion for 
them and not just a job. I personally owe them my best efforts 
to get us on a stable path through the efforts we have 
underway, and I think you share that objective. And now onto 
the business at hand.
    Let me assure you that NASA is aggressively addressing the 
specifics required in the NASA Authorization Act of 2010 and to 
providing a path forward in the coming months for the SLS and 
MPCV in terms of specific designs that are within budget 
constraints. We are also compelled to apply the capabilities, 
lessons learned and knowledge gained through the Constellation 
program to SLS and MPCV efforts.
    At the same time, we are committed to continuing with our 
successful human research program and to furthering 
demonstrations of maturation of capabilities through commercial 
cargo as well as new investments in commercial crew 
capabilities for low Earth orbit and to support the Space 
Station. We will augment the work on SLS and MPCV by initiating 
in-house development of concepts and prototypes of advanced 
systems and vehicles also needed for exploring the various 
destinations. The Space Station will provide an opportunity to 
test many of these capabilities as we prepare for the future. 
Therefore, our civil servants across the agency should feel 
confident there is exciting, meaningful work for them following 
retirement of the shuttle and transition from the Constellation 
program as we focus on a more capability-driven exploration 
architecture.
    Moving forward, one thing is very clear. Developing a 
heavy-lift capability and a deep-space crew vehicle are the 
first, most important steps needed to send crews to multiple 
destinations of interest in human exploration. Therefore, the 
SLS and MPCV will and must be capable of transporting 
astronauts to multiple destinations beyond low Earth orbit. 
Destinations could include Lagrange points lunar surface, 
visits to near-Earth asteroids and travel to the premier 
destinations of Mars and its moons, Phobos and Deimos. All 
these places hold incredible information for us with 
discoveries that we probably can't even imagine at this point.
    In a constrained budget environment, we know how important 
it is to search for ways to make our programs and projects more 
efficient through our contracting and management approaches, 
and we are embracing this challenge. We have stepped up 
activities in-house and in collaboration with our current 
industry partners to implement cost-saving measures.
    After passing of the Authorization Act, NASA immediately 
began studying potential SLS and MPCV configurations based on 
the requirements of the Act. We have selected a reference 
design vehicle for the MPCV and SLS, both of which are 
consistent with the Act and are supported with our past study 
results.
    For MPCV, NASA has chosen the beyond-low Earth orbit 
version of the Orion crew vehicle as that design. The Orion 
development effort has already benefited from significant 
investments and progress to date and the Orion requirements 
closely match MPCV requirements as defined in the Authorization 
Act.
    For the SLS, we have selected an Ares shuttle-derived 
vehicle as our reference vehicle design. This system will 
provide 130-metric-ton capability described in the 
Authorization Act. We would begin with a scaled-back version of 
the same components to provide initial capability of 70 to 100 
metric tons to achieve the earliest possible deployment that 
fits within budget constraints. We have NASA study teams that 
are also looking at liquid oxygen/kerosene vehicle, a modular 
vehicle approach, and are looking at affordability of these 
various design approaches. We have awarded 13 study contracts 
to industry to have them help provide their best ideas and 
innovative approaches toward a heavy-lift vehicle. In parallel, 
we have procurement teams tracing requirements between MPCV and 
SLS to the current shuttle and the Constellation designs to 
understand how much the new work is within scope of those 
contracts.
    Although much work remains to be accomplished over the next 
months, we are committed to developing programs and places that 
are executable both in terms of schedule and cost. We are 
continuing to work on Constellation contracts consistent with 
directions in law and are prioritizing work that has a high 
likelihood of being applicable to SLS and MPCV. We also are in 
the process of setting up program offices at three centers, one 
at Marshall for SLS, one at JSC for MPCV, and one at KSC for 
commercial crew development office.
    In conclusion, I believe that throughout history countries 
have led an exploration of the uncharted and unknown, and these 
countries have been great world leaders of their time. Today 
our country through NASA is at the beginning of a new adventure 
in space travel, one that presents challenges that are 
appropriate for the talents and resources of our Nation, both 
now and for generations to come. Our new adventure will build 
on sacrifices and achievements of the past and will contribute 
to and reinforce our place in world leadership. With your help, 
together we can and will create a bold legacy for future 
generations.
    I thank you for your interest and I welcome your questions.
    [The prepared statement of Mr. Cooke follows:]

 Prepared Statement of Douglas Cooke, Associate Administrator for the 
                Exploration Systems Mission Directorate

    Chairman Palazzo and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the future of NASA's 
human spaceflight program, and in particular the progress NASA is 
making on developing the next-generation human spaceflight 
transportation systems, currently known as the Space Launch System 
(SLS) and the Multi-Purpose Crew Vehicle (MPCV), as well as their 
associated mission and ground support elements and other programs of 
the Exploration Systems Mission Directorate.
    With passage of the NASA Authorization Act of 2010 (P.L. 111-267) 
on October 11, 2010, NASA has a clear direction for our human 
spaceflight programs, and we are aggressively moving forward with our 
next-generation human spaceflight system development efforts. NASA 
appreciates the significant effort made in advancing this important 
bipartisan legislation, and we look forward to working with you to 
shape a promising future for our Nation's human spaceflight programs.
    The President's FY 2012 budget request continues to focus Agency 
efforts on a vigorous path of innovation and technological development 
leading to an array of challenging and inspiring missions to 
destinations with an incredible potential for discovery, increasing our 
knowledge of our solar system, developing technologies to improve life, 
expanding our presence in space, increasing space commerce, and 
engaging the public. Within the human spaceflight arena, our foremost 
priority is our current human spaceflight endeavor and the safety and 
viability of our astronauts. The request also maintains a strong 
commitment to human spaceflight beyond low Earth orbit (LEO) via a 
capability-driven architecture that will focus on increasingly complex 
destinations as we develop the technical expertise for those expanding 
missions ever-deeper into our solar system. It focuses on utilization 
and operation of the International Space Station (ISS), and on 
establishing a U.S. commercial crew and cargo capability to reach this 
National Laboratory to maintain our national human space flight 
capability rather than rely on foreign-bought services. It establishes 
critical priorities and invests in the technologies and excellent 
science, aeronautics research, and education programs that will help us 
win the future. The request supports an aggressive launch rate over the 
next two years with about 40 U.S. and international missions to the 
ISS, for science, and to support other agencies.
    NASA is excited about moving ahead with this work. We are eager to 
find ways to leverage investments made in technology and through 
progress made by the Constellation Program. My testimony will outline 
how NASA is working to build a bridge between the past program and the 
future by transitioning previous and ongoing development work, best 
practices and lessons learned from the Constellation Program to the SLS 
and MPCV programs and by transitioning and leveraging hardware and 
technology investments, wherever possible.
    While NASA has not yet finalized its development plans for the SLS 
and MPCV, NASA is working expeditiously to ensure we have a credible 
and integrated plan with which to move forward. We understand and 
appreciate the direction provided by the NASA Authorization Act of 
2010, and we are honoring those requirements as we implement the Act. 
The President's FY 2012 budget request for Exploration, for example, 
reflects all of the major elements of the Authorization Act.
    In moving forward on the SLS and MPCV, we will ensure that we have 
efficient contracting and management approaches so as to ensure 
affordability in the near term and over the long run. We will also 
build an evolvable and interoperable human spaceflight transportation 
system that will serve us for decades to come as we explore multiple 
compelling mission destinations. In a constrained budget environment, 
we know how important it is to look for ways to make our programs and 
projects more efficient, so finding and incorporating these 
efficiencies is a primary goal for us. Therefore, NASA has embraced the 
challenge to deliver human spaceflight systems for lower cost, and the 
opportunity to become more efficient, innovative and agile in our 
Programs. For example, we are revising the management of our 
requirements, contracts, and projects and incorporating approaches to 
ensure affordability in the near term and over the long run. This 
includes the use of focused insight/oversight, specifying, where 
appropriate, to industry what we need instead of how to build it, 
designing for cost-effective operations, increasing the use of common 
components and parts, and smartly consolidating infrastructure. 
Therefore, my testimony today will address progress made to date on the 
SLS and MPCV programs, as well as outlining the work ahead of us in 
order to ensure that we develop systems that reflect the NASA 
Authorization Act of 2010 using an affordable, sustainable and 
realistic approach.
    But before I explore those topics, I would like to personally 
recognize the thousands of NASA civil servants and industry team 
members who have worked selflessly for countless hours, often under 
difficult circumstances and in a turbulent environment, to make the 
Exploration programs and projects productive and successful. I am 
constantly in awe of their dedication and agility in making progress 
through changing circumstances. I am personally indebted to them. Over 
37 years at NASA, I have served through many transitions in human 
spaceflight programs, so I speak from personal experience when I say 
that change is never easy, especially for those who have devoted much 
of their professional and personal time and energy to programs they 
love. Today, the NASA Exploration team has much to be proud of . and 
much to look forward to.
    Our civil servants across the Agency should feel confident that 
there is exciting and meaningful work for them to do following the 
retirement of the Shuttle and the transition from Constellation, and 
the shift from assembly of the ISS toward ISS operations. Turning our 
focus toward a more capability-driven exploration architecture will 
offer far-ranging opportunities for our creative and skilled civil 
servant workforce across the Agency. There will be opportunities for 
them to apply their cross-cutting talents to new challenges such as 
developing and demonstrating prototypes for human capabilities needed 
for beyond-LEO exploration. Here are just a few examples of enabling 
capabilities that must be developed before we can send crews beyond LEO 
- work that will be managed by our new Advanced Exploration Systems 
(AES) Program:

        <bullet>  Developing a ground-based test bed for demonstrating 
        life support systems needed to enable long-duration crewed 
        missions based on lessons learned from operation of the life 
        support systems currently in use on the ISS;

        <bullet>  Developing and testing components for an advanced 
        spacesuit to improve the ability of astronauts to assemble and 
        service in-space systems, and to explore the surfaces of the 
        Moon, Mars and asteroids;

        <bullet>  Developing design concepts for future space 
        exploration vehicles and deep-space habitats; and

        <bullet>  Conducting ISS and ground-based analog testing to 
        validate operational concepts for long-duration missions.

    We have already employed this teaming approach quite successfully, 
as exemplified by the NASA in-house efforts with Robonaut2 (R2), which 
was delivered to the ISS on the last Space Shuttle flight. This robot 
was developed in partnership by a joint NASA-General Motors team. 
Another example is the Lunar Electric Rover, which is a pressurized 
surface rover to provide astronaut mobility for exploring a planetary 
body in a shirtsleeve (or non spacesuit) environment. The prototype, 
developed at low-cost, has already been demonstrated and matured 
through field testing at sites on Earth that resemble the lunar 
terrain, for example. The rover, along with some of NASA's astronauts, 
also participated in President Obama's Inaugural Parade. In sum, both 
of these examples highlight the substantial benefit we will continue 
harnessing from our highly creative, competent and mission-focused 
workforces across the Agency and at all Centers.
    It is clear that NASA has a bright future. The future will bring 
new destinations to explore, and a new generation of future astronauts, 
scientists and engineers to inspire. Clearly, there is much work ahead 
of us, but I am confident that NASA's incredible and talented employees 
working with our industry and international partners will continue to 
do whatever it takes to make sure that the United States remains the 
world's leader in human spaceflight. After all, they do not know how to 
commit to less.

The SLS and MPCV: Moving Forward

    On January 10, 2011, NASA provided to Congress an interim report on 
our SLS and MPCV efforts, with a commitment to provide more extensive 
details in the FY 2012 President's budget request and in a follow-on 
report to Congress in the spring/summer timeframe of 2011. We recognize 
that Congress wanted more information than we were able to provide in 
the interim report. The report was due to Congress 90 days after the 
NASA Authorization Act of 2010 was signed into law, thereby formally 
authorizing NASA to move out on the SLS and MPCV programs. After 
passage of the Authorization Act, NASA immediately began studying 
potential SLS and MPCV configurations based on the requirements of the 
Act and began analyzing current Constellation contracts and their 
flexibility. However, the final FY2011 appropriation remains unknown, 
and the evaluation process entailed a longer timeframe to come to a 
comprehensive design and acquisition approach for these large and 
complex projects. Therefore, in an effort to be as responsive to 
Congress as possible, NASA developed an interim report which noted the 
progress we had made at that time, with a commitment to provide a 
follow-on report with more extensive details later this year.
    Much work remains to be accomplished over the next few months such 
as in-depth planning to synchronize the schedules and budgets for SLS, 
MPCV and Ground Operations efforts such that their developments are 
coordinated in order for each to deliver its capability in a planned 
timeframe. Since an integrated schedule for the SLS and MPCV vehicles 
is an essential product of our planning efforts, NASA required 
additional time to gain reliable information from on-going system trade 
studies, obtain a better understanding of budget requirements and 
constraints, and develop acquisition strategies that can put 
development on an affordable and sustainable path. Therefore, by 
summer, NASA expects to have completed several key analytical steps - 
information that will be contained in our follow-on report to Congress:

        <bullet>  The basic framework for a capability driven 
        architecture and concept of operations that provides the 
        strategic context for exploration of multiple destinations, a 
        plan that applies the principles of affordability, 
        sustainability, commonality, and interoperability, and a 
        framework for expanded partnerships with the international, 
        interagency, industry, and academic communities;

        <bullet>  Analysis of the current Ares and Shuttle contracts 
        for their applicability to the future development program;

        <bullet>  Analysis of the cost and benefits of the Reference 
        Vehicle Designs for the SLS and MPCV and alternate vehicle 
        designs; and

        <bullet>  Analysis of potential initial acquisition approaches 
        (in the case when contract changes or new procurements are 
        indicated, NASA will follow applicable procurement regulations, 
        including the March 4, 2009, Presidential Memorandum on 
        Government Contracting).
    As required by law, NASA's SLS and MPCV vehicles will be capable of 
providing crew and cargo transportation to the ISS as backup to our 
current international partners and future commercial crew 
transportation providers. However, the primary goal of SLS and MPCV 
development is exploration beyond LEO. As such, the SLS and MPCV will 
be capable of transporting astronauts to multiple destinations beyond 
LEO. Destinations could include cis-lunar space, such as Lagrange 
points between the Earth and the Moon, the lunar surface, visits to 
near-Earth asteroids, and eventually to Mars and its moons. All of 
these places hold incredible information for us - information that we 
probably don't even know exists at this point. Compelling missions such 
as satellite servicing, new discoveries and exploration advancement are 
all enabled by this approach. This journey begins with the SLS and MPCV 
as the first important core elements of the broader exploration 
evolutionary approach for accomplishing this broad spectrum of 
missions.
    Consistent with direction in the NASA Authorization Act of 2010, 
the Agency has selected a Reference Vehicle Design for both the SLS and 
MPCV, giving us a baseline from which to start developing schedule, 
budget and requirements, as well as acquisition plans. Recently, NASA 
formally authorized the MPCV program office to stand up at Johnson 
Space Center (JSC) in Texas, and the SLS program office to be 
established at Marshall Space Flight Center (MSFC) in Alabama. As such, 
these teams will be charged with putting more detail on those designs 
so as to be able to help us answer the hard questions that will 
undoubtedly occur before we finalize our selections. In that spirit, we 
are continuing to look at alternative designs to challenge and/or 
validate those concepts so as to ensure our final vehicle choices will 
be the best value for the taxpayer in terms of cost, schedule and 
capability.
    The Authorization Act specified that the initial vehicle 
performance would range from 70 to 100 metric ton \1\ (mT) to LEO, 
evolvable to 130 mT and that it use, to the extent practicable, 
existing contracts, investments, workforce, industrial base, and 
capabilities from the Space Shuttle and Orion and Ares I projects. 
Therefore, for the SLS, NASA has chosen a Reference Vehicle Design that 
is derived from Ares and Space Shuttle hardware. The current concept 
vehicles would utilize a liquid oxygen/liquid hydrogen core with five 
RS-25 Space Shuttle Main Engine-derived engines, five-segment solid 
rocket boosters, and a J-2X-based Upper Stage for the SLS as the 130 mT 
version of the heavy-lift vehicle - evolvable from the 70 to 100 mT 
version. This reference design would allow for use of existing Shuttle 
and Ares hardware assets in the near term, with the opportunity for 
upgrades and/or competition downstream for eventual upgrades in designs 
needed for affordable production.
---------------------------------------------------------------------------
    \1\ The Authorization Act specified vehicle performance in terms of 
``tons'' but NASA develops capability in terms of ``metric tons.'' 
Therefore, lift capability references in this testimony refer to metric 
tons.
---------------------------------------------------------------------------
    For the MPCV, NASA has chosen the beyond-LEO version of the Orion 
Crew Exploration Vehicle design as the Reference Vehicle Design. The 
Orion development effort has already benefited from significant 
investments and progress to date, and the Orion requirements closely 
match MPCV requirements as defined in the Authorization Act, which 
include utilizing the MPCV as the primary crew transportation vehicle 
for beyond-LEO exploration, as well as being capable to serve as backup 
for ISS crew and cargo transportation.
    NASA will evaluate the Reference Vehicle Designs and other 
alternatives this spring through in-house analyses and maturation of 
concepts and will incorporate results of industry studies that the 
Agency solicited earlier this fiscal year. In particular, one of the 
greatest challenges for NASA will be to reduce the development and 
operating costs (both fixed and recurring) for human spaceflight 
missions to sustain a long-term U.S. human spaceflight program. We must 
plan and implement an exploration enterprise with costs that are 
credible and affordable for the long term under constrained budget 
environments. As such, our development efforts also will be dependent 
on a realistic budget profile and sufficiently stable funding over the 
long term, coupled with a successful effort on the part of NASA and our 
eventual industry team to reduce costs and to establish stable, 
tightly-managed requirements.
    NASA is exploring ways to transition the design and development 
efforts of the Constellation Program so that NASA will be able to 
capitalize on current investments and workforce, as appropriate. In the 
meantime, as will be outlined later in this testimony, NASA is taking 
steps to concentrate current spending on those aspects of the 
Constellation Program that will have the greatest applicability to the 
new SLS and MPCV programs.
    Currently, NASA has procurement teams who are mapping SLS and MPCV 
requirements (those outlined in the NASA Authorization Act of 2010 and 
those we are currently developing) against the Ares and Orion contracts 
(and other Agency contracts) to determine if the new requirements fit 
the scope of the existing contracts. For the SLS, we are reviewing each 
element of Ares (First Stage, Upper Stage, Upper Stage J-2X engine and 
avionics) to determine whether the new SLS requirements are within 
scope of the current contract. For the MPCV, our review of the Orion 
contract indicates that the MPCV is within scope of the Orion contract.
    The final acquisition plans for both vehicles are expected in the 
late Spring/Summer timeframe. The development of the SLS and MPCV and 
supporting capabilities must be planned by developing an integrated 
budget and schedule to understand how these programs collectively fit 
within budget profiles and to determine when preliminary flight dates 
are possible. In this timeframe, costs and schedule will be 
preliminary, based on pre-formulation information for these new 
programs.
    NASA recognizes it has a responsibility to be clear with the 
Congress and the American taxpayers about our true estimated costs and 
schedules for developing the SLS and MPCV. NASA is committed to keep 
Congress informed about our planning efforts. To this end, NASA will 
acquire independent (outside of the Agency) cost and schedule 
assessments for SLS and MPCV design options as part of its decision 
process this spring or summer. Furthermore, NASA will make these 
assessments public.
    Additionally, NASA is currently developing a list of major 
development and testing milestones planned for Exploration Systems over 
the next several years. However, it is important to note that these 
plans are contingent on many factors, including available funding; 
decisions about what work from Constellation will transfer to the SLS 
and MPCV programs and their associated supporting elements. It is also 
contingent on NASA's upcoming decisions regarding SLS and MPCV final 
designs and associated requirements and acquisition needs.

The SLS: Where We Are Today

    The NASA Authorization Act of 2010 directs NASA to develop an SLS 
that is capable of accessing cis-lunar space and the regions of space 
beyond LEO. The Act also states that the SLS must be capable of lifting 
the MPCV, and that the SLS must be able to initially lift 70-100 mT to 
LEO, while ultimately being evolvable to 130 mT or more. For the 
initial capability, the Authorization Act set a goal of achieving 
operational capability for the core elements no later than 2016.
    NASA's SLS development effort is focusing initially on the 70 to 
100 mT lift capability, so as to get as close to 2016 as possible in 
terms of initial operational readiness. We also are seeking ways to 
capitalize on synergies between the lower-range and upper-range lift 
capabilities, thereby allowing us to develop some of the upper-range 
capabilities at the same time as we are focusing on the 70 to 100 mT 
capability. Doing so is actually a fairly natural, evolvable 
progression in terms of developing these capabilities. However, before 
making any final decisions, we must first understand how our approaches 
to heavy-lift will fit within the budget profile, how they will fit 
into a future exploration architecture and how they might benefit other 
agencies to maximize the investment for the taxpayer. Knowing the 
amount appropriated for SLS and MPCV development efforts in FY 2011 and 
gaining increased clarity regarding future budget profiles will be an 
important factor in helping NASA to finalize plans for the SLS and the 
MPCV.
    Recently, NASA concluded the first iteration of a Requirements 
Analysis Cycle (RAC), which was established to complete a preliminary 
analysis of high-level system requirements, to include initial 
development planning, design concept maturation, and preliminary 
programmatic requirements. By using techniques such as design-to-cost, 
the teams considered a balanced set of trades between capabilities and 
the price tag to implement them. The RAC teams also brought in ground 
processing and launch expertise from KSC so that the long term 
operational expenses of various designs could be assessed. The results 
will be informed by NASA analysis of the direction in the Authorization 
Act, SLS safety and performance, existing national capabilities and 
stakeholder priorities for SLS.
    The RAC team is now preparing to brief its findings to NASA 
Administrator Bolden, and they will also be preparing to incorporate 
the findings of several independent, industry-led trade studies into 
their analysis. Thirteen of these six-month studies were initiated in 
November 2010 in order to provide a ``fresh look'' at innovative launch 
vehicle concepts, propulsion technologies, processes and affordability 
initiatives that can be infused into the development of the new human 
exploration missions - information that will be used to help inform the 
overall selection and development of the final SLS vehicle detailed 
design.
    One of NASA's goals is for the RAC teams and the study contracts 
teams to develop ideas to come as close to the goal identified in the 
Authorization Act as possible, given budget realities and the need for 
the program to be affordable over the long-term. Our commitment will be 
to determine a flight date that has a reasonable probability of being 
achieved. Additionally, NASA believes that, all else being equal, 
utilizing heritage systems will help expedite the development process 
and flight dates, even though launch vehicle integration challenges 
will still exist as a schedule threat. On the other hand, starting with 
a clean sheet may provide a lower lifecycle cost. This is the subject 
of the current studies.
    NASA is still in the process of developing the full acquisition 
strategy for the SLS. Given that the current Reference Vehicle Design 
utilizes heritage systems from Shuttle and Ares, NASA is evaluating 
existing Ares and Shuttle contracts -- and potential money saving 
improvements and modifications to them -- to determine whether those 
contracts could be used for development work on the SLS and whether 
doing so would be the most affordable and efficient option for 
developing the SLS. In the meantime, in order to maintain existing 
capabilities during this planning effort, NASA continues work on the 
elements of the Ares I Project that are most likely to feed forward 
into the SLS, as detailed later in this testimony.
    Additionally, the SLS Program will continue to examine ways to 
increase efficiency and agility so as to be able to deliver an 
affordable and achievable heavy-lift system as soon as possible. 
Examples being considered in formulating SLS plans:

        <bullet>  Consolidating infrastructure smartly;

        <bullet>  Using common parts and common designs across the 
        Government, so as to encourage bulk buys of heavy-lift 
        vehicles;

        <bullet>  Ensuring requirements are appropriately specific and 
        also that requirements applied to NASA crew launch vehicles are 
        similar to those provided to our eventual commercial crew 
        partners, thereby ensuring that NASA vehicles are not required 
        to meet more substantial requirements than commercial crew 
        vehicles and vice versa; and

        <bullet>  Conducting insight/oversight activities of our 
        contract partners in a smarter way, thereby using our resources 
        more appropriately to focus on the high-risk items, rather than 
        watching over someone's shoulder, per say, on more mundane 
        tasks.
    NASA continues to review affordability initiatives proposed by our 
current industry partners, and where possible, we will incorporate 
those potential savings into SLS development processes.

The MPCV: Where We Are Today

    The NASA Authorization Act of 2010 directs NASA to develop an MPCV 
that continues the advanced development of the human safety features, 
designs, and systems in the Orion Project. As such, the MPCV must be 
evolvable and capable of serving as the primary crew vehicle for beyond 
LEO exploration, and at the same time, it must be capable of providing 
an alternative means of crew and cargo transportation to the ISS as a 
backup to commercial crew or partner-supplied vehicles. The Act sets a 
full operational capability goal of 2016.
    NASA's assessments show applicability of the Orion spacecraft 
design to the MPCV requirements specified in the NASA Authorization Act 
of 2010, which given the Authorization Act requirements, is why the 
Orion beyond-LEO version (known internally as ``block 2'') has been 
selected as the MPCV Reference Vehicle Design. For example, the MPCV 
must include basic capabilities and specifications for nominal, 
contingency and abort scenarios - all of which are traceable to MPCV 
requirements in the Authorization Act. In addition, the MPCV must also 
be capable of launching up to four crew members and carrying them to 
beyond-LEO destinations. It will have the capacity for over 21 days of 
active mission duration, and it will be capable of beyond-LEO re-entry 
velocities and return crews safely to a water landing off of the 
California coast. The Orion vehicle meets these requirements.
    The MPCV design will be optimized for beyond-LEO exploration, and 
while contingency utilization for the ISS is a possibility, doing so 
would represent a highly inefficient vehicle usage. Additionally, the 
MPCV will be designed so that its capabilities are evolvable for other 
mission-specific design variations so as to enable supporting a variety 
of missions as described in the Authorization Act such as performing 
EVA, rendezvous and docking, and operating in conjunction with payloads 
delivered by the SLS or other vehicles in preparation for missions 
beyond LEO. This approach is critical to enable the commonality across 
the planned systems necessary to improve overall affordability.
    NASA has evaluated the degree to which the existing Orion Project, 
including designs, facilities, infrastructure, organization, contract, 
and processes could be transitioned and continued under the MPCV 
Program. While the current designs have been shown to be a good match 
with the requirements specified in the NASA Authorization Act of 2010, 
affordability and sustainability are being re-examined and validated. 
Preliminary assessments indicate that environments and conditions 
driven by the Ares I vehicle, which drove the current Orion designs, 
tend to be more demanding than design-driving parameters of the SLS and 
therefore these new parameters will most likely not result in changes 
to Orion. This will, of course, be studied, verified, and tested as the 
designs for SLS mature. But at this point, NASA is confident that the 
robust design of the current Orion is such that integration with the 
SLS will not be a significant challenge. Such factors will have to be 
taken into consideration as the final SLS design matures. It is 
important to emphasize that no final decision has been made yet with 
regard to the current Orion contract.
    NASA will endeavor to achieve the earliest possible operational 
readiness date for the MPCV within the available budget and in a way 
that leads to affordable operations over the long term. NASA will also 
strive to ensure that the MPCV design and schedule fits into a 
sustainable future exploration architecture Final decisions will be 
informed based upon technical analysis, as well as the combined SLS and 
MPCV cost and schedule phasing and use of infrastructure and facilities 
and will be formalized through NASA's required processes in the coming 
months. Knowing the amount appropriated for SLS and MPCV development 
efforts in FY 2011 and gaining increased clarity regarding future 
budget profiles will be an important factor in helping NASA to finalize 
plans for the SLS and the MPCV.
    Once the final plan has been decided, NASA personnel will 
transition from the Orion Project to the MPCV Program, while also 
continuing to refine the requirements for the MPCV system. Orion will 
also transition affordability initiatives that are already underway to 
include streamlined government insight on high risk areas instead of 
day-to-day oversight, phased development, re-use of test facilities, 
and new opportunities for partnerships. Available funding will drive 
work that can be accomplished in terms of technical content and 
schedule milestones. Planned FY 2011 work is focused on continuing the 
design of core vehicle systems and performing planned testing of the 
Ground Test Article (GTA), which are tasks applicable to the MPCV 
Reference Vehicle Design. The GTA recently completed primary 
fabrication at the Michoud Assembly Facility in Louisiana, and is 
undergoing outfitting and assembly in Colorado. Environmental testing, 
such as vibration and acoustic testing, is planned to begin in the 
summer, with drop testing at a new water basin facility at Langley 
Research Center (LaRC) in Virginia to follow.
    An MPCV program schedule, which will be integrated with the SLS's 
program schedule that will include all major milestones from inception 
to achieving operational capability, will be developed in coming months 
and will be provided in the updated report to Congress.
    Additionally, the MPCV Program will continue to examine ways to 
increase efficiency and agility so as to be able to deliver an 
affordable and achievable crew vehicle as soon as possible. Given that 
MPCV work is building upon the work performed as part of the Orion 
Project, numerous innovative affordability initiatives are already 
underway, including:

        <bullet>  Streamlining government oversight and insight 
        activities to ensure we are focusing on the key-risk items;

        <bullet>  Implementing an incremental approach to building 
        vehicle capabilities; and

        <bullet>  Planning a more innovative and cost-effective vehicle 
        qualification plan, utilizing distributed test labs, for 
        example.
    In addition, in partnership with Orion's current contract and its 
subcontractors, NASA is also exploring other affordability measures 
including consolidating facilities and re-using test assets.

The Constellation Program and its Relevance to SLS and MPCV

    NASA greatly values the contributions and efforts of the 
Constellation Program team. The Program had many challenges to overcome 
despite the hard work of the many talented people in the Program. There 
is much to build upon as we transition from the Constellation Program 
to the MPCV and SLS Programs.
    The current implementation of the Constellation Program was 
initiated in 2005 with an assumption of increased funding to NASA and 
an aggressive development approach that would have the goal for Initial 
Operational Capability \2\ (IOC) as early as 2012 to minimize the gap 
between the Shuttle and the Constellation elements. Fiscal realities -- 
both internal and external to NASA -- contractual realities and 
technical maturation and difficulties made this internal goal 
unrealistic. This resulted in a stretch out of the Program in 2008, 
leading to a 2015 IOC with an attendant increase in cost. (See 
attachment 1 and 2).
---------------------------------------------------------------------------
    \2\ IOC is defined as the first crewed flight of Orion to the ISS, 
enabling fight test astronauts to fly the Orion on its maiden voyage.
---------------------------------------------------------------------------
    After an extensive review in 2009, the independent U.S. Human 
Spaceflight Plans Committee, also known as the Augustine Committee, 
concluded that the U.S. human spaceflight program in place at that time 
appeared to be on an unsustainable trajectory, and that it was pursuing 
goals that did not match allocated resources. One key element of this 
analysis was a conclusion that there were insufficient funds (based 
upon the budgetary resources likely to be provided for NASA's human 
spaceflight activities) to support both the Constellation Program and 
the likely extension of the ISS beyond 2016 in a suitable manner. 
Therefore, based in part on the Augustine Committee's report, the 
President's FY 2011 budget request proposed cancellation of the Program 
and instead proposed a budget that focused on developing new 
technologies needed for the long term and fundamental investments to 
prepare for Exploration in the future.
    Throughout 2010, NASA continued work on various Constellations 
systems as Congress reviewed the President's FY2011 budget request. 
This work was conducted consistent with relevant appropriations law and 
was aimed at optimizing those projects considered most applicable to 
NASA's future activities. Following the passage of the 2010 NASA 
Authorization Act, NASA was in a position to further tailor its effort 
on Constellation systems consistent with the direction in the Act.
    As of February 2011, NASA had spent $12.7 billion on the 
Constellation Program, which includes money spent on labor, 
infrastructure, acquisition, and testing of hardware elements and 
software systems etc. While some may consider Constellation's 
investment to date to be wasted and sunk costs, much of what 
Constellation has accomplished is indeed transferable to the SLS and 
MPCV programs, not just in terms of hardware, validated requirements 
and infrastructure elements, but also in terms of less tangible items 
such as knowledge and experience gained by our team with the 
Constellation Systems being developed. Therefore, as we work to close 
out the Constellation Program, we are also taking care to capture and 
build upon Program accomplishments (see attachment 3), especially those 
technologies that have a high likelihood of feeding forward into the 
SLS and MPCV programs.
    From the beginning, the Constellation Program used electronic 
records and a centralized database to capture and manage all data, 
risks and knowledge learned, including information from test flights, 
hardware and software tests and programmatic reviews. Therefore, there 
is a wealth of information that the Program will be able to pass on to 
future human spaceflight developers, including those at NASA and those 
in the U.S. aerospace industry, when allowable by law. Since completing 
the technical portion of the Program-level Preliminary Design Review 
(PDR) \3\ in March 2010 \4\ and after previously having completed the 
Project-level PDRs for Ares and Orion in 2008 and 2009 respectively, 
the Program has been working to finalize its technical library, thus 
ensuring that historical data from Constellation work is documented, 
preserved and made accessible to future human spaceflight designers.
---------------------------------------------------------------------------
    \3\ PDR is a crucial milestone during a program's or project's 
development cycle in t hat it is the first major review of the detailed 
design and is normally held prior to the preparation of formal design 
drawings. During PDR, the program verifies that the preliminary design 
meets all requirements within acceptable risk limits and within the 
cost and schedule constraints. The completion of the PDR and the 
closure of any actions generated by the review become the basis for the 
start of the detailed drafting and design effort and the purchase of 
parts, materials, and equipment needed.
    \4\ The Constellation Program did not complete the cost portion of 
its Systems-level PDR, NASA never established a formal baseline cost 
for each Constellation Project and the Program as a whole
---------------------------------------------------------------------------
    The Constellation Program also can be credited with helping to 
reinvigorate NASA's technical base. Following the development of the 
Shuttle, NASA's human spaceflight community focused on operations 
rather than development in that we were no longer a robust 
developmental Agency in terms of developing crew-launch systems, but 
rather an operationally-focused human spaceflight Agency. As such, the 
Constellation Program enabled us to re-learn how to build a crew launch 
system, beginning from the earliest stages of viewgraphs and trade 
space and advancing through multiple key project review checkpoints and 
ultimately to the point where NASA, along with its industry partners, 
had built hardware and integrated systems that were used on two major 
test flights, the Ares I-X flight and the Pad Abort 1 (PA-1) flight for 
the Orion Launch Abort System (LAS) -- both of which resulted in 
substantial data that will be of great use to the MPCV and the SLS 
programs.
    Additionally, the Constellation Program allowed us to incorporate 
new technologies and testing methods that will certainly become the 
norm as we move forward with SLS and MPCV. Historically speaking, 
during the Apollo era, NASA had comparatively little experience with 
in-flight aborts and limited computational capability. Today, however, 
flight tests are being combined with advanced simulation tools and 
advanced computers, thereby allowing NASA to conduct a more thorough 
analysis of hardware and software elements and operating processes. The 
Orion integrated abort system's effectiveness can now be calculated 
using computer models of the blast environment by employing more 
realistic, physics-based, simulations of abort conditions with 
remarkable speed and accuracy, given NASA's evolved engineering 
expertise and the computation power of modern computers. In comparison, 
during the Apollo era, abort effectiveness was estimated by comparison 
to escapes from high-performance military aircraft combined with the 
results of a few escape system tests.
    In fact, our computer modeling scenarios are so accurate, that we 
had been able to forgo more expensive ground tests in some cases, and 
we expect to see this trend continue with the SLS and MPCV programs, 
whenever possible without sacrificing safety. For example, designing 
the Ares I allowed NASA to make an important technology leap in the 
design process. By transitioning from a 2-D, paper-based vehicle design 
and verification process to a 3-D model-based design environment, NASA 
was able to gain valuable experience with state-of-the-art design 
system that can reduce costs while also increasing system reliability - 
benefits that will feed forward into the SLS.

    Other examples of work / accomplishments that will feed forward 
include:

        <bullet>  On May 6th 2010, Orion conducted the PA-1 flight test 
        at White Sands Missile Range in New Mexico. This test flight 
        demonstrated a development version of the Orion LAS by 
        simulating an abort during an emergency occurring before the 
        launch vehicle has left the pad. The test demonstrated all 
        three of the LAS' solid rocket motors (Abort Motor, Attitude 
        Control Motor, and Jettison Motor) working in conjunction. It 
        also demonstrated an early version of the parachute and forward 
        bay cover deployment design. Data gathered from PA-1 proved the 
        overall design concept and LAS architecture are feasible, and 
        the data gathered will also improve computer design and 
        analysis models and tools and reduce risks and uncertainty in 
        the MPCV's production design - or that of commercial crew 
        partners, should they choose to use this technology.

        <bullet>  The Orion GTA: NASA validated advanced-production 
        processes, equipment and tools such as friction-stir welding) 
        to manufacture this structural and thermal prototype of the 
        Orion crew module. The GTA is now in final assembly at the 
        Lockheed Martin facility in Denver, and will undergo a series 
        of ground-based environmental tests to validate the Orion 
        design and computer models. It will undergo structural load 
        testing later this spring; vibration and acoustic testing 
        during the summer; and drop testing at LaRC this fall. Given 
        that the MPCV will be based on the Orion crew module, data 
        collected from testing the GTA will be incorporated into MPCV 
        development efforts so as to result in a safe, reliable and 
        affordable human-rated crew capsule.

        <bullet>  On Oct 28, 2009, NASA successfully completed the Ares 
        I-X test flight at KSC. Data from more than 700 on-board 
        sensors showed that the vehicle was effectively controlled and 
        stable in flight and that the vehicle had met all of its test 
        objectives. Moving forward, this test flight is important in 
        that it validated the accuracy of NASA's design tools, models 
        and processes for inline crew launch vehicle configurations, 
        allowing significant economies in integration and testing to be 
        assumed for SLS development. For example, the test flight 
        provided tremendous insight into the aerodynamic, acoustic, 
        structural, vibration, and thermal forces that Ares I or other 
        inline launch vehicles would be expected to experience. In 
        particular, aero-acoustic forces were measured at key locations 
        along the stack, which has highlighted differences between the 
        predicted loads and the actual loads for the Ares I. Therefore, 
        the adjustments to computer models made possible by this Ares 
        I-X data may significantly reduce uncertainty and risk in 
        future launch vehicle designs.

        <bullet>  In 2009 and 2010, two successful ground tests of the 
        Ares I First Stage were conducted. In each test, a five-segment 
        solid rocket motor was tested at a contractor facility in Utah, 
        thereby demonstrating two temperature cases (normal and cold) 
        for motor operation. During the full-duration ground test, also 
        called a ``cold motor'' test, the motor's overall temperature 
        was lowered to validate the motor's performance in cold weather 
        and data was gathered to evaluate thrust, roll control, 
        acoustics, motor vibrations, nozzle modifications and 
        insulation upgrades. These tests validated performance of 
        advanced designs and materials in upgrading solid rocket motor 
        technology and eliminating obsolescence. Beyond validating the 
        basic performance characteristics of the engine, the test 
        resulted in enhanced modeling and a better understanding of key 
        attributes that have historically been very difficult to 
        predict analytically such as erosive burning, thrust 
        oscillations and thrust tail off. As such, data from this test 
        will help advance the safety, technology and knowledge of solid 
        rocket motors in general - work that will likely be applicable 
        to the SLS or other human spaceflight systems.

    It is also important to note that there are Constellation 
technologies that are transferable to the U.S. aerospace industry. For 
example, one of our commercial cargo partners, Space Exploration 
Technologies (SpaceX), has already incorporated the Orion's Thermal 
Protection System and its parachute development technologies into the 
company's Dragon capsule, which was successfully launched last year.
    Going forward, SLS and MPCV will continue to focus on a risk-
informed design approach, as Constellation has done, thus helping the 
Agency achieve its goal of increasing astronaut safety on the next-
generation human spaceflight system, relative to Shuttle missions. As 
such, NASA will continue to design systems with an overriding priority 
given to crew safety at every stage of the design and operational 
process. In doing so, we will design systems to be as inherently safe 
as we can make them; we will eliminate known risks and hazards; and 
then we will add backup such as an abort system to mitigate residual 
risks. In addition to leveraging heritage systems, when feasible, NASA 
will continue to utilize improved computer modeling to help identify, 
reduce and eliminate or mitigate hazards and risk. Additionally, we 
will continue to tightly interweave design and safety team members into 
the decision-making process, thereby allowing them to work with design 
engineers to provide expertise and feedback via various assessments and 
analysis techniques from the very beginning of the design process. At 
the same time, a prudent risk system will result in better cost/benefit 
assessments to improve overall affordability without sacrificing 
safety. Finally, NASA will continue to utilize its active risk-
management process to identify technical challenges early in the 
process and aggressively work solutions.
    Consistent with the provisions of the FY 2010 Consolidated 
Appropriations Act (P.L, 111-117), NASA is continuing to implement the 
Constellation Program and associated projects while we also work on the 
SLS and MPCV programs in parallel. Therefore, we have not terminated 
any Constellation contracts. However, NASA does have the legal 
flexibility to prioritize Constellation funding, and as such, we have 
deliberately prioritized Constellation funds to maximize their use in 
support of transition to SLS and MPCV in the NASA Authorization Act, 
thus maximizing the effective use of taxpayer dollars. For example:

        <bullet>  Ares has worked closely with SLS planning team to 
        focus our development efforts on technologies and processes 
        that could be utilized in the eventual SLS configuration. This 
        includes vehicle avionics, J-2X Engine testing, First Stage 
        Engine testing (Development Motor-3), and installation of Upper 
        Stage tooling applicable to large diameter tanks. At the same 
        time, we deferred activities that were highly vehicle 
        configuration dependent including a ground vibration test 
        article and design of Upper Stage component hardware such as 
        the reaction control system.

        <bullet>  Orion has focused our development efforts on crew 
        safety, targeting an orbital test flight mid-decade to validate 
        10 of the top 13 analyzed crew safety risks in the real flight 
        environment -- risks primarily in the regimes of entry, 
        descent, and landing. At the same time, we deferred efforts in 
        areas posing relatively small risk to crew safety such as life 
        support, communications, crew support systems and the LAS. NASA 
        has deferred further work on the LAS for the near-term since it 
        is ahead of other Orion systems in its design and testing.

        <bullet>  EVA has coordinated with Orion to focus our 
        development efforts on suit architecture trades in light of the 
        new beyond-LEO mission timetable, and including modified 
        Advanced Crew Escape System (Shuttle launch and entry suit) in 
        launch and entry suit trade study. At the same time, we have 
        deferred efforts on beyond-LEO suit design and commonality with 
        the launch and entry suit.

        <bullet>  Ground Operations has coordinated with the SLS team 
        and focused our Ground Operations work on items that would 
        mostly likely be needed by heavy-lift launches - works such as 
        launch pad construction, launch control center construction and 
        crawler overhauls (the crawler is the vehicle that transports a 
        launch vehicle stack from an integration building to the launch 
        site.) At the same time, we deferred Vehicle Assembly Building 
        modifications at KSC until we know the dimensions of our new 
        heavy-lift vehicle.

        <bullet>  Mission Operations has coordinated with Orion to 
        focus our efforts on activities required for general human 
        spaceflight mission support, with efforts concentrated on 
        Mission Control Center and Training Systems. At the same time, 
        we have deferred efforts on highly configuration dependent 
        activities such as a high-fidelity Orion mockup or docking 
        adapter trainer.

    It is important to note that even though NASA currently has the 
legal flexibility to prioritize funding, NASA would prefer for Congress 
to remove the funding restrictions imposed by the FY 2010 
appropriation. Doing so would allow the Agency to terminate unnecessary 
Constellation work that is not required for the new SLS and MPCV. As 
such, NASA agrees with the NASA Inspector General, who in a Feb. 2, 
2011 report to Congress, stated: ``. as NASA moves closer to making 
final decisions regarding how best to move forward in designing and 
building the next generation space system, it will become increasingly 
more difficult for the Agency to continue to juggle the inconsistent 
mandates of the Authorization Act and the appropriations legislation so 
as to avoid wasting taxpayer funds.'' Therefore, it is important to be 
able to move out with new programs in pace and the flexibility to plan 
and fund work in the most effective way.

The Commercial Orbital Transportation Services (COTS) Projects

    Both of NASA's funded COTS partners -- SpaceX and Orbital Sciences 
Corporation -- continue to make progress in developing their cargo 
transportation systems, based in part on NASA's financial and technical 
assistance. NASA sees no reason to doubt either company's ability to 
achieve its desired objectives - that of demonstrating commercial cargo 
delivery to and from LEO. While each has experienced milestone delays, 
this is not unexpected, since both partners have aggressive, success-
oriented schedules, and are facing challenges typical of a space flight 
development program. (See attachment 4.) These delays have not required 
any additional NASA funding of specific milestones, since the partners 
are paid only fixed amounts for achieving milestones. Additional 
development costs have been borne by the companies and/or other 
investors. NASA has added augmentation funding of $300M for additional 
milestones for additional risk reduction such as additional testing, as 
authorized by the NASA Authorization Act of 2010.
    To date, NASA has invested $529 million in the COTS effort, which 
includes funding invested toward the two current funded partners, as 
well as funding that was invested toward another partner that was 
terminated for failure to perform in 2007. By the conclusion of the 
COTS effort, NASA anticipates it will have invested $800 million in the 
COTS program, which does not include reimbursable work NASA has 
performed and infrastructure support that NASA has provided to the COTS 
partners. The $800 million includes the original $500 million 
authorized for COTS milestone payments in the NASA Authorization Act of 
2005, as well as $300 million in augmented milestone payments 
authorized by the NASA Authorization Act of 2010 to help accelerate 
technical development, conduct flight tests and develop ground 
infrastructure.
    In total, NASA anticipates providing SpaceX and Orbital $128M each 
in augmented funding via modifications to their respective funded COTS 
Space Act Agreements (SAAs) and via the Commercial Resupply Services 
contract during FY 2011. To date, NASA has executed two SAA amendments 
(known as Quarter 1 and Quarter 2 augmentations) for each company with 
respect to the augmentation milestones authorized by the NASA 
Authorization Act of 2010. Payments for the Q1 and Q2 augmentations 
were made using Exploration funds under the FY 2011 continuing 
resolution. The remaining augmentations for Q3 and Q4 are in 
negotiation with the companies and are contingent on available funding 
at the time the agreements are finalized, which NASA hopes to be in the 
near future. As with any SAA milestone, NASA will not pay for a 
milestone until the work has been completed successfully.

    SpaceX signed its SAA with NASA in August 2006. Since then:

        <bullet>  To date, NASA has paid SpaceX $258 million out of the 
        original SAA amount of $278 million, and $20 million for 
        meeting its Q1 augmentation milestones. To date, SpaceX has 
        completed 22 of 29 negotiated milestones.

        <bullet>  On December 8, 2010, SpaceX successfully completed 
        the first COTS demonstration flight, thereby demonstrating 
        launch of the Falcon 9 booster, separation of the Dragon 
        spacecraft and completion of two orbits, orbital maneuvering 
        and control, reentry, parachute decent and spacecraft recovery 
        after splashdown in the Pacific Ocean.

        <bullet>  SpaceX's remaining demonstration flights for NASA are 
        scheduled for July 2011 and January 2012. NASA is reviewing a 
        SpaceX proposal to accelerate the third demonstration flight 
        test objectives, which include berthing to the ISS, during the 
        second demonstration flight. If accepted, the combined mission 
        could be flown as early as November 2011.

        <bullet>  The augmentation milestones improve the chance of 
        mission success by adding ground and flight testing, 
        accelerating development of enhanced cargo capabilities, or 
        further developing the ground infrastructure needed for 
        commercial for commercial cargo capabilities. More 
        specifically, the additional SpaceX milestones include 
        rendezvous and proximity operations sensor testing, system 
        level thermal vacuum and electromagnetic interference testing, 
        and infrastructure improvements at the launch, production and 
        test sites.

    Orbital signed its SAA with NASA in February 2008. Since then:

        <bullet>  NASA has paid Orbital $157.5 million out of the 
        original SAA amount of $170 million, and $40 million for 
        meeting its Q1 and Q2 augmentation milestones. To date, Orbital 
        has completed 18 of 22 negotiated milestones.

        <bullet>  Recently, Orbital began integration and testing of 
        its Cygnus Service Module and Taurus II launch vehicle.

        <bullet>  Orbital is expected to complete its demonstration 
        flight for NASA in December 2011.

        <bullet>  The Orbital augmentation milestones will lead to an 
        additional test flight of the Taurus II which significantly 
        reduces the risks associated with a new launch vehicle 
        development thereby separating risks associated with the 
        development of a new spacecraft. The milestones also enable 
        additional software and control system testing.

Conclusion

    Americans and people worldwide have turned to NASA for inspiration 
throughout our history - our work gives people an opportunity to 
imagine what is barely possible, and we at NASA get to turn those 
dreams into real achievements for all humankind.
    With the passage of the NASA Authorization Act of 2010, NASA has a 
clear direction and is making plans for moving the Agency forward. 
Today, we have a roadmap to even more historic achievements that will 
spur innovation, employ Americans in fulfilling jobs, and engage people 
around the world as we enter an exciting new era in space. NASA 
appreciates the significant effort that has gone into advancing this 
bipartisan legislation.
    In conclusion, let me assure you that NASA is committed to meeting 
the goals and requirements of the NASA Authorization Act of 2010. As 
such, we are committed to developing an affordable, sustainable, and 
realistic next-generation human spaceflight system that will enable 
human exploration, scientific discovery, broad commercial benefits, and 
inspirational missions that are in the best interests of the Nation. We 
look forward to working with you and other Members of Congress as we 
finalize our strategy for achieving human spaceflight to many 
destinations in our solar system.
    Chairman Palazzo and Members of this Subcommittee, I would like to 
conclude my remarks by thanking you again for your continued support 
for NASA and its human spaceflight programs. I would be pleased to 
respond to any questions you or the other Members of the Subcommittee 
may have.
Biography of Douglas R. Cooke, Associate Administrator for Exploration 
                      Systems Mission Directorate
    Doug Cooke is Associate Administrator for the Office of Exploration 
Systems Mission Directorate. The Exploration Systems Mission 
Directorate is responsible for managing the development of flight 
hardware systems for future human exploration beyond low Earth orbit, 
including the moon, near Earth asteroids, Mars and its moons and other 
destinations. This includes development of critical technologies, new 
capabilities, and human research to support future human spacecraft and 
exploration missions. It also includes partnering with industry to 
develop commercial capabilities for cargo and crew transportation to 
and from low Earth orbit.
    Mr. Cooke has over 37 years of unique experience in the Space 
Shuttle, Space Station, and Exploration Programs. He has been assigned 
significant responsibilities during critical periods of each of these, 
including top management positions in all three programs.
    Mr. Cooke's first major challenge began in 1975 when he was tasked 
with defining and implementing an entry aerodynamic flight test program 
for the Space Shuttle. This program was successfully implemented during 
the Approach and Landing Tests in 1977, and early orbital flights of 
the Space Shuttle beginning in 1981 through 1984.
    Mr. Cooke was asked to lead the Analysis Office when the Space 
Station Program Office was first organized in 1984. He accepted the 
challenge and led the work that defined the Space Station configuration 
and many of its design details and technical attributes.
    Following the Space Shuttle Challenger accident, Mr. Cooke was 
assigned to the Space Shuttle Program Office. He helped lead a Civil 
Service and contractor team to provide the system engineering and 
integration function that resulted in the return of the Space Shuttle 
to flight on September 29, 1988. He reached the position of Deputy 
Manager of the NSTS Engineering Integration Office.
    Mr. Cooke has played a pivotal role in planning for future space 
exploration beginning in 1989. He helped to lead a NASA team that 
produced the ``90 Day Study'' on lunar and Mars exploration. Mr. Cooke 
was subsequently assigned to the Synthesis Group led by Lt. General Tom 
Stafford, Gemini and Apollo Astronaut. The team produced a report for 
the White House entitled ``America at the Threshold: America's Space 
Exploration Initiative.'' Mr. Cooke was selected to be the Manager of 
the Exploration Programs Office under then Exploration Associate 
Administrator Michael Griffin, where he initiated and led NASA agency-
wide studies for the human return to the Moon, and exploration of Mars.
    In March of 1993, the agency undertook the redesign of Space 
Station Freedom. Mr. Cooke was assigned the responsibility of leading 
the engineering and technical aspects of the redesign. He was 
subsequently chosen to serve in the Space Station Program Office as 
Vehicle Manager, leading and managing the hardware development and 
systems engineering and integration for the International Space 
Station. From April to December of 1996, Mr. Cooke served as Deputy 
Manager of the Space Station Program.
    Prior to his current appointment to NASA Headquarters, Mr. Cooke 
served as manager for the Advanced Development Office at the Johnson 
Space Center, Houston. Mr. Cooke provided leadership for the planning 
of human missions beyond Earth orbit; including the Moon, Mars, 
libration points, and asteroids. This team developed integrated human 
and robotic mission objectives, defined investment strategies for 
exploration technologies, and managed NASA exploration mission 
architecture analyses.
    Mr. Cooke was detailed to NASA headquarters during portions of this 
period to contribute to headquarters level strategies for human 
exploration.
    Mr. Cooke served as NASA technical advisor to the Columbia Accident 
Investigation Board from the time of the accident to the publishing of 
the report.
    Prior to his current assignment Mr. Cooke served as Deputy 
Associate Administrator for the Exploration Systems Mission 
Directorate. He has made significant contributions to the structuring 
of its programs, defining the program content, and providing technical 
leadership. He initiated and led the development of the Global 
Exploration Strategy activity that led to defined themes and objectives 
for lunar exploration. International, science, industry, and 
entrepreneurial communities were engaged, and they contributed to the 
development and shaping of these themes and objectives. He led and 
guided the development of the planned lunar exploration mission 
approach and architecture. Mr. Cooke has also led the efforts to define 
long term NASA field center assignments for hardware development and 
operational responsibilities. He has been the Source Selection 
Authority for the major exploration contract competitions. In this role 
he has successfully selected the companies who are currently on 
contract.
    Mr. Cooke is a graduate of Texas A&M University with a Bachelor of 
Science degree in Aerospace Engineering.
    Major Awards: SES Presidential Distinguished Rank Award- 2006, SES 
Presidential Meritorious Rank Award- 1998, NASA Exceptional Achievement 
Medal- 2003, NASA Exceptional Achievement Medal- 2002, NASA Outstanding 
Leadership Medal- 1997, NASA Exceptional Achievement Medal- 1993, NASA 
Exceptional Service Medal- 1988, JSC Certificate of Commendation- 1986, 
JSC Certificate of Commendation- 1983.

    Chairman Palazzo. Thank you, Mr. Cooke.
    I now recognize our second witness, Dr. Scott Pace, 
Director of the Space Policy Institute at George Washington 
University.

  STATEMENT OF SCOTT PACE, DIRECTOR, SPACE POLICY INSTITUTE, 
                  GEORGE WASHINGTON UNIVERSITY

    Dr. Pace. Thank you, Mr. Chairman, and thank you for 
providing an opportunity to discuss this topic.
    The transition away from the space shuttle to a new 
generation of vehicles is perhaps the most critical task facing 
the U.S. space program today. In this regard, I think it is 
appropriate and timely the Committee examine the 
accomplishments of the Constellation program and the prospects 
for the Space Launch System and Multi-Purpose Crew Vehicle.
    The Committee posed a series of four questions that I will 
try to briefly answer in turn. The first one is the requirement 
to use the existing Constellation contracts was, in my opinion, 
an effective and prudent measure. Continuation of the contracts 
enabled time for industry, Congress and, I believe, NASA to 
think more carefully about next steps. This enabled continued 
development of the Orion Crew Exploration Vehicle to include a 
successful pad abort demonstration and completion of a ground 
test article. It enabled completion of the five-segment Ares 
solid rocket motor including static test firings, continued 
structures technology testing with a successful shell-buckling 
test that was recently in the news, and continued development 
assembly of the J2-X upper stage engine and the A-3 test stand, 
the only new cryogenic engine development in the United States 
today.
    NASA's efforts, however, to transition from the 
Constellation program designs to the SLS can be seen as 
incomplete and possibly inadequate, and in particular don't 
appear to make progress toward one of the CAIB's--Columbia 
Accident Investigation Board--central recommendations on 
dramatically improving crew safety. The CAIB observed that the 
design of the system for next-generation human launch should 
give overriding priority to crew safety rather than trade 
safety against other performance criteria such as low cost and 
reusability or against advance space operations capabilities 
other than crew transfer.
    To these ends, the Constellation Ares I set a goal of for 
probability of loss of crew in excess of one in a thousand, 
with design estimates over one in 2,800. In comparison, the 
space shuttle's probability of loss of crew has been estimated 
at less than one in 150. No other vehicles including the Ares V 
design and existing EELV designs are expected to reach the one 
in 1,000 standard. This is not to say they cannot do so in the 
future but only after accumulating flight heritage comparable 
to the shuttle solid rocket motors or the Russian Soyuz.
    Now, the Committee also asked about the greatest risks 
arising from this transition. Well, the greatest risks, in my 
view, are those arising from policy instability and the lack of 
a basis for predictable decision-making by NASA and industry. 
There was a decline of human-rated launch vehicle and 
spacecraft development experience, while shuttle operations 
continued and various R&D programs came and went. We atrophied 
for some decades. The rebuilding of expertise that was 
occurring under the Constellation program, notably with the 
Ares I-X flight test, that progress has not been followed up 
on. Again, progress has been made in the last year but it has 
not been exploited to the degree it should have been.
    NASA's plans prior to the Ares I-X testing of the Ares I 
and Orion spacecraft could be, I think, fairly characterized as 
largely a ground test program that would have avoided 
committing the actual flight until a predominant amount of risk 
had been retired. The experiences of the Ares I-X and of the 
pad abort I think helped teach NASA industry teams how to 
finish a product and fly it to really their great benefit. The 
experience base could have led to a more prominent role for 
incremental flight testing and a means of risk reduction if 
funding had continued.
    With the kind of programmatic and budgetary redirection 
that NASA has received in recent years, it is hard to expect a 
positive outcome for workforce productivity and the health of 
the space industrial space. The cumulative reductions in future 
support for human space exploration have been dramatic over the 
last several years.
    The Committee asked what are some key indicators that could 
help Congress judge the success of transition programs. Well, 
the most important consideration is always people, both inside 
NASA and in industry. Government and industry cannot have 
coherent workforce transition plans if they cannot define what 
skill mixes they need today or in the future. Skill mixes 
cannot be defined absent a clear understanding of government 
roles and responsibilities, what work is to be done in-house 
and what will be contracted out, and a stable set of mission 
requirements is a part of a large exploration and architecture 
strategy. Congress should be looking for updated workforce 
transition plans with reports on the identification of key 
skills and how they will be retained. Congress should look to 
ensure that NASA and industry are creating and strengthening 
their internal intellectual capital for developing new human 
spaceflight capabilities, and this can be most directly 
observed if there is frequent and increasingly ambitious tests 
and flights of actual hardware.
    Finally, Congress should be asking for progress on the 
definition of an internationally recognized and accepted human 
space exploration architecture that supports U.S. national 
space policy goals and principles because the stability and 
predictability we need is not just with industry but also with 
our industry and international partners who are trying to make 
decisions also in this very difficult environment.
    The transition away from the space shuttle and towards new 
human spaceflight capabilities while ensuring independent U.S. 
access to the International Space Station is, I stress, the 
most immediate and critical task for human spaceflight. In this 
regard, the upcoming flight of STS-135, I believe is absolutely 
crucial but we also need to look beyond that and say what is 
going to be coming next.
    Major policy questions remain unanswered that I think 
complicate the transition efforts and perhaps foremost among 
them is whether or not there is a need for independent U.S. 
government access to space, and if not, the identification of 
those entities upon which we are willing to depend for such 
access. In my view, the U.S. government should have its own 
means of assuring access to space even as it makes increasing 
use of commercial services or international partners. One of my 
analogies is, just as a diversified portfolio needs bonds as 
well as stocks, a public option is an important, crucial part 
of a diversified portfolio for strategic national capability 
like human spaceflight. It is the existence of the 
Constellation program that enabled a prudent risk-taking in 
commercial cargo services and contemplation of eventual 
procurement of commercial crew services.
    The technical complexities and risks of human spaceflight 
make it an activity distinct from buying normal commercial 
goods and services. A policy that pretends or assumes that it 
is not distinct is unlikely to succeed, just as unrealistic 
flight rates planned for the shuttle in 1970s or large 
commercial markets planned for EELVs in the 1990s did not 
succeed. Merely because something is attractive doesn't mean it 
will be true.
    The government has several proper roles to play in the next 
generation of human space exploration, and those roles can and 
should evolve over time. It is time, in my view, to push 
carefully for greater reliance on commercial cargo services to 
the International Space Station. It will then subsequently be 
possible to define a path for commercial crew services that 
operate in addition to but not to the exclusion of U.S. 
government capabilities. To fully rely on commercial or 
government approaches to the exclusion of the other would 
place, in my view, all human spaceflight by the United States 
at risk, both public and private.
    And with that, thank you very much for your kind attention 
and I would be happy to answer any questions you might have.
    [The prepared statement of Mr. Pace follows:]

Prepared Statement of Dr. Scott Pace, Director, Space Policy Institute, 
                      George Washington University

    Thank you, Mr. Chairman, for providing an opportunity to discuss 
this important topic. The transition away from the Space Shuttle to a 
new generation of vehicles for human access to space is perhaps the 
most critical task facing the U.S. space program today. In this regard, 
it is appropriate and timely that the Committee examines the 
accomplishments of the Constellation program and prospects for a Space 
Launch System and Multi-Purpose Crew Vehicle as contained in the most 
recent 2010 NASA Authorization Act.
    Specifically, the Committee has posed four questions that I will 
address in turn:

        1.  Has the use of existing Constellation contracts to 
        prioritize the work on the Space Launch System been an 
        efficient and effective approach?
    The FY 2010 Emergency Supplemental Appropriations bill contained a 
provision cosponsored by Senator Richard Shelby (R-AL) and Robert 
Bennett (R-UT) that said:

            ``Provided further, that notwithstanding any other 
        provision of law or regulation, funds made available for 
        Constellation in Fiscal Year 2010 for 'National Aeronautics and 
        Space Administration Exploration' and from previous 
        appropriations for 'National Aeronautics and Space 
        Administration Exploration' shall be available to fund 
        continued performance of Constellation contracts, and 
        performance of such Constellation contracts may not be 
        terminated for convenience by the National Aeronautics and 
        Space Administration in Fiscal Year 2010.''

    Approval of this provision was, in my view, an understandable 
response to the many uncertainties faced by the Congress last year. Two 
previous NASA Authorizations, in 2005 and 2008 had approved clear 
efforts to transition the Space Shuttle, extend operations of the 
International Space Station, and explore beyond Earth orbit. As part of 
the Fiscal Years 2007, 2008, and 2009 NASA budgets, the Constellation 
program became a consistent and well-understood approach for 
implementing exploration objectives. The Obama Administration had 
sought to cancel the Constellation program and terminate existing 
contracts with the Fiscal Year 2011 NASA budget. However, this dramatic 
change of course was not accompanied by a clear explanation of what 
would replace Constellation. In particular, there were no concrete 
explanations of how the transition away from the Space Shuttle would be 
implemented, support for the International Space Station assured, or 
human explorations beyond Earth orbit conducted.
    In light of this situation, the requirement to use existing 
Constellation contracts was an effective and prudent measure. It is 
difficult to say that such a requirement was efficient as it would 
almost certainly have been preferable if the Administration and 
Congress could have found a common approach on human space exploration 
before the release of the FY 2011 President's Budget Request. It is the 
prerogative of any Administration to review and reorder priorities for 
NASA, and it is possible to imagine a dialogue with Congress that would 
have resulted in a reordering of the Constellation program (e.g., 
placing greater emphasis on demonstrating new technologies). However, 
the disruption that would have resulted from the wholesale cancellation 
of the Constellation contracts would have been harmful to the U.S. 
space industrial base. The existing contractors would have certainly 
been harmed and other potential contractors would not have benefited if 
for no other reason than the time it would have taken to define, 
compete, and award new contracts. The lack of a clear alternative to 
the Constellation program meant that contract cancellation at that time 
would largely have resulted in a waste of public funds.
    Continuation of the Constellation contracts enabled time for 
industry, Congress, and I suspect NASA, to think more carefully about 
next steps. This enabled continued development of the Orion Crew 
Exploration vehicle to include a successful pad abort demonstration and 
completion of the ground test article. It enabled completion of the 
five-segment Ares solid rocket booster, including static test firings, 
continued structures technology testing with a successful shell-
buckling test, and continued development assembly of the J2-X upper 
stage engine and A-3 test stand - the only new cryogenic engine 
development for the United States.

        2.  How do NASA's recent efforts to transition from the 
        Constellation program to the Space Launch System and Multi 
        Purpose Crew Vehicle align with the recommendations of the 
        Columbia Accident Investigation Board?

    One of the most important observations from the Columbia Accident 
Investigation Board (CAIB) for steps to take after the Space Shuttle 
was the following:

            ``It is the view of the Board that the previous attempts to 
        develop a replacement vehicle for the aging Shuttle represent a 
        failure of national leadership. The cause of the failure was 
        continuing to expect major technological advances in that 
        vehicle. With the amount of risk inherent in the Space Shuttle, 
        the first step should be to reach an agreement that the 
        overriding mission of the replacement system is to move humans 
        safely and reliably into and out of Earth orbit.''

    Furthermore, the CAIB offered the admonition that:

            ``The design of the system should give overriding priority 
        to crew safety, rather than trade safety against other 
        performance criteria, such as low cost and reusability, or 
        against advanced space operation capabilities other than crew 
        transfer.''

    To these ends, the Constellation Ares 1 set a goal for probability 
of loss of crew (PLoC) in excess of 1:1000 with design estimates for 
reaching over 1:2800. In comparison the Space Shuttle's PLoC has been 
estimated at less than 1:150. No other vehicles, including the Ares V 
design and existing Evolved Expendable Launch Vehicles (EELVs), are 
expected to exceed the 1:1000 standard. This is not to say they cannot 
do so in the future, but only after accumulating flight heritage 
comparable to the Shuttle solid rocket motors or the Russian Soyuz.
    With regard to the CAIB's recommendations, NASA effort to 
transition from Constellation program designs to the Space Launch 
System can be seen as incomplete and arguably inadequate. They do not 
appear to make progress toward the CAIB's central recommendation on 
dramatically improving crew safety. The transition of Orion to a Multi-
Purpose Crew Vehicle looks to be in better shape, in particular with 
progress on a Launch Abort System, but it is the fully integrated 
combination of launch vehicle, crew vehicle, and escape system that 
must be considered.
    The CAIB also commented on the need for stability of purpose in the 
development of new launch vehicles:

            ``NASA plans to make continuing investments in ``next 
        generation launch technology,'' with the hope that those 
        investments will enable a decision by the end of this decade on 
        what that next generation launch vehicle should be. This is a 
        worthy goal, and should be pursued. The Board notes that this 
        approach can only be successful: if it is sustained over the 
        decade; if by the time a decision to develop a new vehicle is 
        made there is a clearer idea of how the new space 
        transportation system fits into the nation's overall plans for 
        space; and if the U.S. government is willing at the time a 
        development decision is made to commit the substantial 
        resources required to implement it.''

    As discussed in response to the following questions below, none of 
the conditions cited by the CAIB appear to be met by current proposals 
before the Congress.

        3.  What are the greatest risks to the aerospace industrial 
        base and workforce associated with the transition from 
        Constellation to the Space Launch System program?

    The greatest risks are those arising from policy instability and 
the lack of a basis for predictable decision-making by NASA and 
industry. Such instability has very real costs as the chart below 
indicates:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The history of U.S. human spaceflight over the past two decades is 
one of continual turbulence with occasional episodes of progress. There 
are many sources of policy instability - some internal to NASA, some 
embedded in the relationship between successive Administrations and 
Congresses. The net result has been a lack of human-rated launch 
vehicle and spacecraft development experience while Shuttle operations 
continued and various R&D programs came and went. Unlike the scientific 
community at NASA, there was not a steady progression of spacecraft 
development programs in which both NASA and industry could gain and 
maintain expertise. The rebuilding of expertise was occurring on the 
Constellation program, notably with the Ares 1-X flight test, but that 
progress has not been followed up on.
    NASA's plans prior to Ares I-X for testing of the Ares I rocket and 
Orion spacecraft could be characterized as largely ground test programs 
that would have avoided committing to actual flight until a predominant 
amount of risk had been retired. The experiences from Ares I-X and Pad 
Abort I helped teach the NASA-industry teams how to `finish' a product 
and fly it - an experience base that would have led to a more prominent 
role for incremental flight testing as a means of risk reduction if 
funding had continued.
    Through its budget proposals, the current Administration has 
contributed to policy instability for NASA as a whole, not just in 
human space flight. The chart below shows proposed and projected top-
line NASA budgets back to FY 2005 when the Vision for Space Exploration 
was proposed and through 2020 when the first human return to the Moon 
was planned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The FY 2005 NASA budget projection was expected to remain flat in 
terms of purchasing power and thus it t increased at only 2.4% in the 
out years. The FY Y 2009 NASA budget shows that NASA received slightly 
less funding that it had planned for in FY 2005 and this resulted in 
the schedule slip of Ares 1/Orion first flight to 2 2014 or possibly 
later. The first Obama Administration budget for FY 2010 projected a 
large reduction, due to placing $3 billion in exploration funding ``on 
hold'' while reviews of NASA's human spaceflight p programs occurred. 
In addition to those funds directly affected, the projection of out 
year spending was reduced to 1.36%. If inflation levels experienced by 
NASA were more than that, the agency would experience a d decline in 
real purchasing power.
    In the FY 2011 proposal for NNASA, the Administration added funds 
back such that the NASA top line returned to where it would have been 
in continuing the spend ding levels of the Bush Administration. 
However, the composition of spending had changed significantly, with 
exploration spending dropping and science and technology-related 
spending increasing sharply. In FY 2012, the pendulum continues to 
swing w with NASA expecting at best a flat budge et in nominal terms 
(and thus a reduction in real terms) while OMB seems to envision even 
sharper reductions in the near term with possible restoration of some 
funds in the out years.
    With the kinds of programmatic and budget redirection that NASA has 
received in recent years, it is hard to expect a positive outcome for 
workforce productivity or the health of the space industrial base.
    The chart below show the cumulative reductions experienced in the 
overall NNASA budget and the exploration budget respectively for the 
years FY 2014-2020. This was the time period that had been targeted d 
for conducting the first human missions beyond d low Earth orbit since 
Apollo. Even if all of the Administration's space technology fund ding 
is counted toward ``exploration,'' the cumulative reductions in future 
support for human space exploration remain dramatic.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        4.  Can you suggest some key indicators that would help 
        Congress judge the success of NASA's transition efforts?

    There are many ways to monitor transition efforts, from workforce 
plans, to completion of hardware milestones. However, the most 
important consideration has always been people, both inside NASA and in 
industry. Government and industry cannot t have coherent workforce 
transition n plans if they cannot define what skill mixes they need 
today or in the future. Skill m mixes cannot be defined absent a clear 
understanding of government roles and responsibilities (e.g., what work 
is to be done in-house e and what will be contracted out) and a stable 
set of mission requirements that are part of a larger architecture and 
exploration strategy.
    The lack of a U.S. focus on h human lunar return and an associated 
architecture is one of the most serious programmatic gaps that make 
transition planning difficult. Efforts to find a feasible and 
attractive mission to a Near Earth Object (NEO) have not been 
successful and likely await the completion of a more complete survey of 
such objects. Sending humans to Mars remains too technically difficult 
and expensive at our current level of development. The Moon was and 
continues to be the logical focus for efforts to move humans beyond low 
Earth Orbit as well as being vital to future commercial developments. 
For example, the logistics requirements of a sustained lunar base offer 
perhaps the only near term source of significant new demand for cargo 
mass to low Earth orbit (LEO). Commercial service to the International 
Space Station (ISS) is an important first step, but ISS supply needs 
are limited and unlikely to attract major new investment by itself. If 
the Administration is truly supportive of stimulating commercial space 
transportation beyond LEO then it needs to consider where future demand 
might come from. It's not a question of choosing between government and 
commercial approaches, but of government first and then commercial in a 
well-considered transition.
    This does not mean that the Constellation approach to the Moon is 
the only one possible - one can envision precursor missions to 
Lagrangian points in the Earth-Moon system and tele-presence 
experiments prior to a human landing. In a similar vein, one can 
imagine missions to NEOs as part of precursor efforts to send human to 
orbit Mars. The crucial point is that individual missions should not be 
one-time highly dangerous stunts, but should be careful steps in the 
continual expansion of human deep-space capabilities that can address 
important human exploration questions. The international space 
community has developed a lunar architecture as part of a large Global 
Exploration Strategy with strong U.S. technical participation. We 
should consider making greater use of international partners through 
existing international mechanisms to create a more rational approach 
for our own plans.
    The Congress should be looking for updated workforce transition 
plans, with reports on the identification of key skills and how they 
will be retained. Next, the Congress should look to ensure that NASA 
and industry are creating and strengthening their internal 
``intellectual capital'' for developing new human spaceflight 
capabilities. This can be most directly observed in through frequent 
and increasingly ambitious tests and flights of actual hardware. 
Finally, the Congress should be asking for progress on the definition 
of an internationally accepted human space exploration architecture 
that supports U.S. national space policy goals and principles.

Summary

    The design, development, and operation of major space systems 
reflect the strategic engineering capacity of the United States. This 
capacity is being tested today by the technical and managerial 
challenges of developing new human-rated space systems. The transition 
away from the Space Shuttle and towards new human space flight 
capabilities, while assuring independent U.S. access to the 
International Space Station, is the most immediate and critical task 
for U.S. human spaceflight.
    Planning for and successfully executing this transition has been 
made significantly more challenging by the policy, programmatic, and 
budget instability of the past two years. As a result, the United 
States does not have at present a plausible architecture and strategy 
for conducting human missions beyond LEO for the next two decades. In 
addition, a plausible architecture and approach for international 
cooperation in human space flight beyond the International Space 
Station no longer exists. This has been a particular problem for many 
countries that had started development of lunar robotic and human space 
flight plans based on the Constellation program structure.
    Major policy questions remain unanswered that complicate transition 
efforts. Perhaps foremost among them is whether or not there is a need 
for independent U.S. government human access to space, and if not, the 
identification of those entities upon which we are willing to depend 
for such access. In my view, the U.S. government should have its own 
means for ensuring human access to space even as it makes increasing 
use of commercial services or international partners. Just as a 
diversified portfolio needs bonds as well as stocks, a ``public 
option'' is an important and crucial part of a diversified portfolio 
for a strategic national capability like human space flight. Complete 
reliance on commercial or international services is an excessively 
risky approach that can deter innovation in those areas as they become 
``too important to be left alone.'' It was the existence of 
Constellation that enabled prudent risk taking in commercial cargo 
services and contemplation of eventual procurement of commercial crew 
services.
    A corollary question is: what is the proper role of NASA for the 
human expansion into space, given NASA's disparate functions as 
``innovator and technology developer'' vs. ``designer/developer/smart 
buyer'' of new systems, and ``system operator'' vs. ``service 
customer''? The Administration's proposals for human space flight 
appear to have a clear policy theme - that there is no compelling need 
for a U.S. government human space flight program and that all necessary 
objectives and risks can be meet by private contractors using 
government funding with reduced if not minimal oversight. The technical 
complexities and risks of human space flight make it an activity 
distinct from buying normal commercial goods and services. A policy 
approach that pretends or assumes that it is not distinct is unlikely 
to succeed - just as the unrealistic flight rates planned for the 
Shuttle in the 1970s or the large commercial markets for EELVs in the 
1990s did not succeed.
    The government has several proper roles to play in the next 
generation of human space exploration and those roles can and should 
evolve in parallel over time. It is time to push carefully for greater 
reliance on commercial cargo services to the International Space 
Station. It is subsequently possible to define a path for commercial 
crew services that operate in addition to, but not to the exclusion of, 
U.S. government capabilities. To fully rely on commercial or government 
approaches, to the exclusion of the other, would place all human space 
flight by the United States at risk, public and private.
    Thank you for your attention. I would be happy to answer any 
questions you might have.

 Biography of Dr. Scott Pace, Director, Space Policy Institute, George 
                         Washington University
    Dr. Scott Pace is the Director of the Space Policy Institute and a 
Professor of Practice in International Affairs at George Washington 
University's Elliott School of International Affairs. His research 
interests include civil, commercial, and national security space 
policy, and the management of technical innovation. From 2005-2008, he 
served as the Associate Administrator for Program Analysis and 
Evaluation at NASA.
    Prior to NASA, Dr. Pace was the Assistant Director for Space and 
Aeronautics in the White House Office of Science and Technology Policy 
(OSTP). From 1993-2000, Dr Pace worked for the RAND Corporation's 
Science and Technology Policy Institute (STPI). From 1990 to 1993, Dr. 
Pace served as the Deputy Director and Acting Director of the Office of 
Space Commerce, in the Office of the Deputy Secretary of the Department 
of Commerce. He received a Bachelor of Science degree in Physics from 
Harvey Mudd College in 1980; Masters degrees in Aeronautics & 
Astronautics and Technology & Policy from the Massachusetts Institute 
of Technology in 1982; and a Doctorate in Policy Analysis from the RAND 
Graduate School in 1989.
    Dr. Pace received the NASA Outstanding Leadership Medal in 2008, 
the U.S. Department of State's Group Superior Honor Award, GPS 
Interagency Team, in 2005, and the NASA Group Achievement Award, 
Columbia Accident Rapid Reaction Team, in 2004. He has been a member of 
the U.S. Delegation to the World Radiocommunication Conferences in 
1997, 2000, 2003, and 2007. He was also a member of the U.S. Delegation 
to the Asia-Pacific Economic Cooperation Telecommunications Working 
Group, 1997-2000. He is a past member of the Earth Studies Committee, 
Space Studies Board, National Research Council and the Commercial 
Activities Subcommittee, NASA Advisory Council. Dr. Pace is a currently 
a member of the Board of Trustees, Universities Space Research 
Association, a Corresponding Member of the International Academy of 
Astronautics, and a member of the Board of Governors of the National 
Space Society.

    Chairman Palazzo. Thank you, Dr. Pace.
    I now recognize our final witness, Mr. Jim Maser, Chairman 
of the Corporate Membership Committee at the American Institute 
of Aeronautics and Astronautics.

 STATEMENT OF JAMES MASER, CORPORATE MEMBERSHIP COMMITTEE, THE 
       AMERICAN INSTITUTE OF AERONAUTICS AND ASTRONAUTICS

    Mr. Maser. Thank you, Chairman Palazzo and distinguished 
Members of the Committee. I want to thank you for the 
opportunity to address a subject of critical importance to the 
aerospace industry and to our Nation as a whole, which is a 
need for a clear national strategy for space.
    It is true that we face many other significant challenges, 
and that our country is going through a period of transition. 
However, we must not lose sight of the fact that the aerospace 
industry overall directly employs more than 800,000 people 
across the country and supports more than two million middle-
class jobs and 3,000 suppliers from all 50 States, with total 
industry sales in 2010 exceeding $216 billion. As a result, the 
health of the aerospace engineering manufacturing base in 
America is a crucial element of our continued economic recovery 
and employment growth. But in addition to that, the aerospace 
industry is unique in its contribution to national security, 
and if the highly skilled aerospace workforce in the United 
States is allowed to atrophy, it will have widespread 
consequences for our future well-being and success as a Nation.
    However, the U.S. space community is at a crossroads and 
facing an uncertain future that is unlike any we have seen in 
decades. This uncertainty significantly impacts our Nation's 
ability to continue exploring space without being dependent on 
foreign providers. It also has implications for our national 
security in the U.S. industrial base.
    Thirteen months ago, NASA Administrator Charlie Bolden 
called me, as well as several other aerospace manufacturers to 
tell us that the Constellation program had been canceled. In 
the 13 months since that call, NASA has yet to identify a 
strategy to replace the space shuttle. There does not appear to 
be a consensus within the Administration regarding the need for 
the Space Launch System and Multi-Purpose Crew Vehicle, and 
clearly there is not consensus between Congress and the 
Administration on NASA priorities. This uncertainty has our 
industry partners and suppliers very concerned about how we can 
position our business to meet NASA's needs while retaining our 
critical engineering and manufacturing talent. It is creating a 
gap which our industry will not be able to fill.
    When the Apollo program ended in 1975, there was a gap of 
about six years prior to the first flight of the space shuttle 
program. However, the shuttle program had been formally 
announced in January 1972, so although there was a gap in U.S. 
human spaceflight, there was not a gap in the work on the next-
generation system. Clearly, this transition was difficult for 
industry. NASA budgets were reduced but the industry adapted to 
this new reality.
    During the space shuttle era, we saw NASA budgets 
flattening, declining to less than one percent of the federal 
budget, and although space industry would have liked to have 
seen overall increases, we knew how to plan our business, how 
to invest, how to meet our customers' needs and how to compete, 
but the situation now is much worse. It poses a much greater 
risk to the U.S. space community. To the engineering workforce 
and to the U.S. leadership in space. The difference between the 
Apollo-shuttle transition and the shuttle-next generation space 
exploration system transition is the perilous unknown. We 
simply do not know what is next.
    Congress passed an authorization bill that directs NASA how 
to move to the next-generation program, but NASA has said that 
due to the Constellation contractual obligations, they are 
limited in moving forward with the authorization bill. This 
situation is creating a host of problems and it urgently needs 
to change. If NASA is going to be relieved of Constellation 
obligations, we need to know how the workforce will be 
transitioned, and how the many financial investments will be 
utilized for future exploration efforts. Whereas the Apollo-
shuttle transition created a gap in U.S. human access to space, 
this next transition is creating a gap in direction, purpose, 
and in future capabilities.
    In order to adequately plan for the future and 
intelligently deploy resources, the space community needs to 
have clear goals. Up until two years ago, we had a goal. We had 
a national space strategy and a plan to support it. 
Unfortunately, at this point, that plan no longer exists. This 
lack of a unified strategy coupled with the fact that NASA 
transition is being planned without any coordination with 
industry leaders, makes it impossible for businesses like mine 
to adequately plan for the future.
    How can we right-size our business and work towards 
achieving greatest efficiency if we can't even define the 
future need? This is an impossible task. So faced with this 
uncertainty, companies like mine continue fulfilling 
Constellation requirements pursuant to Congressional mandate to 
capitalize on our investment in this program but we are doing 
so at significantly reduced contractual baseline levels. 
Forcing reductions in force at both prime contractor and 
subcontractor level.
    This reality reflects the fact that the space industrial 
base is not facing the crisis. We are in a crisis and we are a 
losing national perishable asset: our unique workforce. The 
entire space industrial base is currently being downsized with 
no net gain in jobs. At the same time, we are totally unclear 
as to what might be the correct levels needed to support the 
government. Designing, developing, testing and manufacturing 
the hardware and software to explore space requires highly 
skilled people with unique knowledge and technical expertise, 
which takes decades to develop. These technical experts cannot 
be grown overnight, and once they leave the industry, they 
rarely return. If the United States develops a tremendous 
vision for space exploration five years from now but the people 
with these critical skills have not been preserved and 
developed, that vision will disappear. We need that vision, 
that commitment, that certainty right now, not five or ten 
years from now; if we are going to have a credible change of 
bringing it to fruition.
    In addition to difficulties in retaining our current 
workforce, the uncertainty facing the U.S. space program is 
already having a negative impact on our industry's ability to 
attract new talent from critical science, technology, 
engineering, and mathematics. Young gradates who may have been 
inspired to follow STEM education plans because of their 
interest in space and space exploration, look at industry now 
and see no clear future. This will have implications on the 
space industrial base for years to come.
    Access to space plays a significant part in the Department 
of Defense's ability to secure our Nation. The lack of a 
unified national strategy brings uncertainty in volume, meaning 
the fixed costs will go up in the short term across all 
customers until actual demand levels are understood. 
Furthermore, the lack of a space policy will have ripple 
effects in the defense budget and elsewhere, raising costs when 
it is in everyone's interest to contain costs.
    It is of course true that there are uncertainties about the 
best way to move forward. This was true in the early days of 
space exploration and in the Apollo and shuttle eras. 
Unfortunately, we do not have the luxury of waiting until we 
have all the answers. We must not let best be the enemy of the 
good. In other words, selecting a configuration we are 
absolutely certain is the optimum configuration is not as 
important as expeditiously selecting one of the many workable 
configurations so that we can move forward. This industry has 
smart people with excellent judgment, and we will figure the 
details out but not if we don't get moving soon. NASA must 
initiate SLS and MPCV efforts without gapping the program 
efforts already in place intended to support Constellation.
    The time for industry and government to work together to 
define future space policy is now. We must establish a policy 
to recognize the synergy among all government space launch 
customers to determine the right sustainable industry size and 
plan on funding it accordingly. The need to move on with clear 
velocity is imperative if we are to sustain our endangered U.S. 
space industrial base, to protect our national security and to 
retain our position as a world leader in human spaceflight and 
space exploration. I believe that if we work together, we can 
achieve these goals. We are ready to help in any way that we 
can but the clock is ticking.
    Thank you again for the opportunity to address the 
Committee today. I look forward to responding to any questions 
you may have.
    [The prepared statement of Mr. Maser follows:]

 Prepared Statement of Mr. James Maser, Chairman, Corporate Membership 
   Committee, The American Institute of Aeronautics and Astronautics

    Chairman Palazzo and distinguished Members of the Committee:
    I want to thank you for the opportunity to address a subject of 
critical importance to the aerospace industry and our nation as a 
whole, which is the need for a clear national strategy for space.
    It is true that we face many other significant challenges and that 
our country is going through a period of transition. However, we must 
not lose sight of the fact that the aerospace industry directly employs 
more than 800,000 people across the country, and supports more than two 
million middle class jobs and 30,000 suppliers from all 50 states, with 
total industry sales in 2010 exceeding $216 billion.
    As a result, the health of the aerospace engineering and 
manufacturing base in America is a crucial element of our continued 
economic recovery and employment growth. But in addition to that, the 
aerospace industry is unique in its contribution to national security. 
And if the highly skilled aerospace workforce in the United States is 
allowed to atrophy, it will have widespread consequences for our future 
wellbeing and success as a nation.
    The U.S. space community is at a crossroads and facing an uncertain 
future that is unlike any we have seen in decades. This uncertainty 
significantly impacts our nation's ability to continue exploring space 
without being dependent on foreign providers. It also has implications 
for our national security and the U.S. industrial base.
    Thirteen months ago, NASA administrator Charlie Bolden called me, 
as well as several other aerospace manufacturers, to tell us that the 
Constellation program had been can celled. In the 13 months since that 
call, NASA has yet to identify a strategy to replace the Space Shuttle.
    There does not appear to be consensus within the Administration 
regarding the need for the Space Launch System (SLS) and Multi-Purpose 
Crew Vehicle (MPCV), and clearly there is not a consensus between 
Congress and the Administration on NASA's priorities.
    This uncertainly has our industry partners and suppliers very 
concerned about how we can position our businesses to meet NASA's 
needs, while retaining our critical engineering and manufacturing 
talent. It is creating a gap which our industry will not be able to 
fill.
    When the Apollo program ended in 1975, there was a gap of about six 
years prior to the first flight of the Space Shuttle program. However, 
the Shuttle program had been formally announced in January 1972. So, 
although there was a gap in U.S. human spaceflight, there was not a gap 
in work on the next generation system.
    Clearly this transition was difficult for industry. NASA budgets 
were reduced but the industry adapted to this new reality.
    During the Space Shuttle era, we saw NASA budgets flattening, 
declining to less than one percent of the federal budget. And although 
the space industry would have liked to have seen overall increases, we 
knew how to plan our business, how to invest, how to meet our 
customers' needs, and how to compete.
    But the situation now is much worse. It poses a much greater risk 
to the U.S. space community, to the engineering workforce, and to U.S. 
leadership in space. The difference between the Apollo-Shuttle 
transition and the Shuttle-next generation space exploration system 
transition is the perilous unknown.
    We simply do not know what is next.
    Congress passed an authorization bill that directs NASA how to move 
to the next generation program. But NASA has said that due to the 
Constellation contractual obligations they are limited in moving 
forward with the Authorization bill. This situation is creating a host 
of problems, and it urgently needs to change.
    If NASA is going to be relieved of Constellation obligations, we 
need to know how the workforce will be transitioned and how the many 
financial investments will be utilized for future exploration efforts.
    Whereas the Apollo-Shuttle transition created a gap in U.S. human 
access to space, this next transition is creating a gap in direction, 
purpose, and in future capabilities.
    In order to adequately plan for the future and intelligently deploy 
resources, the space community needs to have clear goals.
    Up until two years ago, we had a goal. We had a national space 
strategy and the plan to support it. Unfortunately, at this point, that 
plan no longer exists.
    This lack of a unified strategy coupled with the fact that the NASA 
transition is being planned without any coordination with industry 
leaders, makes it impossible for businesses like mine to adequately 
plan for the future.
    How can we right-size our businesses and work towards achieving 
greatest efficiency if we can't define the future need? This is an 
impossible task.
    So, faced with this uncertainty, companies like mine continue 
fulfilling Constellation requirements pursuant to the Congressional 
mandate to capitalize on our investment in this program, but we are 
doing so at significantly reduced contractual baseline levels, forcing 
reductions in force at both the prime contractor and subcontractor 
levels.
    This reality reflects the fact that the space industrial base is 
not FACING a crisis; we are IN a crisis.
    And we are losing a National Perishable Asset ... our unique 
workforce.
    The entire space industrial base is currently being downsized with 
no net gain of jobs. At the same time we are totally unclear as to what 
might be the correct levels needed to support the government.
    Designing, developing, testing, and manufacturing the hardware and 
software to explore space requires highly skilled people with unique 
knowledge and technical expertise which takes decades to develop.
    These technical experts cannot be grown overnight, and once they 
leave the industry, they rarely return. If the U.S. develops a 
tremendous vision for space exploration five years from now, but the 
people with these critical skills have not been preserved and 
developed, that vision will disappear.
    We need that vision, that commitment, that certainty right now, not 
five or ten years from now, if we are going to have a credible chance 
of bringing it to fruition.
    In addition to difficulties in retaining our current workforce, the 
uncertainty facing the U.S. space program is already having a negative 
impact on our industry's ability to attract new talent from critical 
science, technology, engineering and mathematics. Young graduates who 
may have been inspired to follow STEM education plans because of their 
interest in space and space exploration look at the industry now and 
see no clear future. This will have implications on the space 
industrial base for years to come.
    Access to space plays a significant part in the Department of 
Defense's ability to secure our nation. The lack of a unified national 
strategy brings uncertainty in volume, meaning that fixed costs will go 
up in the short term across all customers until actual demand levels 
are understood. Furthermore, the lack of space policy will have ripple 
effects in the defense budget and elsewhere, raising costs when it is 
in everyone's interests to contain costs.
    Now, it is of course true that there are uncertainties about the 
best way to move forward. This was true in the early days of space 
exploration and in the Apollo and Shuttle eras.
    Unfortunately, we do not have the luxury of waiting until we have 
all the answers. We must not ``let the best be the enemy of the good.'' 
In other words, selecting a configuration that we are absolutely 
certain is the optimum configuration is not as important as 
expeditiously selecting one of the many workable configurations, so 
that we can move forward.
    This industry has smart people with excellent judgment, and we will 
figure the details out, but not if we don't get moving soon. NASA must 
initiate SLS and MPCV efforts without gapping the program efforts 
already in place intended to support Constellation.
    The time for industry and government to work together to define 
future space policy is now. We must establish an overarching policy 
that recognizes the synergy among all government space launch customers 
to determine the right sustainable industry size, and plan on funding 
it accordingly.
    The need to move with clear velocity is imperative if we are to 
sustain our endangered U.S. space industrial base, to protect our 
national security, and to retain our position as the world leader in 
human spaceflight and space exploration. I believe that if we work 
together we can achieve these goals.
    We are ready to help in any way that we can. But the clock is 
ticking.
    Thank you again for the opportunity to address the committee today. 
I look forward to responding to any questions you may have.

 Biography of Mr. Jim Maser, Chairman, Corporate Membership Committee 
           American Institute of Aeronautics and Astronautics

    Jim Maser is President of Pratt & Whitney Rocketdyne (PWR) Inc. a 
division of Pratt & Whitney. Jim became President on December 4, 2006, 
and is responsible for the design, manufacturing and performance of 
power and propulsion systems. Pratt & Whitney Rocketdyne is the world's 
premier liquid rocket propulsion technology company, with a foundation 
that extends to the beginning of the U. S. space program. PWR products 
power the space shuttle, and have powered missions to nearly every 
planet in the solar system.
    Prior to his current position, Maser served as President and 
General Manager of the Sea Launch Company, an international partnership 
that launches commercial communications satellites. Under his 
leadership, Sea Launch emerged as one of the premier heavy-lift launch 
services in the world, earning the company a reputation of reliability 
and affordability in a challenging international market.
    Following Sea Launch, Maser took his launch vehicle and 
entrepreneurial leadership experience to Space Exploration 
Technologies, as President and Chief Operating Officer of the start-up 
firm, which was selected by NASA to demonstrate delivery and return of 
cargo to the International Space Station.
    Maser has a strong background as an aerospace engineer with 
extensive experience in program management, design and engineering 
leadership. Beginning with the Boeing Delta and Evolved Expendable 
Launch Vehicle programs in structural design, he became lead of 
advanced studies in systems integration and was one of the key 
architects of the evolution of Delta II to Delta IV. In 1998, Maser 
transitioned from Chief Engineer of Delta III to Chief Engineer of Sea 
Launch. Before joining McDonnell Douglas (now Boeing) in the 1980s, he 
was a research fellow at NASA/Lewis (now Glenn) Research Center.
    Maser graduated magna cum laude from the University of Akron with a 
bachelor's degree in Engineering, followed by a master's in 
Engineering. He later received a master's degree in Business 
Administration from the University of California at Los Angeles. In 
2000, the American Institute for Aeronautics and Astronautics honored 
Maser with its George M. Low Space Transportation Award.

    Chairman Palazzo. Thank you, Mr. Maser. I thank the panel 
for their testimony, reminding Members that Committee rules 
limit questioning to five minutes.
    The Chair will at this point open the round of questions. 
The Chair recognizes the chairman of the full Committee on 
Science, Space, and Technology, Mr. Hall, for five minutes.
    Chairman Hall. I thank you, Mr. Chairman, and I hope that 
none on this Committee nor within the audience or anywhere 
mistake my opening remarks as an indication that I am not very 
pro-NASA or that I am not an admirer of the Administrator and 
each person working there and I am grateful to you for coming 
here today, but had I had your opening statements, I would have 
had some questions for Mr. Maser when he says you need 
instructions. You do have instructions, and we will have some 
questions to send to you and to Doug Cooke. I have a question 
for Doug, but I will have some questions for you and for Dr. 
Pace and we will hope you send them back to us timely. I think 
the Chairman is going to instruct you to send them back within 
two weeks. but just so we have them to go down the road.
    Mr. Cooke, I thank you for your hard work and your 
leadership. You have been operating for years using the 
previous Constellation contracts that were awarded through the 
competitive bidding process, a process that has been voted upon 
by Republicans and Democrats alike here. Have you been able to 
successfully extend or modify these contracts to reorient work 
to support the Space Launch System and the Multi-Purpose Crew 
Vehicle?
    Mr. Cooke. Chairman Hall, absolutely. We are modifying the 
work on these contracts and making sure that they are focused 
on our direction ahead toward the SLS and MPCV.
    Chairman Hall. Have you found that to be a reasonable and 
efficient way to keep the work moving along?
    Mr. Cooke. It is----
    Chairman Hall. And if not, tell us about it.
    Mr. Cooke. Okay. Within the constraints of the laws, we are 
able to vector the work. Obviously the contracts that we have 
are for the Orion spacecraft and they are for the Ares I launch 
vehicle. The Ares launch vehicle, of course, was designed to 
carry the crew capsule. The SLS will be a heavy-lift vehicle so 
there are differences in the requirements. But many of the 
components of Ares I are functionally the same. We are able to 
continue work on the solid rocket booster, which was designed 
initially as a five-segment booster that could be used on a 
heavy-lift vehicle. The work on the Orion vehicle and the 
requirements that they are working to are in line with MPCV 
requirements that are called out in the authorization act, and 
upper-stage work for Ares I includes the J-2X engine, which was 
chosen originally to be common with an upper-stage engine that 
could be restarted for a heavy-lift vehicle. Manufacturing 
techniques that we have developed on the upper-stage tanks have 
been very valuable to us and something that we have learned 
quite a bit about. The avionics unit is functionally very 
similar to what would be needed on a heavy-lift vehicle. A lot 
of the functionality is the same, some of the parameters are 
different but there are similarities in function with all these 
and potentially lead directly to use in the heavy-lift vehicle, 
so we have done everything that we know how to continue work on 
long-lead items to specifically put tasks in place that are 
consistent with where the act has guided us, and in the case of 
the MPCV, the requirements are mapping very closely.
    Chairman Hall. I thank you, and my time is almost up. I 
just want to tell you that I am very hopeful that we can 
preserve our position in space, can keep our word with our 
foreign partners, and realize that we do need our space station 
and need our leadership. We need our missions beyond Earth 
orbit, but I think we need to limit those to a time that the 
economy might dictate. I have heard it said at home we don't 
want you guys going to the moon or to Mars or to some other 
mark out there, wherever, until we can go to the grocery store, 
and I guess that is what is going to guide us here, the 
economy.
    But we thank you for your hard work and appreciate your 
input, and I yield back my time.
    Chairman Palazzo. Thank you, Mr. Chairman. I now recognize 
the Ranking Member, Mr. Costello.
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Cooke, to follow up on Chairman Hall's question about 
existing or modified Constellation contracts, Congress, to my 
knowledge, has not seen a final ruling from the General Counsel 
on whether NASA can use those contracts. I guess, one, the 
first question is, has the General Counsel made a decision, and 
number two, if so, what is the decision that was made by the 
General Counsel? If not, when will the ruling be made?
    Mr. Cooke. Where we stand on working with the current 
contracts goes along the lines of we have been mapping the 
requirements that are for the MPCV and SLS against our current 
contracts. For instance, in the case of the MPCV, we have a 
procurement determination from the procurement office in 
Houston that MPCV requirements are within scope of the Orion 
contract. That has been concurred on by my office and with 
General Counsel as well as Procurement Officer for NASA. So 
that work has gone on. We are doing the same activity with the 
SLS in terms of the contracts that we have there including 
first stage, including upper stage, J-2X engine and the 
avionics unit, so procurement officials at Marshall Spaceflight 
Center are mapping those requirements. We have not gotten to 
determinations on those. They are a little more complex because 
we are moving from the crew launch vehicle to a heavy-lift 
vehicle but that work is ongoing. All of this will be brought 
forward in the next couple of months as we finish off our 
studies that are leading this, and in order to understand the 
best approach to fit within the budget with our acquisition and 
the actual design.
    Mr. Costello. So the bottom line is, some issues have been 
resolved internally, others may not have been, but is there a 
final ruling on some but not others, and if so, tell us which 
ones and which ones have not had a final ruling.
    Mr. Cooke. The determination we have is only currently on 
the Orion contract. We are still working on the others, and we 
will have to go through an acquisition process to work through 
the details of those and make sure we understand what we can do 
legally.
    Mr. Costello. And what are we looking at as far as the 
timeline when Congress can expect a final ruling?
    Mr. Cooke. Our plan is to complete this work in the spring 
and early summer and get back in that time frame.
    Mr. Costello. When can we expect to get an exact timeline 
and date when NASA will start work on the new vehicle?
    Mr. Cooke. That will be determined at the same time frame. 
We are trying to bring all these decisions together through a 
plan that we have laid out for the next couple of months that 
lay out decision time frames that complete work that we have in 
contracts supporting the design decisions and also 
incorporating the industry studies that we have out that are 
contributing to our heavy-lift studies.
    Mr. Costello. So the answer is in a few months?
    Mr. Cooke. Yes, sir.
    Mr. Costello. Let me ask you a final question and ask the 
other witnesses the same question. I mentioned in my opening 
statement that Congresswoman Giffords had very serious concerns 
about current funding levels, and her concerns were if the 
current funding levels in fact could accomplish both the heavy-
lift and the Multi-Purpose Crew Vehicle, if they really had a 
future at current funding levels, and my question to you is, do 
they have a future with current funding levels?
    Mr. Cooke. That is the subject of these studies as well, to 
understand how these design concepts lay out, what they will 
cost, and how the work can be phased within the funding levels 
that we are looking at in order to understand when we can 
produce hardware and lay out the program plans. We need an 
integrated program plan, and that is what we are developing 
now.
    Mr. Costello. Dr. Pace, based upon what you know now, I 
would ask you the same question.
    Dr. Pace. Well, I read with interest the report that NASA 
provided saying that they would have difficulty meeting the 
Congressional time schedule at current funding levels, and as 
someone who used to deal with cost estimations and 
probabilities associated with cost estimations, I think they 
were exactly correct. They cannot meet the schedule with 
sufficient confidence with the funding levels that they have. I 
think that is fairly straightforward. And this is not, I should 
say to be fair, not a new problem. Lack of funding from the 
Administration, the previous Administration, in which I served, 
also led to cost increases in the program. So inefficient 
costing and funding schedules create overall costs to rise, so 
I don't think they are there now and I think that if they 
continue to be underfunded, the overall cost to the Nation if 
we continue on that path will be higher. So they need more 
funding now to make schedule, and if they don't get it, you 
will see costs go up.
    Mr. Costello. Mr. Maser?
    Mr. Maser. It is a complex question, and ultimately NASA is 
the one who has to execute under the budget provided, and in my 
opinion, it depends on whether they extrapolate business as 
usual into the future or truly move out on what they are saying 
is a more efficient approach. Mr. Cooke in his testimony stated 
that NASA is working on stepped-up cost savings and measures 
that are supposed to be more efficient both internally and 
externally. It is not clear how quickly that can be put into 
systems and processes, so I would argue that extrapolation of 
the past with the current budget would make it challenging with 
the timeline but that it could be achieved with an extended 
timeline and the right architecture.
    Chairman Palazzo. Thank you, Mr. Costello. I now recognize 
myself for five minutes.
    Mr. Cooke, NASA's preliminary report seems to indicate that 
you intend to design a smaller vehicle, around 70 to 100 tons, 
than what was envisioned in the authorization. The 
authorization assumes a launch vehicle that is designed from 
inception as a 130-ton vehicle with an upper stage, but one 
that could make use of the core first stage for early flight 
testing of the crew capsule. Could you clarify for us how NASA 
envisions the design of the space launch vehicle?
    Mr. Cooke. Yes, Chairman Palazzo. I realize there is some 
confusion over some of this. Actually, in our teams we are 
studying design concepts and we really have to design from the 
inception for the full capability of 130 metric tons, and our 
approach would be--so there is the design aspects and you have 
to understand where you are going, which is 130 metric tons. 
There is also a discussion in the act about something evolvable 
from 70 to 100 metric tons. So basically starting with 130, you 
can assemble the components to get the lower-level 
capabilities, and if we do that, we can potentially field a 
capability earlier at the lower levels of 70 to 100. But 
certainly you have to work on the 70- to 100-metric-ton 
implementation considering its ultimate capability at the 130-
metric-ton level.
    Mr. Maser. I would like to give an industry perspective on 
some of the confusion we have around that whole topic. In a 
recent March 25th Space Transportation Association luncheon, 
Administrator Bolden was quoted as saying ``NASA does not need 
130-metric-ton vehicle probably before the next decade.'' He 
also was quoted at the Center for Strategic and International 
Studies in March saying, ``We are not going to build 130-
metric-ton vehicle; we can't. We continue to negotiate and 
discuss with Congress why that is not necessary.''
    So in industry what we hear is a lot of discussion about 
what we can't do and what we don't want to do, and okay, so 
what can we do, what do you want to do and why aren't we being 
explicit now, and why aren't we being transparent now. From an 
industry perspective, all I know is the shuttle ends in June. 
The Constellation is can celled. Tomorrow will be 14 months 
with nothing that I would characterize as other than platitudes 
on innovation, inspiration, technology, infrastructure, 
education but no plan and no direction with a true ominous gap. 
The authorization bill is into law. We need to define the 
vehicle. It needs to be something that can go beyond low Earth 
orbit right from the get-go and we need to get started now.
    Chairman Palazzo. Thank you, Mr. Maser.
    Now, this question can be for all of you. We understand the 
importance of maintaining our aerospace industrial space. For 
purposes of today's discussion, how much of that industrial 
base is driven by NASA, and if NASA chooses to reduce its 
commitment to the Space Launch System and capsule, what happens 
to the people who build these systems? To what degree can the 
Defense Department and other civil customers absorb these 
people and facilities?
    Mr. Maser. Okay. Well, from my perspective, I can't speak 
for all of AIAA because it varies in terms of the types of 
businesses people are in, etc., so as part of United 
Technologies and Pratt and Whitney Rocketdyne, from our 
perspective, historically NASA has been a majority of our 
industrial base, and in fact, not so far ago, maybe 5 to ten 
years ago, 75 to 80 percent of our industrial base, and over 
time that has reduced down to, say, 50 or 60 percent of our 
entire workload industrial base, and we have been working to 
build what I would call a mixed portfolio of business. It not 
healthy for a business to have that much tied to one single 
customer in any way.
    But I will say for a Nation from the national standpoint, 
that NASA contribution to the industrial base has benefited the 
entire Nation's access to space, and we have a chart that shows 
that relative to DOD access to space, and we provide the 
majority of propulsion for that, but NASA carrying a large 
portion of the fixed costs of that industrial base has 
benefited DOD in terms of what I would characterize as 
subsidies to their costs and have afforded them relatively 
attractive pricing in the past. As we look at what the future 
looks like, our ability to adjust our fixed costs and 
industrial base quickly is somewhat limit, and what happens in 
the short run is that we will have to shift some of those costs 
to DOD over time. So there is still a net total cost of U.S. 
access to space, and I think there is not an integrated view 
being looked at that. But to be clear, NASA has supported a 
large portion certainly of the liquid propulsion industrial 
base, and that is in jeopardy right now.
    Chairman Palazzo. Would anybody briefly like to wrap up? I 
am over time.
    Dr. Pace. Sure. And I think during the Constellation 
program when I was at NASA, there was a certain amount of 
advocacy for use of EELVs and we were advocates of it and we 
did those sorts of trades with the architecture studies. One of 
the things that was important to note about the Constellation 
architecture was the large use of RS-68 engines built by Pratt 
and Whitney Rocketdyne, and that the combination of large buys 
for the Constellation program was beneficial to the DOD side. 
One of the largest costs in a launch vehicle is the first-stage 
engine. The second largest cost in the vehicle is the second-
stage engine. So even though we weren't buying EELVs that would 
benefit, I think, parts of DOD, we were supporting the 
industrial base. Again, that kind of integrated thinking, I 
think, is absolutely necessary, and it is really hard to do it 
if we don't have an architecture or direction as to where we 
are going. So it is not just a matter of building vehicles, it 
is a matter of saying where are they going to go, and what 
schedule are they going to be on so you can then get down to 
planning what actually makes sense for the industrial base.
    Chairman Palazzo. We have a limited amount of time and a 
lot of Members have some questions. Thank you all for that. I 
will now recognize Mrs. Fudge.
    Ms. Fudge. I thank you, Mr. Chairman, and thank all of you 
for being here today.
    Mr. Cooke, during the Constellation program, the Glenn 
Research Center contributed significantly to the success of 
various activities including developing, designing and 
constructing the 110-foot upper-stage simulator. That simulator 
successfully flew on the Ares I-X. Though I am supportive of 
the President's budget and new direction for NASA, I feel that 
it is important for Glenn to have a role. So my question, what 
Space Launch System and Multi-Purpose Crew Vehicle project 
management responsibilities are envisioned for Glenn?
    Mr. Cooke. In terms of the past, I agree with you, the Ares 
I-X effort was very significant, the work was excellent, and 
the upper stage was incredible. The Glenn Research Center 
continues to have service module responsibilities for the crew 
vehicle. In terms of the launch vehicle, those assignments will 
be worked by Marshall Space Flight Center. There have been on 
Ares I assignments at Glenn and the work that was done on Ares 
V in the Constellation program, was there as well. So as we get 
to final decisions on these vehicles and understand how the 
final designs work out, we will be working those assignments.
    Ms. Fudge. As you talk about Marshall, let me just ask, 
have any other center-specific assignments for SLS or MPCV been 
made?
    Mr. Cooke. The assignments that we currently have are for 
the MPCV leadership at Johnson Space Center, which is where 
Orion has been worked from, and the Space Launch System will be 
at Marshall Space Flight Center. Those are the primary 
assignments that have been made so far. It will depend on final 
designs in the future but we will be working with centers 
across NASA.
    Ms. Fudge. So if those assignments have been made, then 
when do you anticipate that the other assignments will be made?
    Mr. Cooke. As we get to our final designs and we begin our 
implementation phase of the work for the SLS and MPCV, those 
assignments will be negotiated as they have been in the 
Constellation program, and that will be following the results 
of the work that we are currently doing that should end up this 
summer.
    Ms. Fudge. Lastly, Mr. Cooke, how is Glenn involved in 
current trade analysis leading to the final report on the Space 
Launch System and the MPCV?
    Mr. Cooke. I will have to take that for the record. I am 
not sure exactly their participation in that.
    Ms. Fudge. And you would get me that information at what 
point?
    Mr. Cooke. That is a fairly simple request, I think, so it 
should be soon.
    Ms. Fudge. Thank you very much, Mr. Chairman. I yield back.
    Chairman Palazzo. Thank you. I now recognize Mr. 
Rohrabacher.
    Mr. Rohrabacher. Well, at times like these, two stories 
come to mind which of course many of us already know these 
stories, and that is, the first about the gentleman who takes 
his son to the Air and Space Museum and is pointing out the 
Spirit of St. Louis. He tells his son that this is where 
Charles Lindberg, this is the craft Charles Lindberg first was 
able to traverse the Atlantic from New York to Paris. The son 
asks, well, was it really difficult for him to do that all by 
himself, and the father answers it would have been more 
difficult with a committee. We have heard that, as well as the 
fact that a camel is nothing more than a horse that was 
designed by committee. What we have here is a space policy 
designed by committee, not just this Committee but the 
committee made up of the Senate and the Executive Branch and 
people in the private sector who are all trying to get together 
to design a horse, and it is turning out to be a camel and I am 
not even sure if it is a camel.
    Let us take a look at what we are talking about here in 
terms of the billions of dollars that are being spent and have 
been authorized. Let me just ask, Mr. Cooke, is the heavy lift 
that has been authorized for $4 billion, is that heavy lift 
absolutely necessary and the money that is being spent in 
developing it for other options other than just the immediate 
option that is our immediate task of having a backup for taking 
people to the International Space Station?
    Mr. Cooke. Yes, sir. The heavy-lift vehicle is a necessary 
step, probably the most important step in getting beyond low 
Earth orbit to other destinations.
    Mr. Rohrabacher. Right. But I mean, in terms of space 
exploration, are there other options to space exploration 
rather than just the building this heavy-lift vehicle or are we 
talking about the option that is driving the heavy-lift vehicle 
as a backup to manning the International Space Station?
    Mr. Cooke. The role for the heavy-lift vehicle as a backup 
to transporting cargo or crew to Space Station, using it for 
that is inefficient actually. It is more needed for going 
beyond low Earth orbit.
    Mr. Rohrabacher. That is correct. But let us take a look 
now in terms of actual space exploration. Is it possible that 
perhaps developing refueling techniques and other such 
approaches to deep space exploration might be, let us say, a 
better use or a better method of getting to space exploration 
rather than just building a big booster like we did with the 
Saturn? After all, we did produce a huge vehicle like this 
before. Saturn carried 260 tons into orbit, which is much more 
than what we are even talking about now for this heavy lift, 
and that was 1950s technology. Is there something--haven't we 
progressed to the point that there is other technological 
alternatives rather than simply having a huge, dumb and 
expensive booster?
    Mr. Cooke. There are many technologies that are needed for 
going beyond low Earth orbit to other destinations. Getting off 
the planet is the hardest part, step one, and we have done 
extensive studies over the years to look at various 
alternatives. Certainly, in-space fueling can augment what you 
would do, but ultimately you have to get fuel off the planet to 
go into outer space, and one of the biggest components of, say, 
a Mars mission is the fuel it takes to get there. So in-space 
transportation efficiencies are important but we have found 
that even when you sum up all the gains you can get in 
efficiencies that we know how to get to with technology, some 
of which we don't currently have in hand, it still may take six 
or seven heavy-lift boosters to get all the hardware----
    Mr. Rohrabacher. When you talk about fuel, we have had some 
great advances in nuclear technology that would not only save 
Japan from what it is going through right now but permit us to 
utilize very safe nuclear engines in space. These technological 
advances have been happening just in the last few years, so I 
would suggest that we--quite often these debates are taking 
place within the mental framework of what is and what is that 
was created by technologies of decades ago, and just a concept 
here that yes, NASA is really important to develop a workforce 
and it is important to our industrial base but we have to 
realize that today we also have a great deal of investment 
going on. Bigelow, Boeing, SpaceX, ATK, United Space Alliance, 
Orbital and many other companies are now emerging as entities 
that are investing in developing space technologies. I would 
hope that as we plan through this committee process that we 
have got our strategy for the future, that we have to realize 
that with the type of deficit spending that we now have taking 
place in this government, it behooves us to think with new 
thinking to bring as many resources into America's space effort 
as we possibly can and also make sure that we are cooperating. 
If we have three backups to supplying the Space Station, if we 
have three backups and one of them happens to be Russian and 
the others happen to be American commercial, I would hope hat 
we are not wasting billions of dollars simply to have a third 
backup which those billions of dollars could go to developing 
the technologies we need for new methods of getting into deep 
space.
    Thank you very much, Mr. Chairman.
    Chairman Palazzo. Thank you. I now recognize Mr. Wu.
    Mr. Wu. Thank you very much, Mr. Chairman.
    Dr. Pace, I notice from your CV that you have part of your 
portfolio in international issues, and I would like to address 
a question in that direction, and it is a question for both you 
and Mr. Cooke. Dr. Pace, on page 7 of your written testimony 
you state, ``If the Administration is truly supportive of 
stimulating commercial space transportation, then it needs to 
consider where future demand might come from. It is not a 
question of choosing between government and commercial 
approaches but of government first and then commercial in a 
well-considered transition,'' and I just want to point out that 
this transition was rolled out by the Administration with no 
transition. Congress was surprised. I believe that NASA may 
have been surprised. I won't guess or speak for NASA. And I am 
very concerned about that. Further on page 7, Dr. Pace, you 
discuss the role of international partners in the future and 
you state, ``We should consider making greater use of 
international partners.''
    I have heard from some of our international partners. I was 
surprised when I first got calls from the press in other 
countries and from some other folks in foreign countries and 
then it became apparent to me that we have these partners, I 
believe more than 15. I have heard from some of them. Have you 
heard from them, and what have you heard? Are they concerned? 
And do we run a risk of fracturing this multinational space 
coalition which was so painstakingly put together over a period 
of 30 years or so, which I view as very important to the future 
of human spaceflight. Dr. Pace, you first, then Mr. Cooke, then 
you.
    Dr. Pace. Thank you for that. It is an excellent question, 
and the answer is yes, we are at a risky period. I mean, the 
Space Station continued assembly was done in part because we 
needed to preserve our international partner commitments. It 
was not clear we could finish the Space Station after the 
terrible Columbia accident. We did it in part to keep our 
commitments to our international partners and they are with us 
now on station. But what is happening is with the kind of drift 
in the policy approach with discussions of Mars and near-Earth 
objects and the Moon is not quite here and we are not sure what 
we are doing next. The partners are having to make their own 
decisions with their own governments. They have their own 
financial problems, their own budgetary issues, and if there is 
not clear leadership and direction for the United States, they 
each make their own decisions. This is happening in Japan. This 
is happening in Europe. Certainly India is making its own 
judgments about what to do next.
    So there is a very coherent, I thought, international lunar 
architecture that had been created through consultations that 
have been done over the last several years, and one of the 
things that was great about it was that countries at different 
levels of capability could participate, yes, the really high-
end countries with manned space capabilities but South Korea, 
Brazil, potentially South Africa, other countries could find 
small experiments, could find things to participate in. One of 
the problems with some of the ambitious statements that the 
Administration has made is that inadvertently, I think 
unintentionally, excludes a lot of those countries so I would 
urge a return to an international lunar architecture and focus 
for beyond low Earth orbit. Not only because I think that is 
great for the United States but I think it produces more 
opportunities than other alternatives for involving countries 
and continue to maintain the partnership and build upon the 
amazing partnership that has occurred over the last decade.
    Mr. Cooke. I would like to add that in our work with the 
internationals, we have developed what is called the 
International Space Exploration Coordination Group, which does 
include 14 space agencies, That group has developed lunar 
architecture that Scott Pace mentioned. We are continuing to 
work with them on a weekly basis to develop roadmaps for other 
destinations. We also talk about potential for flying 
instruments on each others' spaceflight, to continue 
collaboration, and I have been in discussions with Bill 
Gerstenmaier of Space Ops to understand how we can work 
exploration-type activities together on Space Station to help 
with that coordination. So we are continuing to work with them.
    Mr. Wu. Thank you very much.
    Mr. Chairman, if you will permit me the liberty of one more 
comment. I believe very strongly in a multilateral approach to 
human space exploration. I want to leave no doubt about that. 
But I don't think that this can occur without American 
leadership. My daughter, after attending the last shuttle 
launch, bought the book Apollo 13, and like the comment in that 
book, ``In this endeavor, failure is not an option,'' and what 
is at stake is just as English is the language of air traffic 
control, I want English to be the language of space, and that 
is what is at risk with this Administration's drifting human 
spaceflight policy. Thank you, Mr. Chairman.
    Chairman Palazzo. You are welcome. I now recognize Mr. 
Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Dr. Pace, I would like to address first question to you as 
well as to the other panelists, and it is this. While the NASA 
Authorization Act of 2010 legislates that a heavy-lift launch 
vehicle and a Multi-Purpose Crew Vehicle be built, Mr. Maser 
contends in his testimony, I think it was page 3, ``There does 
not seem to be a consensus within the Administration to build 
these systems,'' and it seems to me that the NASA Authorization 
Act is being ignored by the Administration. If you agree, what 
do you think Congress should do about it, perhaps short of 
holding the Administration in contempt of Congress? But what 
else can we do to get the Administration's attention and to get 
them to follow the laws Congress has passed?
    Dr. Pace. Well, thank you very much. I can't really speak 
for the Administration or speak for NASA. I know that Doug 
Cooke's testimony was very detailed on the subjects of what 
they are doing with the Space Launch System and Multi-Purpose 
Crew Vehicle. What I know is what the Administration proposed 
in the fiscal year 2012 budget, and I look at that budget 
proposal and it reflects priorities, and their priorities are 
fairly clear in terms of additional technology, money that is 
not tied to any particular mission, funding for some important 
earth science efforts, funding for commercial crew 
capabilities, which one can have a discussion as to how ready 
they are, and therefore less priority was placed upon the SLS 
and Multi-Purpose Crew Vehicle.
    So I think what Congress can do is look at that priority, 
take it into account and then respond through the authorization 
and appropriations act with its own priorities. If in fact 
Congress does believe what was passed in 2010 represents a 
strong bipartisan basis for moving forward, then that needs to 
be reflected in what the appropriations do that the Congress--
the Administration has proposed. It is up to the Congress to 
dispose and put its priorities in discussion with the 
Administration.
    Mr. Smith. Thank you, Dr. Pace.
    Mr. Cooke, Mr. Maser, do you have any other comments or 
observations on that?
    Mr. Cooke. I would like to say once again, and it is in my 
testimony and my opening statement, we are at NASA taking the 
authorization act seriously and we are pursuing the concepts 
for Space Launch System and the crew vehicle. We have all the 
work in place to get us to a solution on that.
    Mr. Smith. Thank you. Mr. Maser, since I quoted you, feel 
free to respond.
    Mr. Maser. Well, it is interesting because I spent a good 
portion of my career in commercial space, and actually this is 
my first gig in the government space world and I am still 
learning quite a bit. In fact, I talked to Dr. Pace and told 
him that four years ago I couldn't even spell space policy and 
now I appear in the middle of it. So from my private 
experience, it is hard for me to understand the situation, 
because I guarantee you, in the private world these kind of 
situations resolve themselves relatively quickly one way or 
another. In the government world, the only thing I can do is 
agree with Dr. Pace and that is based on what I have been able 
to learn about this process is appropriations would be 
necessary. The authorization is law but does not provide the 
direction and the funding to go implement that law, and I think 
that would be the most expeditious.
    Mr. Smith. That is a good point. Thank you, Mr. Maser.
    Dr. Pace, let me squeeze in one more question which is 
fairly specific and ask you to respond. In your testimony, you 
discuss how ``policy instability or lack of clear direction for 
NASA over the last 20 years has resulted in at least $21 
billion being wasted in various can celled human spaceflight 
programs,'' leaving us in a situation today of course where we 
are now having to pay Russia millions of dollars to launch our 
astronauts into space. Given the crisis and instability 
described in today's testimony, is it too late to consider 
continuing flying the shuttle orbiters while a concerted effort 
is undertaken to build a follow-on vehicle?
    Dr. Pace. I have to say that mindful of the Columbia 
Accident Investigation Board recommendations, and I can't 
really in all good conscience support continuing to fly 
shuttles unless there was absolutely no alternative to 
supporting the International Space Station. So in that regard, 
I think the STS-135 is something I can reluctantly support as a 
necessary and important mission. But I do believe there is time 
to get back on track, but as Jim Maser is saying, time is 
running out for the industrial base to make those decisions. 
Decisions are needed really this year, and I think there is an 
alternative that continues building on the work of the 
Constellation program and that would not require us to go back 
and try to keep shuttles flying. I think the SCS-135 we have 
got to do but I really don't think we should continue flying 
shuttles unless we utterly, utterly have no other choice.
    Mr. Smith. Thank you, Dr. Pace. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize the gentlelady from 
Maryland, Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you to the 
witnesses for this hearing.
    You know, since I came into this Congress, I have been on 
this Subcommittee, served as Vice Chair in the last Congress 
with Ms. Giffords, and feel like we are in the Groundhog Day 
film, you know, going over the same things over and over again. 
I want to say a special thank you to the diverse and skilled 
and competent workforce. It is a private sector workforce. It 
is a public sector workforce. It is small and large businesses. 
And I share their uncertainty and confusion because as a Member 
of this Committee, I am uncertain and confused about what NASA 
is doing with regard to the Exploration program and confused by 
an authorization that we passed that in my view NASA seems not 
to be following, so I am confused about what authority NASA is 
operating under in terms of the continued implementation.
    So I want to ask actually a few questions, Mr. Cooke, and 
if you aren't able to answer these now or they are in your 
written testimony which, you know, I study this testimony and 
unfortunately didn't have a chance to review because we didn't 
have it, and so I do hope that doesn't happen in the future. 
But you issued a reference design for the Space Launch System 
with a caveat that you might make changes pending the results 
of industry studies. I just wonder if you have seen anything up 
to this point that would lead you to alter the reference design 
that you had issued.
    Mr. Cooke. Right now we are not altering the reference 
design. We are updating our understanding of some of the 
approaches in design and some of the work that would make it 
more efficient. We are also studying alternative designs to do 
our homework to make sure that we challenge our own thoughts 
and come up with the best answers. So that work is ongoing but 
at this point we have not made changes.
    Ms. Edwards. So I want to get some clarity then about the 
details. I want to go through a series of questions about the 
initial heavy-lift capability that you are looking at. Will the 
core stage vehicle use liquid oxygen or liquid hydrogen engines 
or liquid oxygen rocket propellant?
    Mr. Cooke. The core stage on the reference vehicle is 
liquid oxygen hydrogen stage. It uses for the 130-metric-tone 
case five shuttle-derived engines, the same engines just 
adapted for this use.
    Ms. Edwards. So you don't have any plans then to change 
that part of the reference design?
    Mr. Cooke. Not in the reference design.
    Ms. Edwards. And then what is the diameter of the core 
stage?
    Mr. Cooke. The core stage is 27-1/2 feet in diameter. It is 
the same dimension as the current shuttle external----
    Ms. Edwards. And can you tell us the thrust of the first-
stage engine?
    Mr. Cooke. The thrust of the first-stage engine as it is 
flown on the shuttle is, I believe, 470,000 pounds of thrust.
    Ms. Edwards. And that remains what you are committed to in 
the reference design?
    Mr. Cooke. That would be the same engine. We would probably 
make some modifications for manufacturer ability. Mr. Maser 
could comment better on that than I can.
    Ms. Edwards. Well, let me just get through. So you 
mentioned earlier that you are still committed to a design to 
have an upper stage. Is that correct?
    Mr. Cooke. Yes. Part of the reference design is an upper 
stage that would and currently employs the J-2X engine that we 
are developing in current contracts.
    Ms. Edwards. And will it use solid rocket boosters?
    Mr. Cooke. The reference design does use five-segment solid 
rocket boosters that are consistent with the design on Ares I.
    Ms. Edwards. And there is nothing up to this point that you 
are looking at that would change that commitment?
    Mr. Cooke. On the reference vehicle design, that is where 
we are. We are looking at slight modifications to it, but for 
the reference vehicle design, we are not making big changes to 
what I just described. We do have other studies in parallel, 
though, that look at liquid oxygen and kerosene approach to the 
launch vehicle and we have one that we call modular approach.
    Ms. Edwards. I am going to submit some other questions but 
just as I run out here, I just wonder if the vehicle is going 
to be available under the President's proposed five-year runout 
and then if you could tell me about the studies. You said that 
a final report would be issued in the spring. Well, we are 
hitting on spring, we hope. It doesn't feel like it outside but 
we are getting to spring, so can you give us an exact date or 
month that we should expect to receive that?
    Mr. Cooke. We are aiming right now for late spring, early 
summer for the report.
    Ms. Edwards. That is a long time. My birthday is in the 
late summer. I like that. But can you tell us, I mean, it is 
going to be April, is it May, is it June, July, August?
    Mr. Cooke. Right now we are shooting to have the report in 
the late June time frame. It is a success-oriented approach but 
that is our goal.
    Ms. Edwards. Thank you very much. Thank you, Mr. Chairman.
    Chairman Palazzo. I now recognize the gentleman, Mr. Brooks 
from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman. I have been going over 
the more extensive versions of your testimony, and quite 
frankly, I find the testimony conflicts somewhat challenging, 
and perhaps you all collectively could assist me in better 
understanding the true situation. In looking at Doug Cooke's 
testimony, for example, he refers to the President's budget 
request as a ``vigorous path.'' He also states, ``It is clear 
that NASA has a bright future.''
    Yet when I look at the testimony of Scott Pace, he states, 
``NASA effort to transition from Constellation program designs 
to the Space Launch System can be seen as incomplete and 
arguably adequate.'' He also states that ``through its budget 
proposals, the current Administration has contributed to policy 
instability for NASA as a whole, not just in human 
spaceflight.'' Further, ``In the fiscal year 2011 proposal of 
NASA, the Administration added funds back such that the NASA 
top line returned to where it would have been in continuing the 
spending levels of the Bush Administration. However, the 
composition of spending had changed significantly with 
exploration spending dropping.'' And then finally, we have 
``Planning for and successfully executing this transition has 
been made significantly more challenging by the policy, 
programmatic and budget instability of the past two years. As a 
result, the United States does not have at present a plausible 
architecture and strategy for conducting human missions beyond 
low Earth orbit for the next two decades.''
    And without belaboring it too much, looking at Jim Maser's 
testimony, he notes, ``The United States space community is at 
a crossroads and facing an uncertain future that is unlike any 
we have seen in decades.'' And Mr. Maser's testimony contains 
additional comments to that substance and effect.
    When I look at my own experience in communicating with 
people who are involved with NASA either as employees or part 
of the administration of NASA or some of the subcontractors and 
contractors and the employees in and about the Marshall Space 
Flight Center in Huntsville, Alabama, I can't help but note 
that many of these in the private sector contractors and 
subcontractors are being laid off in large numbers. More 
recently, we had a $300 million cut in NASA spending by a vote 
on the House Floor in which the cut of $300 million was to 
instead go to the COPS program, which is a unique local 
function, a state government function, while NASA is a unique 
federal government function. Yet during the rather vigorous 
debate on whether to transfer those $300 million in NASA funds 
to the COPS program, it appears that the White House and the 
NASA leadership was AWOL on that vote in as much as based on 
the testimony previously in this hearing, neither the White 
House nor the NASA administration did anything to persuade any 
House Members of the effect that $300 million loss in funding 
would do to NASA or the contractor and subcontractor community. 
And just as an aside, 83 percent of Democrats voted to cut NASA 
$300 million in favor of the COPS program while 30 percent of 
Republicans similarly voted to make those cuts.
    And then in my private communications with contractors and 
subcontractors, I see absolutely nothing that suggests optimism 
of any significant nature, and I am quite comfortable with any 
of you all addressing this situation. But what can you do to 
help persuade me that despite these conflicting testimonies and 
rather depressing information within the NASA contractor and 
subcontractor community that things truly are going to get 
better and get better quickly?
    Mr. Cooke. Let me try. Obviously we are in tough economic 
times. Budgets are scrutinized. We have to make tough choices, 
and we do have an authorization act at this point that was 
passed by Congress and signed by the President at his 
direction. That is a path forward, and we are addressing that 
act. The budgets that are available will be negotiated through 
our normal budget processes between the Administration and 
Congress, and it is my job to implement what we have, and I can 
tell you that with all our ability, we are trying to make the 
most of what we are given and we are--and in challenging times 
we are working very hard to gain efficiencies in how we do our 
work and have extensive efforts within the SLS and MPCV 
activities to streamline what we do.
    So we want to make progress. We want to get to exploration 
of space beyond low Earth orbit and within this environment we, 
I guarantee you, are working as hard as we can to make progress 
down that path.
    Mr. Brooks. Well, if I might just add 15 more seconds, Mr. 
Chairman, the Apollo program raced to the moon. The 
International Space Station, the space shuttle all existed 
because of strong, vigorous leadership from the White House, 
and if any of you gentlemen have any ideas as to how we can 
light a fire under this White House to provide that kind of 
similar strong, vigorous leadership, we certainly would as 
supporters of the NASA community appreciate that insight.
    Chairman Palazzo. The gentlelady from Florida, Ms. Adams.
    Mrs. Adams. Thank you, Mr. Chairman.
    Thank you for being here. I come from Florida's 24th 
district, home of Kennedy Space Center, and the hardworking men 
and women down there who have spent a lifetime, some of them, 
working on the shuttle and on the human spaceflights and all of 
the flights that we have had coming out of central Florida. 
They have concern that they bring it to me, and as I sit here 
and listen, I am just amazed because--a couple of questions I 
have, and hopefully you can answer them. My colleague was 
asking what is your plan to keep human spaceflight, keep us 
moving forward, and you said it is tough budget times and you 
are working on it, but, you know, President Obama made a speech 
about space exploration last year. He committed additional $6 
billion over the next five years to the budget. Then the budget 
runout proposes $8.5 billion less for NASA over the same five 
years. While cutting NASA's budget, the President proposes 
sizable budget increases in other federal R&D agencies and 
programs, especially climate change where Science Committee 
Chairman Ralph Hall's analysis shows there was $36 billion 
spent over the last five years. How does this dramatic increase 
in climate change research affect the overall budget picture 
for NASA? In other words when you are taking away form space 
exploration for the benefit of climate change, there are 16 
agencies currently doing that. How does that affect your 
ability for human spaceflight?
    Mr. Cooke. I actually would have to take that for the 
record but it includes more than the work I do. My job is to 
lead----
    Mrs. Adams. Okay. How about this? Do you believe that 
affects your ability for human spaceflight to have those funds 
sent to another division within NASA?
    Mr. Cooke. The amount of money we get obviously affects how 
much work we can do, and with the money that we have in our 
budget, we are--as I said, we are working to find efficiencies, 
to make the most of the budget we have.
    Mrs. Adams. Thank you.
    Mr. Maser, if we close down all our human spaceflight in 
this country, effectively not send anyone into space on 
American rockets for 5 or six years, how long would it take us 
to ramp up that kind of industrial base again and at what cost 
to the industry and to the government?
    Mr. Maser. Well, that is a very hard question that 
obviously we are trying to avoid, but I believe----
    Mrs. Adams. Your best guess.
    Mr. Maser. To ramp back up after being shut down for 5 or 6 
years?
    Mrs. Adams. For 5 to 6 years.
    Mr. Maser. You are talking at least six to ten.
    Mrs. Adams. And about what cost do you think to the 
American people?
    Mr. Maser. Well, what is the cost of loss of space 
leadership? I can't quantify it in dollars. I can try to get 
AIAA to compile that, but that is a tough question to estimate 
from a dollar standpoint. I think it stems back to the larger, 
what is the cost of abdicating space leadership for this 
country.
    Mrs. Adams. Dr. Pace, I would like to speak to you a moment 
about America's leadership in space. Recently, Space News 
published an article accusing the Administration of being 
muddled on its China space policy. On the one hand, the 
Administration speaks to the concerns about a growing military 
in China, the technological advances, and on the other hand 
talks about increased cooperation in space. What do you suppose 
would happen to America's leadership in space if there were a 
Chinese flag planted on the moon and America could not get past 
low Earth orbit, or even get astronauts into low Earth orbit on 
American rockets?
    Dr. Pace. Well, I think it would contribute to a broader 
perception of American decline. I certainly have run into lots 
of people who feel that that memo has been sent and anybody who 
doesn't understand America has declined from its best days just 
doesn't understand the situation. I don't agree with those 
people and I have some wonderful arguments with them.
    I don't mind the Chinese in space so much as I worry about 
us not being there with them. The rules in space, the norms of 
space are set by those people who show up, not by those people 
who aren't there. So I believe that we should be looking for 
ways to cooperate with China in science efforts. I think human 
spaceflight is too difficult and too hard for lots of reasons. 
We should be willing to reach out to them on smaller projects. 
But ultimately our fate is in our own hands, and we should be 
the ones in space welcoming the Chinese to work with us in 
times and places of our choosing, not responding to offers of 
them to work with them in times and places of their choosing.
    Mrs. Adams. In the article dated on March 28th, it stated 
the Director of National Intelligence, James Clapper, 
testifying before Congress stated that China poses 
``potentially from a capability standpoint a threat to us as a 
mortal threat.'' While Clapper went on to note he was 
discussing capabilities and not intentions, is it clear that at 
the highest reaches of the U.S. government, China's 
capabilities both terrestrial and spatial are engendering great 
concern. I submit that our agencies are having some serious 
discussions, and maybe this Administration needs to listen to 
them.
    Chairman Palazzo. Does any other Member have a question?
    Mr. Costello. Mr. Chairman, I have a final question and 
then maybe a comment to follow up on the gentlelady's question 
concerning funding, and let me say, Dr. Pace, that I agree with 
your last statement concerning the United States and China.
    Talking about funding, and this is a question for all three 
of you gentlemen, and that is that if in fact NASA were funded 
at the 2008 funding levels, what effect will it have on human 
space exploration and on the human spaceflight industry, the 
industry as a whole and the workforce? And I would ask you, Mr. 
Maser, first.
    Mr. Maser. Well, certainly it is below the levels we had 
anticipated to develop the next-generation launch system. 
However, in 2008 at those funding levels, the shuttle was in 
operation with the presumption that shuttle is being retired, 
and you could reallocate those resources to the next-generation 
system. I think it would be very challenging, and I think we 
would have to capitalize on the ability to work more 
efficiently with our NASA partners and figure out how to 
operate within that budget, and so I think we would end up 
probably with lower overall industrial base. would it be 
devastating? Not as much as the situation we are in right now 
where we are doing nothing. And then we would have to look at 
timelines and we would have to look at priorities.
    I believe--you know, there is a lot of talk about budgets 
but I think the reality of the situation, reality that we 
haven't faced, at least as a Nation and an industry, is that we 
are going to have to figure out how do with the budgets that 
are afforded to us by Congress, and I believe a lot can be done 
and I believe there is a lot of ways to improve what we can do 
with those budgets. So personally from our perspective, if we 
headed on a path, we would figure out a way to achieve the same 
or similar scope as efficiently as possible. It might take a 
little bit longer, maybe with a little bit less people but it 
wouldn't be devastating.
    Mr. Costello. Dr. Pace?
    Dr. Pace. I think the main point is the policy instability 
we have had and budgetary instability over the last several 
years has been the thing that has imposed additional costs on 
NASA. I think NASA is fortunate to receive the funding it does. 
While I personally might like to see more, I think that the 
funding levels at 2008, 2009 levels, a lot can get done. The 
problem that the agency has had is that the composition and 
prioritization within the agency have shifted dramatically. The 
top lines have gone down, come back up, shot back down again. 
So if you are a budget and planning and programmatic person 
such as Doug Cooke and his staff, it is an incredibly difficult 
environment to work in. So policy stability and direction at 
whatever level of funding the Congress is willing to support 
and then maintain time on target for a couple of years to make 
progress, that is probably the most important contribution that 
can be made and I think there is still hope for that.
    Mr. Costello. Mr. Cooke?
    Mr. Cooke. Yes. Certainly I would agree with Mr. Maser that 
regardless of funding levels, we would work to do our best to 
make as much progress as possible. Dr. Pace points out an 
important fact that when you start working with the top level, 
then it matters how it is allocated within the agency. If I 
just look at the funding that we have, if the allocations were 
such that we had what we had in 2008, it is $200 million or 
$300 million less than we have right now this year, last year 
and next probably in that category. So it does matter how it is 
allocated. We would obviously do our best. The further it 
drops, the less we get done in a period of time.
    Mr. Costello. I thank you.
    Mr. Chairman, let me just comment. When we are talking 
about the authorization and the intent of Congress, I agree 
with someone who suggested that the way to make certain that 
the authorization is followed by the agency is through the 
appropriations process, and I would suggest that that is where 
we ought to be talking as far as the intent of the 
authorization, making sure that the appropriators understand 
that and look at the 2010 authorization.
    And finally, Mr. Cooke, let me commend you for your 
service. I understand that you have announced your retirement 
and that you are moving on, and you have had a distinguished 
career with the agency, and I think Chairman Hall said earlier 
that his remarks were not directed at you personally, and I 
have said the same thing, but you had a distinguished career 
and you have done, in my judgment, an excellent job for the 
agency and for the taxpayers, and I wish you well in the 
future.
    Mr. Cooke. Thank you, sir.
    Chairman Palazzo. Thank you for that, Mr. Costello, and I 
am sure the entire Committee appreciates your service over the 
years. Thank you for your commitment and your dedication.
    I want to thank all the witnesses for their valuable 
testimony here today, and the Members for their questions and 
their patience for the time overruns. It was a great exchange 
of information, and this membership has no lack of passion in 
finding solutions to NASA's problems.
    The Members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from Members.
    The witnesses are excused and this hearing is adjourned.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Mr. Douglas Cooke, Associate Administrator, Exploration 
        Systems Mission Directorate, National Aeronautics and Space 
        Administration

Questions for the Record from Chairman Steven Palazzo

Q1.  What concrete steps is NASA taking, or planning to take, to 
minimize delays and disruptions in the transition from Constellation 
program to the Space Launch System?

A1. The President is committed to ensuring America's continued 
preeminence in space and launching a new era of human spaceflight that 
takes us beyond where we have ever explored before. Space exploration 
inspires the next generation of scientists and engineers and 
contributes to important discoveries about Earth and the solar system 
as well as innovation that grows our economy and creates jobs. NASA 
shares Congress' goal of restoring our Nation's human space launch and 
exploration capabilities as soon as possible and is committed to 
implementing the Space Launch System (SLS) that Congress authorized in 
the NASA Authorization Act of 2010. NASA is also committed to 
responsible stewardship of taxpayer dollars. Especially in these fiscal 
times, we must be prudent so that our space exploration program remains 
sustainable in the long run.
    Over the last several months, NASA has evaluated options for 
developing an integrated and incremental development approach for the 
SLS, Multipurpose Crew Vehicle (MPCV) and their associated support 
elements that will be capable of achieving progress in an incremental 
and sustainable manner.
    On May 24, 2011, NASA announced its decision to accept the Orion-
based reference vehicle design, first outlined in NASA's January 2011 
report to Congress, as the Agency's MPCV. NASA further determined that 
the contractual partnership with Lockheed Martin Corporation maps well 
to the scope of the MPCV requirements outlined in the NASA 
Authorization Act of 2010 and the current contract will be used for the 
development phase of the MPCV.
    On September 14, 2011, NASA announced its selection of the design 
for a new space exploration system that will take humans far beyond 
Earth. This important decision will create high-quality jobs here at 
home and provide the cornerstone for America's future human space 
exploration efforts. This new heavy-lift rocket will be America's most 
powerful since the Saturn V rocket that carried Apollo astronauts to 
the moon and will be capable of launching humans to places no one has 
gone before, such as asteroids, Mars and other deep space destinations.
    In combination with the crew capsule already under development, 
increased support for the commercialization of astronaut travel to low 
Earth orbit, an extension of activities on the International Space 
Station until at least 2020, and a fresh focus on new technologies- 
this rocket is key to implementing the plan laid out by President Obama 
and Congress in the bipartisan NASA Authorization Act of 2010, which 
the President signed last year.
    This launch vehicle decision is the culmination of a months-long, 
comprehensive review of potential designs to ensure that the nation 
gets the best possible rocket for the investment-one that is not only 
powerful but is also evolvable so it can be adapted to different 
missions as opportunities arise and new technologies are developed.
    The rocket will use a liquid hydrogen and liquid oxygen fuel 
system, where RS-25D/E engines will provide the core propulsion and the 
J2X engine is planned for use in the upper stage. There will be a full 
and open competition to develop the boosters based on performance 
requirements. Its early flights will be capable of lifting 70-100 
metric tons before evolving to a lift capacity of 130 metric tons.
    The early developmental flights may take advantage of existing 
solid boosters and other existing hardware, which will help us control 
costs and make early tests smoother.
    NASA has continued important work on existing Ares and Shuttle 
contracts that will benefit the SLS, including:

        <bullet>  Assembly of the Orion Ground Test Article was 
        recently completed and it is being prepared for a series of 
        ground-based environmental tests to validate the Orion design 
        and computer models;

        <bullet>  The former Ares Project focused their development 
        efforts on technologies and processes that could be utilized in 
        the eventual SLS configuration, including vehicle avionics, J-
        2X engine testing, first stage motor testing (Development 
        Motor-3), and installation of upper stage tooling applicable to 
        large-diameter tanks; and

        <bullet>  Significant progress has been made in the 
        modifications to Pad B at Launch Complex 39 at Kennedy Space 
        Center in Florida. There are new fiber optic cables replacing 
        copper wire, new digital control systems for the pad utilities, 
        and a state of the art lightning protection system that helped 
        us clear the Shuttle during STS-135 processing. These 
        modifications have been done in continued preparation for clean 
        pad, multi-user capability including SLS.

Q2.  Your testimony states that NASA is considering infrastructure 
consolidation as part of the SLS program. What infrastructure 
consolidations are being considered and what are their anticipated cost 
savings?

A2. Moving forward on the SLS, one of NASA's greatest challenges will 
be to reduce the development and operating costs (both fixed and 
recurring) for human spaceflight missions to sustain a long-term U.S. 
human spaceflight program. We must plan and implement an exploration 
enterprise with costs that are credible and affordable for the long 
term under constrained budget environments.
    NASA is currently assessing a number of potential opportunities for 
reducing the institutional costs associated with developing, producing, 
and operating SLS. For example:

        <bullet>  Stennis Space Center: NASA continues to partner with 
        other federal government and commercial customers to maximize 
        utilization of the rocket test facilities at Stennis. United 
        Launch Alliance and the Air Force already utilize test stand 
        capabilities there, including the B1 test stand for RS-68 
        testing and the E-complex for component and small-thrust 
        testing. NASA is currently considering other potential 
        opportunities for sharing capabilities. In addition, NASA is 
        continuing to bring the A-3 test stand, which is under 
        construction and which NASA does not require for near-term 
        altitude testing, to a level that is safe to put in extended 
        standby until a future use is identified.

        <bullet>  Kennedy Space Center: As part of the 21st Century 
        Ground Systems Program initiative to recapitalize the launch 
        capabilities at KSC, NASA continues to seek additional users 
        and innovative uses for KSC infrastructure and capabilities, 
        including SLS, in an effort to increase operational efficiency 
        and reduce the launch costs for all customers. Discussions with 
        potential government and commercial users were initiated in FY 
        2010 and continue today.

        <bullet>  Michoud Assembly Facility: We are looking for 
        additional Government and non-Government users for that 
        facility.

        <bullet>  As part of Shuttle transition and retirement, a wide 
        range of facilities are being considered for retirement.

        <bullet>  At the Agency-level, capabilities forums are 
        conducted to examine needs for facilities with the objective to 
        consolidate and retire those not needed.

    Several of NASA's current industry partners such as ATK and Pratt 
Whitney Rocketdyne are also looking at infrastructure reduction, 
streamlining and consolidation to help reduce their fixed costs. In 
addition to prudent consolidation of infrastructure, the SLS Program 
will continue to examine ways to increase efficiency and agility to 
deliver an affordable and achievable heavy-lift system as soon as 
possible. Examples being considered in formulating SLS plans include 
the following:

        <bullet>  Using common parts and common designs across the 
        Government to reduce costs;

        <bullet>  Ensuring requirements are appropriately specific and 
        also that requirements applied to NASA crew launch vehicles are 
        similar to those provided to our eventual commercial crew 
        partners, thereby ensuring that NASA vehicles are not required 
        to meet more substantial requirements than commercial crew 
        vehicles and vice versa;

        <bullet>  Conducting insight/oversight activities of our 
        contract partners in a smarter way, thereby using our resources 
        more appropriately to focus on the high-risk items; and

        <bullet>  Ensuring that there are no unique configurations or 
        developments that do not end up directly supporting the final 
        system.


Q3.  What FY 2011 funds have been allocated to date on the SLS and MPCV 
projects?

A3. Please see the attached charts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Q4.  The Department of Defense and National Reconnaissance Office 
recently committed to buying eight Evolved Expendable Launch Vehicle 
(EELV) cores per year for each of the next five years. NASA did not 
commit to any purchases, and plans to rely on the NASA Launch Services 
2 contract for future acquisitions. What is the rationale for this 
decision and what is the cost savings, if any, resulting from this 
decision?

A4. On March 10, 2011, NASA, the U.S. Air Force (USAF), and the 
National Reconnaissance Office (NRO) signed a Memorandum of 
Understanding (MOU) related to Evolved Expendable Launch Vehicles 
(EELVs). The MOU included USAF and NRO commitments to procure booster 
cores during FY 2013 through FY 2017, subject to Milestone Decision 
Authority. At the time of signing this agreement, the NASA requirements 
for procurement of EELV booster cores had already been fulfilled 
through FY 2015, with one EELV procurement in FY 2011 and two EELV 
procurements in FY 2012. The NASA manifest beyond 2015 was not firm 
enough to commit to the procurement of further EELV booster cores 
during the FY 2013 to FY 2019 timeframe. NASA informed the Department 
of Defense (DOD) of its projected EELV procurements so that DOD could 
factor them into its planning.
    The majority of NASA's missions are not EELV-class payloads, and 
the Agency's requirements for launches on EELVs (i.e., Atlas V and 
Delta IV launch vehicles) have historically been one or two launches 
per year.
    Further, while the USAF and NRO launch payloads are specifically 
designed to be flown on EELVs, it is not a foregone conclusion that a 
NASA payload will be flown on an EELV. NASA procures its missions, 
consistent with the Commercial Space Act of 1998 (Public Law 105-303), 
through the NASA Launch Services II (NLS II) contract during a 
competition amongst the launch service contractors available on this 
Federal Acquisition Regulation (FAR) Part 12 contract. There are four 
contractors available to bid on NASA missions.
    Finally, in addition to the USAF and NRO booster core commitment, 
the EELV MOU also established the jointly-chaired Government Expendable 
Launch Vehicle (ELV) Executive Board as a forum for interagency 
communication of acquisition, certification, and programmatic ELV 
launch issues. This forum will be used by NASA to formally notify the 
ELV Executive Board (including DOD and NRO) of its intent to procure 
EELV booster cores so these launch service requirements can be taken 
into account along with a DOD ``block buy'' commitment, and thereby 
benefit all parties.
    Regarding cost savings, the NLS II contract enables NASA to 
continue to procure EELVs in a ``commercial'' manner and pay only the 
launch infrastructure cost associated with the NASA EELV launch flow 
(approximately $15 million per mission). In addition, the NLS II 
contract contains a ``most favored customer'' clause. This clause 
requires all NLS providers, including ULA, to charge NASA the same 
equivalent price for the basic launch service. The clause states:
    ``The Contractor hereby certifies the CLIN [Contract Line Item 
Number] prices for standard launch services (including standard mission 
integration) under this contract are no higher than the lowest price 
charged to any other commercial or U.S. Government customer for an 
equivalent launch service during the twelve (12) months both preceding 
and following contract award, or placement of a launch service task 
order. The Government shall be entitled to a one-time reduction in 
contract price for each standard launch service failing to meet this 
certification. The price credit will be equal to the difference between 
the standard launch service price under this contract and the lower 
price awarded for an equivalent launch service.''
    Thus, any NASA-procured EELV booster cores bought on the NLS II 
contract during the USAF block buy timeframe will receive the 
discounted pricing.
Background on NASA Launch Services
    The Commercial Space Act of 1998 requires NASA and other Federal 
agencies to plan missions and procure space transportation services 
from U.S. commercial providers to the maximum extent practicable; 
Section 202 of Public Law 105-303 defines space transportation services 
as a ``commercial item.'' The NASA Launch Service Program at Kennedy 
Space Center acquires these commercial launch services for NASA-owned 
and NASA-sponsored payloads through multiple Indefinite Delivery 
Indefinite Quantity Task Order contracts with negotiated not-to-exceed 
(NTE) prices. These NASA Launch Service (NLS) contracts provide launch 
services on a firm, fixed-price basis and incorporate best commercial 
practices to the maximum extent possible.
    The NLS contracts have been the primary mechanism to procure 
commercial launch services since June 2000. The original NLS contract's 
ordering period expired in June 2010. The NLS II follow-on contract was 
awarded in September 2010, and is essentially a continuation of the NLS 
contract. There are currently four providers on the NLS II contract: 
United Launch Alliance (ULA), Orbital Sciences Corporation (OSC), Space 
Exploration Technologies (SpaceX) and Lockheed Martin. To obtain an NLS 
contract, each provider had to meet the minimum qualification criteria, 
including being ISO9001 third-party certified and being a domestic 
source that is more than 50 percent owned by United States nationals.
    NASA-owned and NASA-sponsored launch services are competitively 
procured on the NLS contracts in accordance with FAR Part 12 through 
the competitive Launch Service Task Order (LSTO), using specific 
mission requirements. Each NLS provider is given fair opportunity to be 
considered for each task order provided they have had one successful 
flight prior to submittal of an LSTO proposal. The NLS providers are 
required to propose on all task orders unless the NLS Contracting 
Officer waives the requirements for legitimate reasons (e.g., limited 
capacity to perform, excessive performance capability, first successful 
flight not achieved). Evaluation and award is based on Best Value to 
the Government, considering standard proposal evaluation factors: 
technical capability/risk; reasonableness of proposed price; and past 
performance. The NASA LSP negotiates launch prices for its missions 
through the LSTO process. The NLS contacts have a pre-negotiated set of 
NTE prices for the standard launch services, however, the contractors 
may propose (and, previously, have proposed) a lower price than the NTE 
prices.

Questions for the Record from Rep. Sandy Adams

Q1.  Is NASA using the budget direction given by the NASA Authorization 
Act or direction given by OMB when doing its budget analysis of the SLS 
and MPCV?

A1. NASA remains committed to the faithful execution of the NASA 
Authorization Act of 2010 (P.L. 111-267), and the FY 2011 Full-Year 
Continuing Appropriations Act (P.L. 112-10). NASA has taken both laws 
into account when conducting ongoing schedule and cost analyses for the 
SLS and MPCV systems and their associated elements. Given that these 
Programs are multi-year endeavors, NASA must also take into account 
projections for funding in FY 2012 and out--projections that are 
included as part of any annual President's budget request.

Q2a.  There are currently 16 agencies doing climate change research. 
NASA has seen an increase in funding for climate change research and a 
decrease in funding for space exploration. How has the shift in funding 
from exploration and toward climate change research impeded your 
ability to advance human space flight?

A2a. The President's FY 2012 budget request continues the Agency's 
focus on a reinvigorated path of innovation and technological discovery 
leading to an array of challenging destinations and missions that 
increases our knowledge, develop technologies to improve life, to 
expand our presence in space for knowledge and commerce, and that will 
engage the public.
    NASA's budget reflects a balance of human space flight, science, 
aeronautics and technology development. The request prioritizes the 
International Space Station--and the safety and efficacy of its 
associated functions as well as a strong commitment to human 
spaceflight beyond low Earth orbit. It establishes critical priorities 
and invests in the technologies and excellent science, aeronautics 
research, and education programs that will help us in the future. The 
request supports an aggressive launch rate over the next two years with 
about 40 U.S. and international missions to the ISS, for science, and 
to support other agencies.
    The proposed FY 2012 budget funds all major elements of the 
Authorization Act, supporting a diverse portfolio of programs, while 
making difficult choices to fund key priorities and reduce other areas 
in order to invest in the future. NASA's mission remains fundamentally 
the same as it always has been and supports our new vision statement --
``To reach for new heights and reveal the unknown so that what we do 
and learn will benefit all humankind.''

Q2b.  What steps are being taken today to minimize the gap between the 
final shuttle flight and the operational capability of the SLS/MPCV?

A2b. The President is committed to ensuring America's continued 
preeminence in space and launching a new era of human spaceflight that 
takes us beyond where we have ever explored before. Space exploration 
inspires the next generation of scientists and engineers and 
contributes to important discoveries about Earth and the solar system 
as well as innovation that grows our economy and creates jobs. NASA 
shares Congress' goal of restoring our Nation's human space launch and 
exploration capabilities as soon as possible and is committed to 
implementing the Space Launch System (SLS) that Congress authorized in 
the 2010 NASA Authorization Act. NASA is also committed to responsible 
stewardship of taxpayer dollars. Especially in these fiscal times, we 
must be prudent so that our space exploration program remains 
sustainable in the long run.
    Over the last several months, NASA has evaluated options for 
developing an integrated and incremental development approach for the 
SLS, Multipurpose Crew Vehicle (MPCV) and their associated support 
elements that will be capable of achieving progress in an incremental 
and sustainable manner.
    On May 24, 2011, NASA announced its decision to accept the Orion-
based reference vehicle design, first outlined in NASA's January 2011 
report to Congress, as the Agency's MPCV. NASA further determined that 
the contractual partnership with Lockheed Martin Corporation maps well 
to the scope of the MPCV requirements outlined in the NASA 
Authorization Act of 2010 and the current contract will be used for the 
development phase of the MPCV.
    On September 14, 2011, NASA announced its selection of the design 
for a new space exploration system that will take humans far beyond 
Earth. This important decision will create high-quality jobs here at 
home and provide the cornerstone for America's future human space 
exploration efforts. This new heavy-lift rocket will be America's most 
powerful since the Saturn V rocket that carried Apollo astronauts to 
the moon and will be capable of launching humans to places no one has 
gone before, such as asteroids, Mars and other deep space destinations.
    In combination with the crew capsule already under development, 
increased support for the commercialization of astronaut travel to low 
Earth orbit, an extension of activities on the International Space 
Station until at least 2020, and a fresh focus on new technologies- 
this rocket is key to implementing the plan laid out by President Obama 
and Congress in the bipartisan NASA Authorization Act of 2010, which 
the President signed last year.
    This launch vehicle decision is the culmination of a months-long, 
comprehensive review of potential designs to ensure that the nation 
gets the best possible rocket for the investment-one that is not only 
powerful but is also evolvable so it can be adapted to different 
missions as opportunities arise and new technologies are developed.
    The rocket will use a liquid hydrogen and liquid oxygen fuel 
system, where RS-25D/E engines will provide the core propulsion and the 
J2X engine is planned for use in the upper stage. There will be a full 
and open competition to develop the boosters based on performance 
requirements. Its early flights will be capable of lifting 70-100 
metric tons before evolving to a lift capacity of 130 metric tons.
    The early developmental flights may take advantage of existing 
solid boosters and other existing hardware, which will help us control 
costs and make early tests smoother.
    NASA has continued important work on existing Ares and Shuttle 
contracts that will benefit the SLS, including:

        <bullet>  Assembly of the Orion Ground Test Article was 
        recently completed and it is being prepared for a series of 
        ground-based environmental tests to validate the Orion design 
        and computer models;

        <bullet>  The former Ares Project focused their development 
        efforts on technologies and processes that could be utilized in 
        the eventual SLS configuration, including vehicle avionics, J-
        2X engine testing, first stage motor testing (Development 
        Motor-3), and installation of upper stage tooling applicable to 
        large-diameter tanks; and

        <bullet>  Significant progress has been made in the 
        modifications to Pad B at Launch Complex 39 at Kennedy Space 
        Center in Florida. There are new fiber optic cables replacing 
        copper wire, new digital control systems for the pad utilities, 
        and a state of the art lightning protection system that helped 
        us clear the Shuttle during STS-135 processing. These 
        modifications have been done in continued preparation for clean 
        pad, multi-user capability including SLS.

    These capabilities will be brought online as soon as feasible.

Q3.  In your testimony to the subcommittee, you said in response to a 
question about how FY 2008 funding levels would affect NASA:
  ``regardless of funding levels we would work to do our best to make 
as much progress as possible. And Dr. Pace points at an important fact 
that when you start working with the top level then it matters how it`s 
allocated within the agency. ''
  NASA's human spaceflight programs are undergoing a once in a 
generation upheaval not seen since the end of the Apollo program. Why 
hasn't NASA and the Administration acknowledged this unique situation 
and reprioritized funding from other directorates to permit a more 
reasonable transition and adhere to the guidance of the Authorization 
Act?

A3. The President's FY 2012 budget request continues the Agency's focus 
on a reinvigorated path of innovation and technological discovery 
leading to an array of challenging destinations and missions that 
increases our knowledge, develop technologies to improve life, to 
expand our presence in space for knowledge and commerce, and that will 
engage the public.
    NASA has an incredible balance of human spaceflight, science, 
aeronautics and technology development. The request prioritizes the 
International Space Station--and the safety and efficacy of its 
associated functions as well as a strong commitment to human 
spaceflight beyond low Earth orbit. It establishes critical priorities 
and invests in the technologies and excellent science, aeronautics 
research, and education programs that will help us in the future. The 
request supports an aggressive launch rate over the next two years with 
about 40 U.S. and international missions to the ISS, for science, and 
to support other agencies.
    The proposed FY 2012 budget funds all major elements of the 
Authorization Act, supporting a diverse portfolio of programs, while 
making difficult choices to fund key priorities and reduce other areas 
in order to invest in the future. NASA's mission remains fundamentally 
the same as it always has been and supports our new vision statement --
``To reach for new heights and reveal the unknown so that what we do 
and learn will benefit all humankind.''

Questions for the Record from Acting Ranking Member Jerry F. Costello

Q1.  What is the primary mission that is leading to the requirements 
for the initial capability of the Space Launch System (SLS) and Multi-
Purpose Crew Vehicle (MPCV)? What is the target date for that mission 
and what has NASA determined as the subsequent missions for the initial 
SLS and MPCV capability and when will those missions occur?''

A1. NASA plans to launch an initial uncrewed test flight of an 
integrated early version of the SLS and the MPCV as early as 2017. At 
present, as designated by the President, a key early destination for 
human flight beyond LEO is a crewed flight to an asteroid by 2025. 
Other destinations to follow could include cis-lunar space such as the 
Earth-Moon Lagrange points, the lunar surface, and eventually Mars and 
its moons.

Q2.  Please describe in concrete terms what NASA is evaluating as it 
reviews Constellation contracts for potential translation to the SLS? 
What would be a definitive reason for not being able to transfer or 
modify Shuttle and Ares-I contracts for work on SLS?

A2. Analysis has been performed to make an assessment of contract scope 
to determine whether or not the SLS requirements are within the 
existing scope of the Ares contracts. If they are within the general 
scope of the existing contract(s), then it would be permissible to 
utilize the Ares contract(s) to accomplish SLS effort. If the analysis 
determines that the effort represents a material departure from the 
general scope of the original contract, then Federal Acquisition 
Regulations require competition or execution of a Justification for 
Other than Full and Open Competition prior to using the Ares contract 
for SLS effort. This analysis has been accomplished on a contract-by-
contract basis.
    NASA procurement teams have mapped SLS requirements. NASA has 
reviewed each element of Ares (First Stage, Upper Stage, Upper Stage J-
2X engine, and avionics) and Shuttle Program contracts (Space Shuttle 
Main Engines, External Tank, solid rocket booster) to determine whether 
the new SLS requirements would be within scope of current contracts. At 
the same time, NASA has assessed SLS competition options, including the 
potential degree of competition.

Q3.  What could be done with the projected level of resources in the FY 
2012 budget request in terms of building an operational capability for 
the SLS and MPCV and when would that operational capability be 
achieved?

A3. The President's FY 2012 Budget requested $1.0 billion for the MPCV 
and $1.80 billion for SLS. NASA's direction to expedite development of 
the two programs is consistent with the NASA Authorization Act of 2010.
    With funds requested in FY 2012, the MPCV Program will do a series 
of tests on the crew module ground test article that will determine how 
the integrated crew module and launch abort system respond to 
environmental and structural tests. In addition, the heat shield 
carrier structure will be finalized and integrated into the ground test 
article and taken to Langley Research Center for a series of water drop 
tests, which will mimic the landing conditions Orion will be subjected 
to. The program is also planning to conduct a series of parachute drop 
tests, wind tunnel tests, and arch jet tests. All of these will inform 
the most important milestone for the program in 2012 which is to begin 
building the components and manufacturing of the first space worthy 
Orion crew vehicle. This includes the integration of avionics, 
software, hardware and outfitting the module.
    With funds requested in FY 2012, the Space Launch System Program 
will make significant programmatic and technical progress in FY 2012 
toward a heavy lift operational capability, to include a System 
Requirements Review early in the fiscal year, enabling a System 
Definition Review in mid-2012. Current acquisition planning activities 
will lead to procurements necessary for the Design, Development, Test 
and Evaluation of systems for initial SLS test flights.
    Specific activities include refurbishment, fabrication and casting 
of Booster Qualification Motor (QM-1) for initial test flight 
application. Test and evaluation of the first J-2X development engine 
plus manufacturing and test of the second J-2X development engine and 
the J-2X powerpack assembly will occur in FY 2012, as well as design 
and development of core stage engines for initial test flights and 
evolved heavy lift capability. MPCV Adapter SRR and SDR are also 
planned for FY 2012, as well as initial design and development of 
payload adapter and fairing. And finally, design and development of 
baseline SLS Avionics and software, applicable to initial test flights 
as well as an evolved capability vehicle, and preparation for SLS 
avionics Preliminary Design Review will be achieved in FY 2012.
    In order to meet our flight test schedule, all of these milestones 
provided for in the FY 2012 budget request will need to be 
accomplished. The intent of the President's budget request and of NASA 
planning (and the earliest we can prudently estimate given the scale of 
SLS development) is to conduct the first uncrewed flight test of an 
MPCV atop the SLS by the end of calendar year 2017 and the first crewed 
flight test in 2021.

Q4.  Mr. Maser said in his prepared statement that if NASA is relieved 
of Constellation obligations, industry needs to know how the workforce 
will be transitioned and how the many investments will be utilized for 
future exploration efforts. Will industry have those answers when you 
provide your report to us in the late June timeframe? If not, what 
other activities and decisions are needed and when will those be 
completed?

A4. NASA has been preparing for Space Shuttle retirement since 2004, 
including conducting ongoing activities to facilitate transition of 
both key NASA civil service employees and contractor employees to other 
programs. The passage of the NASA Authorization Act of 2010 (P.L. 111-
267) has provided valuable direction to the Agency and improved its 
ability to make workforce planning decisions. With this guidance, NASA 
has continued its efforts to map out the transition of its human 
spaceflight workforce from the Space Shuttle and Constellation 
programs. This effort is reflected in the Agency's update to its 
Workforce Transition Strategy report, provided to Congress in 
September, 2011. The first three editions of this report may be viewed 
at the website below, under ``Workforce Highlights--View Archives.'' 
These reports provide details on NASA's initiatives to assist with 
workforce transition.

    http://www.nasa.gov/transition/

    On May 24, 2011, NASA announced its decision to accept the Orion-
based reference vehicle design, first outlined in NASA's January 2011 
report to Congress, as the Agency's MPCV. NASA further determined that 
the contractual partnership with Lockheed Martin Corporation maps well 
to the scope of the MPCV requirements outlined in the NASA 
Authorization Act of 2010 and the current contract will be used for the 
development phase of the MPCV. As such, the MPCV Program will continue 
the roles and responsibilities currently performed by the Orion civil 
service workforce amongst the NASA field centers.
    On September 14, 2011, NASA announced its selection of the design 
for a new space exploration system that will take humans far beyond 
Earth. This important decision will create high-quality jobs here at 
home and provide the cornerstone for America's future human space 
exploration efforts. The rocket will use a liquid hydrogen and liquid 
oxygen fuel system, where RS-25D/E engines will provide the core 
propulsion and the J2X engine is planned for use in the upper stage. 
There will be a full and open competition to develop the boosters based 
on performance requirements. Its early flights will be capable of 
lifting 70-100 metric tons before evolving to a lift capacity of 130 
metric tons.
    NASA intends to maximize efficiency and minimize cost by leveraging 
investments in legacy space launch systems, as the investments are 
determined to be in the best interest to NASA, while using evolutionary 
advancements in launch vehicle design. Additionally, NASA will employ 
modern manufacturing and processing techniques, improved insight/
oversight practices, and streamlined infrastructure requirements. 
Through this approach, NASA will employ key components of the existing 
industrial base and will utilize the critical skills and knowledge base 
of the NASA civil service and contractor workforce.
    NASA procurement teams have mapped SLS requirements. NASA has 
reviewed each element of Ares (First Stage, Upper Stage, Upper Stage J-
2X engine, and avionics) and Shuttle Program contracts (Space Shuttle 
Main Engines, External Tank, SRB) to determine whether the new SLS 
requirements would be within scope of current contracts. At the same 
time, NASA has assessed SLS competition options, including the 
potential degree of competition. Final acquisition decisions for the 
SLS are expected to be made this fall. Until that time, NASA cannot 
predict what industry workforce impacts there would be.
    With regard to civil servants, NASA's civil servants across the 
Agency should feel confident that there is exciting and meaningful work 
for them to do following the retirement of the Shuttle and the 
transition from Constellation, and the shift from assembly of the ISS 
toward ISS operations. Turning the Agency's focus toward a more 
capability-driven exploration architecture will offer far-ranging 
opportunities for the creative and skilled civil servant workforce 
across the Agency. There will be opportunities for them to apply their 
cross-cutting talents to new challenges, such as developing and 
demonstrating prototypes for human capabilities needed for beyond-LEO 
exploration. Here are just a few examples of enabling capabilities that 
must be developed before NASA can send crews beyond LEO--work that will 
be managed by the new Advanced Exploration Systems (AES) Program:

        <bullet>  Developing a ground-based test bed for demonstrating 
        life support systems needed to enable long-duration crewed 
        missions based on lessons learned from operation of the life 
        support systems currently in use on the ISS;

        <bullet>  Developing and testing components for an advanced 
        spacesuit to improve the ability of astronauts to assemble and 
        service in-space systems, and to explore the surfaces of the 
        Moon, Mars and asteroids;

        <bullet>  Developing design concepts for future space 
        exploration vehicles and deep-space habitats; and

        <bullet>  Conducting ISS and ground-based analog testing to 
        validate operational concepts for long-duration missions.

Q4.  How will lessons learned from the workforce, design and 
development work, and the management of Constellation be transferred to 
the SLS and MPCV programs? What are the most important take-away 
lessons from Constellation at this point?

A4. In planning the SLS and MPCV programs, NASA is taking to heart one 
of the key lessons of the Constellation Program--that a successful 
space launch system must be affordable, sustainable and realistic. The 
NASA Administrator has made clear that he will not propose a human 
spaceflight program that he is not fully confident he can deliver.
    Much of what Constellation has accomplished is indeed transferable 
to the SLS and MPCV programs. For example, after rigorous analysis, the 
Orion design and contract was found to be the correct technical answer 
for the MPCV. The J2-X engine development originally initiated as part 
of the former Ares Project is absolutely applicable to our needs for 
the heavy lift vehicle, as are the avionics for the Upper Stage. 
Additionally, the five-segment booster that continues to undergo 
development and testing will support our early flights while a 
competition for advanced boosters is initiated and awarded. Much of 
what is transferable is not just hardware, validated requirements and 
infrastructure elements, but also less tangible items such as knowledge 
and experience gained by our team with the Constellation Systems being 
developed; from better understanding of the role of Government through 
refined insight/oversight models to advanced manufacturing techniques 
for the Upper Stage. As we work to close out the Constellation Program 
we are also taking care to capture and build upon Program 
accomplishments, especially those technologies that have a high 
likelihood of feeding forward into the SLS and MPCV programs.
    From the beginning, the Constellation Program used electronic 
records and a centralized database to capture and manage all data, 
risks and knowledge learned, including information from test flights, 
hardware and software tests and programmatic reviews. Therefore, there 
is a wealth of information that the Program will be able to pass on to 
future human spaceflight developers, including those at NASA and those 
in the U.S. aerospace industry, when allowable by law.
    The Constellation Program also can be credited with helping to 
reinvigorate NASA's technical base. Following the development of the 
Shuttle, NASA's human spaceflight launch community focused on 
operations rather than development in that we were no longer a robust 
developmental Agency in terms of developing crew-launch systems, but 
rather an operationally-focused human spaceflight Agency. As such, the 
Constellation Program enabled us to re-learn how to build a crew launch 
system, beginning from the earliest stages of formulation and advancing 
through multiple key project review checkpoints and ultimately to the 
point where NASA, along with its industry partners, had built hardware 
and integrated systems that were used on two major test flights, the 
Ares I-X flight and the Pad Abort 1 (PA-1) flight for the Orion Launch 
Abort System (LAS). Each of these test flights produced substantial 
data that will be of great use to the MPCV and the SLS programs.
    Additionally, the Constellation Program allowed us to incorporate 
new technologies and testing methods that will certainly become the 
norm as we move forward with SLS and MPCV. Historically speaking, 
during the Apollo era, NASA had comparatively little experience with 
in-flight aborts and limited computational capability. Today, however, 
flight tests are being combined with advanced simulation tools and 
advanced computers, thereby allowing NASA to conduct a more thorough 
analysis of hardware and software elements and operating processes. In 
fact, the increased accuracy of our computer modeling scenarios has 
allowed NASA to forgo more expensive ground tests in some cases, and we 
expect to see this trend continue with the SLS and MPCV programs, 
whenever possible without sacrificing safety.
    Going forward, SLS and MPCV will continue to focus on a risk-
informed design approach, as Constellation has done, thus helping the 
Agency achieve its goal of increasing astronaut safety on the next-
generation human spaceflight system, relative to Shuttle missions. As 
such, NASA will continue to design systems with an overriding priority 
given to crew safety at every stage of the design and operational 
process. In doing so, we will design systems to be as inherently safe 
as we can make them; we will eliminate known risks and hazards; and 
then we will add backup such as an abort system to mitigate residual 
risks. In addition to leveraging heritage systems, when feasible, NASA 
will continue to utilize improved computer modeling to help identify, 
reduce and eliminate or mitigate hazards and risk. Additionally, we 
will continue to tightly interweave design and safety team members into 
the decision-making process, thereby allowing them to work with design 
engineers to provide expertise and feedback via various assessments and 
analysis techniques from the very beginning of the design process. At 
the same time, a prudent risk system will result in better cost/benefit 
assessments to improve overall affordability without sacrificing 
safety. Finally, NASA will continue to utilize its active risk-
management process to identify technical challenges early in the 
process and aggressively work solutions.
    NASA knows how important it is to identify ways to make our 
programs and projects more efficient, so finding and incorporating 
these efficiencies remains a primary goal. We have embraced the 
challenge to deliver human spaceflight systems for lower cost, and the 
opportunity to become more efficient, innovative and agile in our 
programs. For example, we are revising the management of our 
requirements, contracts, and projects and incorporating approaches to 
ensure affordability in the near term and over the long run. This 
includes the use of focused insight/oversight, specifying to industry--
where appropriate--what we need instead of how to build it, designing 
for cost-effective operations, increasing the use of common components 
and parts, and wisely consolidating infrastructure.

Questions for the Record from Rep. Donna Edwards

Q1.  What, in precise terms, does NASA mean by an incremental, 
evolvable SLS and MPCV? Please provide specific examples of how the 
systems will be evolved and when.

A1. While our initial development efforts would focus on the 70-100 
metric ton lift capability, in parallel, we would plan to capitalize on 
synergies between Core Stage and Upper-Stage design and manufacturing, 
thereby allowing us the ability to develop some of the upper-range 
capabilities for an eventual 130metric ton capability vehicle at the 
same time. Doing so is actually a fairly natural, evolvable progression 
in terms of developing these capabilities.
    This strategy allows for early test flights. These would include 
early flights that would begin with a lift capacity in the 70-100 
metric ton range, sufficient to get out of Low Earth Orbit with 
meaningful mission content, with the first flight targeted for the end 
of 2017 and the second flight targeted for 2021. Therefore, the 70-100 
metric ton flight configurations will offer early development of the 
Core Stage, continuation of the Orion-based design as the MPCV, an 
Upper Stage/kick motor capability that will enable a series of 
development missions/test flights beyond LEO, and use of existing solid 
rocket boosters.

Q2.  What is the baseline plan for the SLS and what, if anything, would 
cause NASA to deviate from that plan?

A2. The Administration is committed to supporting this development and 
working with the Congress to identify and provide the resources 
necessary to ensure America's leadership in space exploration 
continues. While the fiscal challenges facing the country are great, a 
shared commitment to sustaining a space program worthy of a great 
nation will be the key to the success of this new human spaceflight 
program designed and destined to move the focus of NASA's space 
exploration efforts beyond low-Earth orbit. In the end, any successful 
space launch system must be affordable, sustainable and realistic, and 
NASA will not propose a program we are not fully confident we can 
deliver.
    On September 14, 2011, NASA announced its selection of the design 
for a new space exploration system that will take humans far beyond 
Earth. This important decision will create high-quality jobs here at 
home and provide the cornerstone for America's future human space 
exploration efforts. This new heavy-lift rocket will be America's most 
powerful since the Saturn V rocket that carried Apollo astronauts to 
the moon and will be capable of launching humans to places no one has 
gone before, such as asteroids, Mars and other deep space destinations.
    In combination with the crew capsule already under development, 
increased support for the commercialization of astronaut travel to low 
Earth orbit, an extension of activities on the International Space 
Station until at least 2020, and a fresh focus on new technologies- 
this rocket is key to implementing the plan laid out by President Obama 
and Congress in the bipartisan NASA Authorization Act of 2010, which 
the President signed last year.
    This launch vehicle decision is the culmination of a months-long, 
comprehensive review of potential designs to ensure that the nation 
gets the best possible rocket for the investment-one that is not only 
powerful but is also evolvable so it can be adapted to different 
missions as opportunities arise and new technologies are developed.
    The rocket will use a liquid hydrogen and liquid oxygen fuel 
system, where RS-25D/E engines will provide the core propulsion and the 
J2X engine is planned for use in the upper stage. There will be a full 
and open competition to develop the boosters based on performance 
requirements. Its early flights will be capable of lifting 70-100 
metric tons before evolving to a lift capacity of 130 metric tons.
    The early developmental flights may take advantage of existing 
solid boosters and other existing hardware, which will help us control 
costs and make early tests smoother.

Q3.  What is the status of NASA's review of the industry studies that 
were funded in the Broad Agency Announcement? What criteria will NASA 
use to determine whether or not to incorporate concepts discussed in 
those studies into the SLS Reference Design and what analysis will be 
done to justify modifications to the existing SLS Reference Design?

A3. On July 29, 2010, NASA released Broad Agency Announcement (BAA) 
NNM10ZDA001K to solicit proposals for Heavy-Lift and Propulsion 
Technology Systems Analysis and Trade Studies (SATS) from industry. 
Specifically, the BAA sought technical solutions in support of heavy-
lift system concepts and system architectures, and to identify 
propulsion technology gaps to support NASA's goals. NASA's intent was 
to gather unique and innovative options, technologies, and concepts to 
incorporate any new ideas into Government models and analyses, and to 
use the information for future planning and potential acquisition.
    These activities helped determine the feasibility of meeting top-
level mission requirements with notional launch vehicle architectures, 
while defining affordability strategies, streamlining systems 
engineering approaches, and in identifying best practices that will be 
applied to the final concept selected to go forward into formal design 
and development. In addition, the BAA competition brought out 
competitive cost pricing that was below historical averages and costing 
model calculations. Innovations resulting from the BAAs were then 
incorporated into the SLS, MPCV, and GO Requirements Analysis Cycles 
(RACs).
    The RAC teams delivered their final results the week of February 
14, with BAA presented their final results to NASA on April 28. NASA 
used these trade studies to inform the concept sets chosen to go 
forward in the Analysis of Alternatives (AoA) process. One key finding 
of the AoA was that cost and risk assessments did not identify distinct 
discriminators among the alternatives. At $2.5 billion per year, none 
of these alternatives achieved beyond-LEO capability with acceptable 
risk prior to 2021 based on NASA cost and schedule estimates. Industry 
cost estimates through the BAA's were consistent with NASA estimates, 
and lower than NASA's historical cost models. However, there was one 
interesting finding--management and business approaches drive cost more 
than technical solutions do.
    Another key finding of the AoA was early full-vehicle competition 
adversely affects the retention of Agency critical skills and seriously 
impacts the current industrial base due to time-lag in final vehicle 
configuration selection (fuel type, mission and ground operations).
    Ultimately, the BAA competition strengthened the Government/
Industry relationships and an increased level of contractor-to-
contractor communication was observed.

Q4.  How does NASA intend to ensure the safety of both the SLS and MPCV 
and the ability to control costs, in light of its proposed 70 percent 
reduction in oversight? What oversight activities are you proposing to 
eliminate? What alternative means will you use to secure the 
information normally captured during those oversight activities?

A4. NASA will retain the oversight necessary to ensure safety.
    An example of improved insight and oversight can be found in the 
Orion project. A year-to-year reduction of nearly 70 percent of the 
dedicated oversight management workforce was realized. (Here it is 
important to note that oversight is not exclusively safety activities 
and the reduction was not to all oversight but rather to dedicated 
oversight by people in primarily a management role.) This included 
minimizing oversight, metering insight based on risk, establishing co-
located government contractor teams, and focusing on near-term test 
flight missions. This approach deployed the Government workforce to 
emphasize the engineering insight that comes from focused, in-line, co-
located contributions to design and testing, and to deemphasize 
dedicated oversight management.
    The net result of the rebalancing of resources toward hardware 
procurement and spacecraft production has been the ability to 
accelerate first test article delivery under a dramatically smaller 
budget. Government performance of in-line tasks was increased which 
refocused Government resources toward tasks directly contributing to 
design and testing efforts, further enhanced Government insight, and 
fostered a more integrated government and industry team.
    Through this process, the Government gains significant insight into 
the contractor's vehicle system and has early insight into any issues 
or concerns that could impact vehicle safety. The focused insight 
allows the government to make recommendations to the industry partner 
and the government oversight team to improve the vehicle design or 
correct a known issue/defect. As always, final Oversight decisions will 
be performed by NASA.
    NASA's commitment to safety is paramount.

Q5.  Last year, President Obama directed NASA to maintain the Orion 
development project for the purpose of serving as a crew rescue vehicle 
on the ISS. Is the requirement for modifying Orion as a crew rescue 
vehicle for the ISS still being pursued, and if not, how will crew 
rescue on the ISS be handled?

A5. NASA has efforts underway to develop an American-made commercial 
capability for crew transportation and rescue services to the station 
following this year's retirement of the Space Shuttle fleet. The Agency 
anticipates these systems will be available by the middle of the 
decade. These services will provide the primary transportation to and 
from the International Space Station (ISS) for U.S., Canadian, European 
and Japanese astronauts. To ensure a smooth transition as this new 
capability is developed, Russian Soyuz support will continue as a 
backup capability for about a year after commercial services begin. The 
use of Russian Soyuz services in support of the ISS is dependent on 
NASA's current exemption in the Iran, North Korea, and Syria Non-
proliferation Act (INKSNA). This exemption will expire in July 2016.
    NASA is also developing the Multi-Purpose Crew Vehicle (MPCV)--
based on the Orion Crew Exploration Vehicle--for missions of 
exploration beyond Low Earth Orbit (LEO). Work on the MPCV will focus 
only on the deep-space design. While the MPCV could be called upon to 
service the ISS--a backup requirement established by the NASA 
Authorization Act of 2010--it should be well understood that utilizing 
the MPCV for routine ISS transportation would be a very inefficient and 
costly use of the MPCV deep-space capability. NASA is confident in the 
ability of our commercial and international partners to provide all 
currently foreseen support for the ISS. Therefore, there is no 
intention to conduct routine LEO missions with the MPCV.
                   Answers to Post-Hearing Questions
Responses by Dr. Scott Pace, Director, Space Policy Institute, George 
        Washington University

Questions submitted by Subcommittee Chairman Steven Palazzo

Q1.  When discussing aerospace industrial base, and specifically our 
ability to compete with launch services, the conundrum appears to be 
that most missions flown from US launch facilities are government 
payloads. Commercial customers are taking their business to foreign 
launch facilities simply because they are less expensive. Are there 
steps Congress and government could take to make US launch companies 
more competitive? Do you have any suggestions about how to keep US 
commercial payloads on our shores?


A1. There are many reasons why commercial operators have gone off-shore 
to European and Russian launcher suppliers and cost is only one 
consideration, albeit an important one. Demonstrated reliability, 
schedule flexibility and schedule assurance are great importance to 
firms launching revenue-generating satellites. One of the limitations 
at the Kennedy Space Center is a congested launch manifest due to pad 
constraints (i.e., only one pad each for the Atlas 5 and Delta 4 EELVs) 
as well as staffing limits that constrain total launches to about eight 
per year.
    Short of direct subsidies, the government can do little to affect 
near-term commercial competitions. One thing the government can do 
however is support launch range modernization and facility improvements 
that would create more schedule flexibility. The most effective long-
term actions would be to support development of a new generation of 
efficient liquid propulsion systems, such as the J2-X, and ensure 
stable policies are in place so that industry can make efficient 
production decisions. As I mentioned in my testimony, the lack of 
stable architecture for exploration beyond Earth orbit and uncertain 
demand for engines such as the RS-68 have driven up the costs of U.S. 
launch vehicles.
    Finally, it may be worth considering means by which U.S. launch 
suppliers could become more competitive for international payloads by 
creating international partnerships. For example, the ``Liberty'' 
concept of using ATK solid rocket motors and an Ariane liquid 
propulsion core upper stage could be used to launch European commercial 
payloads as well as U.S. government payloads from the United States. A 
robust and capable heavy lift vehicle could relieve some of the 
capacity issues at acceptable costs if it could reach a flight rate of 
4-6 launches per year instead of just two per year for human space 
flight missions.
Q2.  Your testimony does a very good job reminding us about the lessons 
from the Columbia Accident Investigation Board. Crew safety is an 
overriding concern. You suggest that the MPCV and SLS are not adhering 
to the safety standards of the previous Constellation system. Would you 
elaborate on your observation? As you see it, is there an inherent 
safety problem with the systems under consideration, or is the problem 
the lack of clear commitment from the administration?

A2. I apologize if I gave the impression that I thought the MPCV and 
SLS are not adhering to the safety standards of the Constellation 
program. I believe they are - and as was recently announced, the MPCV 
is essentially the Constellation program's Orion spacecraft.
    The point I was attempting to make is that probabilistic risk 
assessments of varying designs, such as Ares 1, human-rated EELVs, and 
Shuttle-derived heavy-lift vehicles give different results for the 
safety, i.e., the probability of crew loss. These differences are due 
to many factors, such as the reliability of the vehicle's design (e.g. 
simpler, fewer parts are preferred), flight heritage (e.g., more real-
world experience is preferred), and the effectiveness of the flight 
termination and crew escape systems. In comparing these factors, the 
Ares 1 was preferred over other alternatives on a crew safety basis by 
a significant margin. The variety of configurations being discussed for 
the SLS are all more complex than the Ares 1 and while using many 
demonstrated Shuttle components, some will be new and lacking in flight 
heritage (e.g., the expendable SSME or RS-25F; the J2-X being common to 
the SLS and Ares 1 upper stage). This doesn't mean the SLS or other 
designs could not attain the same safety levels as promised in the 
Areas 1 design, but it would take more design work and flight 
experience to do so.
    The Congress should closely monitor the connection between NASA 
funding levels and safety. Under severe budget pressure, project 
managers must make very difficult choices in how much engineering 
testing is done to `certify' the design of high-risk components. There 
are competing interests that come into play when projects are funded at 
low levels, with little to no funding reserves to deal with the 
inevitable issues that arise in a complex development program.

Questions for the Record from Acting Ranking Member Jerry F. Costello

Q1.  As the former Associate Administrator of NASA's Office of Program 
Analysis and Evaluation, what is your perspective on NASA's plan for an 
independent cost assessment? Is the plan sufficient for providing a 
robust and credible cost estimate to Congress? If not, what more is 
needed to ensure that Congress can have confidence in the cost and 
schedule estimate that will be provided as part of the final report on 
SLS to be transmitted to Congress this summer?

A1. Cost estimates are not just ``point estimates'' but have varying 
levels of uncertainty associated with them. For example, a cost 
estimate at a 50% confidence level is very different than a cost 
estimate for the same project at a 70% confidence level. Cost estimates 
are not just about money, but represent an integration of money, 
schedule, and risk. NASA has the capability to provide good independent 
cost assessments and good policies in place to enable such assessments. 
The challenge will be in ensuring the policies and processes are 
implemented in a rigorous, objective fashion.
    Current NASA policy calls for a joint cost-schedule estimate at the 
70% confidence level at KDP C, the transition from Formulation to 
Implementation. Congress should recognize and expect that prior to KDP 
C, there should be a range of cost estimates and associated confidence 
levels that are used to support program planning and design choices. 
Cost estimates become more exact as a project matures technically. The 
inclusion of schedule risk is a new and more realistic addition but 
since it is new, implementation and training challenges can be 
expected.
    Congress should ensure that there is a process for comparing and 
reconciling cost estimates created by the project itself, NASA's 
internal independent cost estimators, and any outside cost estimate 
that made be required. The reconciliation process is a useful way of 
uncovering underlying assumptions about technical and programmatic risk 
and clarifying what risk the agency is actually prepared to accept. At 
the same time, NASA and the Congress should be particularly attentive 
to the cost implication of excessive risk aversion - that is, building 
in more reviews and oversight and paperwork to deal with even minor 
developmental risks. In this regard, it can sometime be more effective 
to budget for a robust series of hardware and flight tests. If the 
tests go well, budget can recovered for use on other problems in the 
project. If tests uncover unexpected problems, the project team 
benefits from learning about them earlier. This was indeed the path the 
Constellation Program planning headed toward following successful 
completion of the Ares I-X test flight in October 2009.
    In summary, Congressional oversight should seek to understand what 
factors drive the confidence levels of the cost estimates, the process 
used for reconciling independent and project-based cost estimates, and 
whether there is a robust test program to identify problems early. To 
this end, a strong, expertly staffed independent cost and program 
evaluation function is one of the highest leverage management 
investments one can make at NASA Headquarters. If utilized properly, it 
can help the agency head off problems early and be a valuable resource 
for improving program and project outcomes.

Q2.  NASA is expected to soon deliver an integrated plan for the SLS 
and MPCV vehicles.

          <bullet>  In your view, does this constitute a plan for the 
        exploration program going forward? If not, what more do 
        Congress, industry, and other stakeholders need to know in 
        order to have a complete plan for the future of human 
        exploration?

          <bullet>  What should Congress be looking for as it evaluates 
        this forthcoming plan?

A2. The Augustine Committee made a clear recommendation on a path going 
forward, in particular:
    Augustine pg 71: In the end, the Committee thought that the most 
cost-effective fallback option that would move NASA most rapidly toward 
exploration is to continue to develop the Orion, and move as quickly as 
possible to the development of a human-ratable heavy lift vehicle. The 
first stage of any of the heavy-lift launchers under consideration 
would be more than capable of launching an Orion to low-Earth orbit.
    An integrated MPCV/SLS plan would be expected to meet this 
recommendation and should be welcomed. Unfortunately, there continues 
to be great uncertainty over what this capability is to be for. As 
covered in my testimony:
    ``The lack of a U.S. focus on human lunar return and an associated 
architecture is one of the most serious programmatic gaps that make 
transition planning difficult. Efforts to find a feasible and 
attractive mission to a Near Earth Object (NEO) have not been 
successful and likely await the completion of a more complete survey of 
such objects. Sending humans to Mars remains too technically difficult 
and expensive at our current level of development. The Moon was and 
continues to be the logical focus for efforts to move humans beyond low 
Earth Orbit as well as being vital to future commercial 
developments.The international space community has developed a lunar 
architecture as part of a large Global Exploration Strategy with strong 
U.S. technical participation. We should consider making greater use of 
international partners through existing international mechanisms to 
create a more rational approach for our own plans.''
    I would suggest that the Congress could consider updating the 
directions it provided NASA in its FY2008 Authorization Act to 
encourage a clearer, international strategy for returning to the Moon. 
This would clarify priorities for the MPCV/SLS programs, provide a 
firmer foundation for international engagement in exploration beyond 
the International Space Station, and encourage longer-range but still 
practical thinking about possible roles for the private sector in 
supporting exploration.
Q3.  You identified updated workforce transition plans as one of the 
first measures Congress would use to judge the success of NASA's 
transition plans. What should we expect to see? How detailed were prior 
workforce plans for transitioning from Shuttle to Constellation? What 
were the lessons learned from these prior efforts?

A3. The Congress should expect to see an annual workforce transition 
plan at least as detailed as what was provided at the end of the last 
Administration, specifically the report on the Space Shuttle and 
Constellation Workforce of March 2008. That report responded to the 
directions in the Consolidated Appropriations Act of 2008 (PL 110-161) 
that called for a strategy that would include:
    1) Specific initiatives that the National Aeronautics and Space 
Administration has undertaken, or plans to undertake, to maximize the 
utilization of existing civil servant and contractor workforces at each 
of the affected Centers; (2) Efforts to equitably distribute tasks and 
workload between the Centers to mitigate the brunt of job losses being 
borne by only certain Centers; (3) New workload, tasks, initiatives, 
and missions being secured for the affected Centers; and (4) Overall 
projections of future civil servant and contractor workforce levels at 
the affected Centers.
    Based on multiple instruments, such as workforce surveys and time 
charges, it should be possible to reconcile civil service workforce 
assignments across all NASA centers and mission directorates. Skill 
gaps and surpluses, both present and projected, should be identifiable 
along with plans to rectify those imbalances over time. The ``go to'' 
workforce and skill levels should be aligned with the directions given 
to NASA by the Administration and Congress.
    In order to make future projections, NASA would need to have 
strategic workforce management model that links workforce levels to 
varying assumptions about budgets, center project assignments, work 
contracted out, and necessary skills at each Center. In essence, NASA 
should be able to project how many people it will need over the coming 
decade based on what it is being asked to do, costs estimates for those 
projects, and expected budgets and schedules. The NASA Office of 
Independent Cost and Program Evaluation (formerly, Program Analysis and 
Evaluation) could do this work in cooperation with the Office of the 
Chief Financial Officer and the Office of Human Capital Management. 
However, to be most useful, such an analysis would benefit from 
guidance on what level of expertise (i.e., ``intellectual capital'') is 
to be retained by NASA for developing and operating flight hardware. Or 
to what extent NASA is expected to only perform R&D with actual 
development and operational skills coming from the private sector.
    In terms of lessons from prior workforce transition efforts, they 
biggest benefit came from having a program to transition the Shuttle 
workforce to, i.e., Constellation. Although job losses and retirements 
were expected with the end of the Shuttle program and consequent 
``gap'' prior to the first flight of Ares 1, core skills were to be 
retained. These skills were those considered necessary to developing 
and flying the next generation of human-rated spacecraft by NASA. The 
lack of a clear transition path today, the certainty of a much longer 
gap in government-developed flight system testing in the MPCV/SLS 
construct, and the uncertainty as to any future roles in developing and 
operating human-rated spacecraft make the current environment a 
difficult one for workforce planning. Thus the most important step for 
workforce planning is to ensure NASA has a clear set of programs and 
mission direction to transition to. The details would then become 
clearer.
                   Answers to Post-Hearing Questions
Responses by Mr. James Maser, Chairman, Corporate Membership Committee, 
        The American Institute of Aeronautics and Astronautics

Questions submitted by Subcommittee Chairman Steven Palazzo

Q1.  When discussing aerospace industrial base, and specifically our 
ability to compete with launch services, the conundrum appears to be 
that most missions are taking their business to foreign launch 
facilities simply because they are less expensive. Are there steps 
Congress and government could take to make US launch companies more 
competitive? Do you have any suggestions about how to keep US 
commercial payloads on our shores?

A1. This is a complicated subject that crosses supply and demand 
economics as well as national agendas for access to space for security 
and exploration. As such, the reply attempts to address both of these 
topics.
    The U.S. industrial base is a national asset that needs to be 
considered, addressed and optimized at the national level, rather than 
at individual agency levels (NASA and DoD). To make U.S. launch 
companies more competitive, the government must define an integrated, 
long term roadmap and strategy for access to space for national 
security and exploration that is relatively stable and predictable. The 
U.S. government must continue to invest in the industrial base in a 
stable and predictable manner, such that industry can align their 
strategy and investment consistently with more predictable returns and 
outcomes. Clearly the current discontinuity in our NASA exploration 
plans is creating a lot of inefficiencies that drive costs up. The U.S. 
government must continue to invest in and ensure that NASA pursues a 
robust space launch program, specifically a heavy lift launch 
capability immediately.
    Clearly, on the international commercial launch market, the 
selection of a commercial launch provider, once proven, is based 
primarily on launch cost and secondarily on other factors such as 
availability and demonstrated reliability. However, currently other 
nations do not solely let market forces define the construct of their 
industrial base and take proactive steps to ensure the capabilities 
they believe are critical to their national agenda are maintained and 
healthy regardless of the commercial market. In order to provide lower 
commercial launch prices other nations carry the fixed costs necessary 
to achieve their national access to space objectives and allow their 
national launchers to sell commercial launches using marginal pricing 
based on the additional costs required to build the hardware and launch 
that specific satellite. The benefit to the government providing this 
type of launch subsidy is to increase the launch tempo of their systems 
affording improved reliability. Additionally, foreign national 
launchers have a continuous preplanned product improvement activity 
funded to eliminate the cost of obsolescence replacement costs from 
being passed on to users.
    Furthermore, as new countries develop advanced launch capabilities, 
such as China and India and perhaps soon, South Korea, they are having 
an impact on the commercial market. First, as described above, they 
increase the supply of commercial launchers in a relatively fixed 
commercial demand environment, placing increased pressure on subsidies 
and pricing. Second, prior to having indigenous launch capability, they 
purchased launches for national satellites commercially. As they 
develop the launch capability, these launches are assigned to their 
vehicles and actually serve to pull commercial satellite launches from 
the market, thus reducing the demand for commercial launches relative 
to the supply. So as more nations develop launch capability, the more 
supply is available with subsidized pricing while demand remains 
relatively flat at best. Any country that expects their launchers to 
compete purely on market forces will find themselves in a less 
competitive position simply due to supply, demand, fixed and variable 
cost economics.
    The Congress could take action to assure a steady government demand 
for launchers, fund a robust preplanned product improvement effort, and 
allow for marginal pricing of launchers to commercial customers. 
Further the Congress could request a study to understand the true total 
government demand for launches across civil and Department of Defense 
and assess whether adding launch capacity and dividing up the volume 
among multiple launch providers is more efficient in the long run than 
concentrating launches in one or two launch providers.

Q2.  Given the impending end of the shuttle program how does the 
uncertainty of developing a follow-on system threaten our industrial 
base; can you characterize the capabilities that are at risk? Perhaps 
give examples from your own experience.

A2. The uncertainty of a shuttle follow-on system hits the industry at 
every level with devastating consequences to our human space flight 
program and ultimately our nation's position as the leader in space. In 
addition, there are potential ramifications and impacts to our national 
security access to space since much of the critical skills and 
industrial base supporting this sector have been maintained by NASA 
investment. Each company is forced to reduce workforce across the board 
to account for the reduced workload. Certain skill sets, such as launch 
site operations and mission analysis will experience immediate 
reductions in capability. Without immediate commencement of development 
work on SLS all other areas of expertise will be reduced until the 
industry undergoes a significant drop in capability going into next 
year. The important thing to remember is that these are not widget 
makers that are being put on the streets. They are rocket scientists, 
some of the most intelligent, highly-skilled, technically minded people 
in our country. These are professionals who have spent decades and 
decades building up their corporate knowledge. Once these people leave 
the industry, they generally do not come back. This capability will 
need to be rebuilt resulting in a significant increase in cost and 
delay in schedule once NASA's going forward plan for human space 
exploration is established.
    Clearly, the best way to minimize the impact and damage that has 
already been done is to move on swiftly with full funding into 
development of the Space Launch System capability.

Questions submitted Acting Ranking Member Jerry F. Costello

Q1.  Are the actions NASA is taking to ensure that the agency retains 
critical human spaceflight skills and capabilities during the 
transition from Constellation to SLS and MPCV enough, in your view, to 
sustain workforce capabilities? If not, what other actions are 
required?

A1. Without question, the actions taken by the NASA are not even close 
to sufficient to retain critical human spaceflight skills and 
capabilities. It has been more than 17 months since Constellation was 
canceled and they still have not announced the architecture for a heavy 
lift launch vehicle despite Congress mandating that they do just that. 
Had it not been for Congress mandating that Constellation efforts 
continue while NASA decides what to do instead, the situation would be 
much worse. However, now it appears NASA no longer has that constraint.
    Additionally, while SLS has been funded by Congress, it is not 
clear how the money has actually been or is being spent on the SLS 
program There is speculation in industry that some of this funding is 
being diverted to other tasks and all work actually related to these 
programs are being either slowed or not started. The impacts of these 
continued delays, indecision and lack of a sense of urgency are being 
illustrated every day with the thousands of layoff notices being issued 
by space industry manufacturers across the country. We would recommend 
that Congress hold NASA to their legislated directive to make an 
immediate decision on SLS and that the funding provided for SLS and 
MPCV actually be provided directly to those programs so that a smooth 
skills transition could take place as the Space Shuttle program ends.

Q2.  What issues and challenges does the aerospace industry face in 
light of movement away from Constellation? How many companies are 
affected and what types of businesses are hit the hardest? Are they 
mainly primes or sub-tier contractors? Are some of these small 
businesses? How dependent are these companies on NASA work? What is the 
impact on your workforce?

A2. The existing issues and challenges were not caused specifically by 
the movement away from Constellation. While cancellation of 
Constellation was certainly a significant development, the issues and 
challenges have resulted from NASA's total lack of movement on naming a 
replacement for Constellation, despite the fact that the program was 
canceled more than 17 months ago. The very precarious situation we 
currently find ourselves in as an industry and as a nation was totally 
avoidable. And the negative impacts can still be mitigated if NASA will 
make a decision, spend the full funding they've been appropriated, 
partner with industry to achieve efficiencies and get moving NOW, not 
one, three or five months from now.
    The cancellation of Constellation has created a series of 
challenges for the entire aerospace industry which is compounded by the 
lack of a replacement direction and now exacerbated by the end of the 
Space Shuttle program. The original plan was to ensure any overlapping 
capabilities or suppliers from Shuttle to Constellation would have a 
smooth transition. Now there is no transition, and remaining efforts on 
elements of Constellation have been slowed significantly such that all 
involved companies are forced to spend significant effort in 
renegotiating and slowing down planned effort hurting all tiers of the 
industry. This slow-down or outright cancellation of effort has forced 
all parties to resize their business to accommodate the reduced volume. 
Among the hardest hit are the companies who have the highest percentage 
of their business volume working products built to the exacting NASA 
standards. Small, specialized suppliers are being forced to exit this 
type of business and are unlikely to reenter without significant 
financial incentive. Examples of this are specialty electronics 
providers, super alloy production facilities, and specialty machining 
operations companies. As these specialized lower tier producers exit 
the market, designs will either have to adapt to lesser component 
capability or incur the increased costs of creating in-house capability 
at higher tier suppliers. It is safe to say that thousands of companies 
are feeling some impact and hundreds are feeling significant impact as 
a result of Constellation cancellation and lack of follow-on orders or 
direction.

Q3.  Congress needs a better understanding of when companies reach the 
point-of-no-return when it comes to being at risk of losing their 
critical mass of key capabilities and skill sets. Is there a point 
where companies have to make a decision to leave the market? What, 
exactly, would trigger that decision?

A3. While there is no singular event that constitutes a ``point of no 
return'' since capability has been eroding steadily since the 
announcement of the cancellation of Constellation more than 17 months 
ago, it is fair to state that a major loss of capability is happening 
now, and will reach a dramatic crescendo by the end of FY2011 once the 
Space Shuttle work force is released with no other work in place to 
employ them. There has been a marked increase in skilled personnel 
attrition since the announcement however as a major reduction in force 
is implemented it is clear that many skilled personnel will leave the 
industry forever.
    This erosion is not just a loss in current capability, it is a loss 
in future capability. Our workforce is aging and, with Constellation, 
we were in the process of hiring, training and motivating our next 
generation of high technology rocket scientists. Now, not only have we 
been reducing this demographic, we have also created a sense of 
disillusionment with the space industry. Commercial space will not make 
up for this, as ultimately that model is to take mostly existing 
technology and transform it into a profitable space trucking and taxi 
business. The real inspiration, motivation and innovation that has made 
this country a world leader, not just in space, but in many high 
technology areas of commerce, has come from the NASA hard challenges 
that push the limits of our knowledge and capability. As it stands 
right now, aside from some abstract statements, those challenges do not 
exist. This capability will need to be rebuilt at significant 
additional, and unnecessary, cost and time, once NASA decides what to 
do and how to do it. If too much time passes, and we get used to being 
mediocre, this nation may lose the willpower or desire to remain a 
leader.
    Smaller companies who have traditionally relied on space flight 
business are also opting to leave the market due to greatly reduced 
volumes in the defense segment and made worse by the end of NASA 
development. Higher tier suppliers are forced to develop new suppliers 
who are reluctant to invest in these capabilities causing all launch 
costs to increase significantly. This has implications beyond NASA into 
the Department of Defense who will carrier a much heavier financial 
burden without NASA's ongoing investment in launch technology.

Q4.  Are there international suppliers that would fill the gap if U.S. 
companies leave the market? Are there national security issues should 
the U.S. have to rely on foreign suppliers?

A4. There are many international suppliers who have been actively 
pursuing a position in the U.S. space market. They are all subsidized 
by their indigenous governments to service national security launch and 
are offering their products at marginal pricing within the U.S. As 
domestic suppliers have exited the industry due to lack of investment , 
lack of a stable and consistent strategic roadmap, lack of volume and 
opportunities for work, more foreign sourced components are finding 
their way onto U.S. launchers since it is cost prohibitive to recreate 
and sustain them going forward without any clear market demand.. The 
issues created by reliance on foreign suppliers are largely centered on 
two areas. First, these components cannot be optimized for U.S. use 
very effectively due to export control restrictions which prohibit co-
development hardware with missile applicability. The second issue is 
that assured availability is at risk since each supplier's national 
policy could prohibit use of their components on defense related 
applications. Every other space faring nation has chosen to support its 
national infrastructure so that it has assured access to space. Only 
the U.S. has opened up its space markets while simultaneously 
prohibiting much of its domestic supply base from competing in foreign 
markets using marginal pricing.
    Clearly, as mentioned earlier, The U.S. space industrial base is a 
national asset that needs to be considered, addressed and optimized at 
the national level, rather than at individual agency levels. To make 
U.S. launch companies more competitive, the government must define an 
integrated, long term roadmap and strategy for access to space for 
national security and exploration that is relatively stable and 
predictable. The U.S. government must continue to invest in the 
industrial base in a stable and predictable manner, such that industry 
can align their strategy and investment consistently with more 
predictable returns and outcomes. Simply allowing foreign supply in for 
critical, strategic capabilities that those nations have chosen to 
maintain and then market elsewhere because they offer lower prices is, 
in many cases a short term budget fix that creates long term issues. 
However, since it happens slowly over time, one critical supplier at a 
time and in the context of no national industrial base strategy, it 
goes unnoticed, until one day we are paying other countries to provide 
for our exploration and defense on their terms.

                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
